<html>
<title> - NOMINATION OF SURGEON GENERAL DESIGNATE, VIVEK HALLEGERE MURTHY</title>
<body><pre>[Senate Hearing 113-659]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-659
 
                 NOMINATION OF SURGEON GENERAL DESIGNATE, 
                              VIVEK HALLEGERE MURTHY

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

 NOMINATION OF VIVEK HALLEGERE MURTHY, OF MASSACHUSETTS, TO BE MEDICAL 
                     DIRECTOR IN THE REGULAR CORPS

                               __________

                            FEBRUARY 4, 2014

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                
                                
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
                          U.S. GOVERNMENT PUBLISHING OFFICE
86-664 PDF                    WASHINGTON : 2015                         
      
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3255425d72514741465a575e421c515d5f1c">[email&#160;protected]</a>  
     
      
      


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland
PATTY MURRAY, Washington
BERNARD SANDERS (I), Vermont
ROBERT P. CASEY, JR., Pennsylvania
KAY R. HAGAN, North Carolina
AL FRANKEN, Minnesota
MICHAEL F. BENNET, Colorado
SHELDON WHITEHOUSE, Rhode Island
TAMMY BALDWIN, Wisconsin
CHRISTOPHER S. MURPHY, Connecticut
ELIZABETH WARREN, Massachusetts

                                     LAMAR ALEXANDER, Tennessee
                                     MICHAEL B. ENZI, Wyoming
                                     RICHARD BURR, North Carolina
                                     JOHNNY ISAKSON, Georgia
                                     RAND PAUL, Kentucky
                                     ORRIN G. HATCH, Utah
                                     PAT ROBERTS, Kansas
                                     LISA MURKOWSKI, Alaska
                                     MARK KIRK, Illinois
                                     TIM SCOTT, South Carolina
                                       

                      Derek Miller, Staff Director

        Lauren McFerran, Deputy Staff Director and Chief Counsel

               David P. Cleary, Republican Staff Director

                                  (ii)



                            C O N T E N T S

                               __________

                               STATEMENTS

                       TUESDAY, FEBRUARY 4, 2014

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................     3
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................     4
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...    15
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland.......................................................    16
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming..    19
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................    21
Scott, Hon. Tim, a U.S. Senator from the State of South Carolina.    23
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    25
Roberts, Hon. Pat, a U.S. Senator from the State of Kansas.......    27

                                Witness

Hallegere Murthy, Vivek, M.D., MBA, Boston, MA...................     5
    Prepared statement...........................................     8

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Richard Carmona, M.D., M.P.H., FACS, letter..................    31
    Letters of Support...........................................    32
    Response by Vivek Hallegere to questions of:
        Senator Alexander........................................    56
        Senator Enzi.............................................    60
        Senator Burr.............................................    61
        Senator Hatch............................................    63
        Senator Roberts..........................................    69
        Senator Murkowski........................................    73
        Senator Murray...........................................    74
        Senator Sanders..........................................    76
        Senator Franken..........................................    76
        Senator Casey............................................    78

                                 (iii)

  

 NOMINATION OF VIVEK HLLEGERE MURTHY, OF MASSACHUSETTS, TO BE MEDICAL 
                     DIRECTOR IN THE REGULAR CORPS

                              ----------                              


                       TUESDAY, FEBRUARY 4, 2014

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:32 a.m. in 
room SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Alexander, Mikulski, Casey, 
Murphy, Warren, Enzi, Isakson, Roberts, and Scott.

                  Opening Statement of Senator Harkin

    The Chairman. Good morning, everyone.
    The Senate committee on Health, Education, Labor, and 
Pensions will please come to order.
    I am pleased to welcome Dr. Vivek Murthy, President Obama's 
nominee to be the next Surgeon General of the United States. I 
would also like to recognize all of his friends and family who 
are here with him, and I know that he will be introducing them 
later on.
    As the Nation's Doctor, the Surgeon General serves as our 
Nation's primary spokesperson and advocate on matters of public 
health, and is a critical leader in the response to public 
health crises and national emergencies, including natural 
disasters, disease outbreaks, and terrorist attacks. 
Specifically, the Surgeon General is responsible for leading 
the U.S. Public Health Service Commissioned Corps, the Medical 
Reserve Corps, and the National Prevention Council, which I am 
proud to have created in the Affordable Care Act.
    The Surgeon General is uniquely positioned to develop and 
implement strategies to promote safety, health and wellness, 
and to drive disease prevention strategies in our Nation. We 
need only look to the great work of previous Surgeons General 
to see the potential for transformational public health 
initiatives that can save millions of lives and change the 
course of our Nation's health and well-being.
    Just recently, we celebrated the 50th anniversary of one 
such accomplishment in the landmark 1964 Surgeon General's 
Report on Smoking and Health, which paved the way for combating 
the epidemic of disease and suffering related to tobacco use. 
That initiative alone is estimated to have saved at least 8 
million lives due to smoking-related illnesses. In addition to 
powerfully spotlighting the dangers of tobacco use, Surgeons 
General have improved the health of the American people on 
issues as far reaching as HIV/AIDS, underage drinking, mental 
health, access to health care, chronic disease, and obesity. 
Countless lives have been lengthened and saved thanks to the 
extraordinary efforts of the men and women who have served in 
this all-important role.
    Surgeon General Regina Benjamin, who served until last 
July, was the most recent example of the capacity for a Surgeon 
General to shed light on urgent public health issues, and we 
salute her good work. During her tenure, she developed national 
suicide prevention initiatives; partnered with the business 
community through the Million Hearts Campaign, which aims to 
prevent 1 million heart attacks annually; and released, ``The 
Surgeon General's Vision for a Healthy and Fit Nation,'' laying 
out strategies to fight childhood obesity and to increase 
levels of physical fitness. And especially close to my heart, 
she also oversaw the release and implementation of the first-
ever National Prevention Strategy and subsequent Action Plan 
which I had called for in the Affordable Care Act.
    The importance of this role is made all the more clear by 
the role played by the U.S. Public Health Service Commissioned 
Corps in responding to emergencies including, in recent years, 
Hurricane Katrina, the earthquake in Haiti, and the Deepwater 
Horizon oil spill.
    Should he be confirmed, Dr. Murthy's calm demeanor, his 
excellent ability to communicate with Americans from all 
backgrounds, and his medical and public health expertise will 
be an invaluable asset during the times that Americans are most 
concerned about their health and their safety.
    Despite the Herculean efforts of previous Surgeons General, 
we still have many challenges to address to improve the health 
of our Nation. So we are very fortunate to have a nominee of 
Dr. Murthy's caliber. He is an extraordinary physician and 
exceptionally well-qualified to lead our national prevention 
and wellness efforts. In fact, Dr. Murthy's colleagues who know 
him best have sent me compelling letters of support that 
testify to his talents, leadership, and character.
    I will just note a few of these words of praise. His 
colleagues note that he is, ``Willing to work with people of 
all backgrounds.'' That he is a, ``strong, dynamic leader.'' He 
is, ``Keenly aware of the issues facing our country.''
    In addition to his professional leadership, his colleagues 
describe his unsurpassed level of compassion, personal 
integrity, and energy for promoting health and wellness 
initiatives in the United States and abroad.
    And I ask unanimous consent to include the text of these 
letters in the record.
    [The information referred to may be found in Additional 
Material.]
    Given Dr. Murthy's extraordinary medical and public health 
accomplishments, it is no surprise that his colleagues hold him 
in such high esteem.
    Shortly, after Senator Alexander's opening remarks, I will 
recognize the distinguished Senator from Massachusetts, Senator 
Warren, to officially introduce Dr. Murthy to the committee.
    I could speak at much greater length about Dr. Murthy's 
accomplishments, but I will just say that it is clear that Dr. 
Murthy is an exemplary candidate to serve as the next Surgeon 
General of the United States.
    As I said, the Surgeon General's leadership role is 
absolutely critical to the health and safety of our Nation, as 
well as to the success of our national strategies to promote 
disease prevention and wellness, strategies that have the power 
to greatly improve the health of our people today and long into 
the future.
    Dr. Murthy, I will welcome you, but as I said, I will yield 
to Senator Warren for a formal introduction.
    And with that, I will yield to Senator Alexander.

                 Opening Statement of Senator Alexander

    Senator Alexander. Dr. Murthy, congratulations on your 
nomination.
    Thanks, Mr. Chairman.
    And welcome to you, welcome to your family members who are 
here. I enjoyed our visit in the office the other day.
    If you are confirmed as Surgeon General, you will oversee 
the U.S. Public Health Service Commissioned Corps of 6,800 
uniformed officers. You will also chair the National Prevention 
Health Promotion and Public Health Council. You will be the 
Nation's Doctor, as the position has come to be called.
    My late friend, Alex Haley, used to encourage me to find 
the good and praise it, and that is not hard to do in your 
case. I would start with your identification of obesity, 
specifically childhood obesity, as a priority and your 
determination, as expressed to me, to make that a priority, if 
not the priority, of your time as Surgeon General. That would 
seem to me to be a very valuable use of what has come to be 
regarded as an important bully pulpit.
    I do not need to go into the details about how pervasive 
obesity has become. Approximately 17 percent of children and 
adolescents aged 2 to 19 are obese. That is just too many. I 
have seen too many examples of the increasing cases of Type 2 
diabetes in younger and younger children as they go along. So 
that is on the positive side on the ledger.
    On the other side of the ledger, I have a couple of 
concerns. There is no doubt that you are a highly intelligent 
and highly motivated person. But my first concern is that much 
of your credential, it seems to me, is a political credential. 
Much of your work has been devoted to electing the current 
President and advocating the new healthcare law, all of which 
is your perfect right to do as an American citizen. But as a 
public official, if that becomes your principle purpose in the 
bully pulpit, that gets to be a problem.
    There are, at least, a large number of Americans, and many 
in the Congress, who disagree with the wisdom of that law, who 
know that more than 5 million Americans in the individual 
market lost their healthcare coverage as a result of it, and 
who are concerned about the small number of uninsured people 
who have actually been insured by it. In other words, we would 
not, I would not, count it as a success, and I would be 
reluctant to put into the Surgeon General's Office someone who 
would use that as a bully pulpit to promote a law that, I 
think, is an historic mistake.
    The second concern I have, along the same line, is about 
your comments about guns saying that politicians, in your 
Tweets of October 16, 2012, ``Tired of politicians . . . scared 
of the NRA.'' Those are some of the words. I would hope that 
you know that Americans have a First Amendment right to 
advocate the Second Amendment or any other amendment, and the 
Second Amendment is not a special interest group. It is part of 
our Constitution. And again, if your goal is to make guns the 
bully pulpit of your advocacy in the Surgeon General's Office, 
that would concern me.
    The second major area of concern that I look forward to 
learning more about has to do with experience.
    I would like to ask permission to include in the record a 
letter from the 17th Surgeon General of the United States, 
Richard Carmona, who wrote the President about your pending 
appointment.
    The Chairman. No objection.
    [The information referred to may be found in Additional 
Material.]
    Senator Alexander. Thank you.
    The letter can speak for itself. Dr. Carmona says,

          ``I do not know the potential nominee that the press 
        has reported on. However, it appears he is a smart, 
        motivated physician, very early in his career with 
        great potential, but no significant related leadership 
        experience and no formal public health training or 
        experience.''

    He talks about how the general tradition of surgeons 
general has been to select someone who has the credentials that 
he suggests you do not have.
    So while I admire your academic record, your passion, and 
your focus on obesity, I have questions about the matters that 
I mentioned. I am glad you are here and I look forward to 
listening carefully to your answers.
    Thank you very much.
    The Chairman. Thank you, Senator Alexander.
    Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Chairman Harkin and Ranking 
Member Alexander.
    I am pleased to introduce Massachusetts' Dr. Vivek Murthy, 
who has been nominated to be our next Surgeon General. He has 
already had an extraordinary career. Dr. Murthy has worked as a 
physician, as a researcher, as an educator, and as an 
entrepreneur working to improve health across the country and 
around the world.
    Dr. Murthy earned a bachelor's degree from Harvard, and his 
M.D. and MBA from Yale. He is currently an attending physician 
in internal medicine at the Brigham and Women's Hospital, and 
an instructor in medicine at the Harvard Medical School.
    Dr. Murthy was appointed by President Obama to serve on the 
Advisory Group on Prevention, Health Promotion, and Integrative 
and Public Health in 2011. In this role, he serves as an 
external advisor to the National Prevention Council, a panel 
that is chaired by the Surgeon General.
    Now, I believe that Dr. Murthy has proven leadership and 
initiative. He has co-founded several organizations including 
Trial-
Networks, a company that helps to improve efficiency in 
clinical trials using social media platforms, and he co-founded 
VISIONS, a nonprofit organization that educates young women in 
India about HIV and AIDS.
    As the cofounder and president of Doctors for America, Dr. 
Murthy has engaged thousands of American physicians in health 
policy.
    I had the pleasure of meeting personally with Dr. Murthy, 
and I was struck by his passion for his work. Throughout his 
career, Dr. Murthy has excelled as a physician. He has 
demonstrated his dedication to improving public health, and he 
has shown the ability to mobilize and to energize communities.
    Given his obvious drive, intellect, and unique combination 
of professional experiences, it is not surprising that his 
nomination has earned the support of many organizations 
including the American Public Health Association, the American 
Academy of Pediatrics, the American Hospital Association, the 
American Cancer Society, the American Heart Association, as 
well as the former director of the Centers for Disease Control, 
and a former general counsel of the Department of Health and 
Human Services. They all recognize the extraordinary leadership 
that Dr. Murthy has already demonstrated, and what he could do 
in the role as Surgeon General.
    Dr. Murthy is well-equipped to serve as a 21st century 
Surgeon General. I know that his diverse experiences will 
provide a valuable background as he steps into this new role 
once he is confirmed to serve as the Nation's Surgeon General.
    Welcome, Dr. Murthy, and we are pleased to have you and 
look forward to today's discussion.
    Thank you.
    The Chairman. Thank you, Senator Warren.
    Dr. Murthy, welcome. Your testimony will be made a part of 
the record in its entirety. I always like to give a little bit 
more time to people who are up for these important posts. So I 
have asked that you be given at least 10 minutes, if you like. 
You do not have to take it all.
    But we welcome you and please proceed as you so desire.

   STATEMENT OF VIVEK HALLEGERE MURTHY, M.D., MBA, BOSTON, MA

    Dr. Murthy. Thank you so much, Mr. Chairman.
    Chairman Harkin, Ranking Member Alexander, members of the 
committee.
    I am deeply honored and grateful for the opportunity to 
appear before you as nominee for the position of Surgeon 
General. Senator Warren, I thank you also for your kind 
introduction.
    With the committee's indulgence, I am proud to introduce my 
family who is here supporting me today: my mother, Mrs. 
Myetraie Murthy, my father, Dr. Hallegere Murthy, and my 
sister, Dr. Rashmi Murthy. Our family, like so many before us, 
has been fortunate to live the American Dream. I am the son of 
immigrant parents who came to this country seeking better 
opportunities and education for their children. They did not 
have much in the way of possessions or money when they came to 
this country, but they had a commitment to working hard, and 
they conveyed that commitment to their children.
    My grandfather was a poor farmer who fought for democracy 
and freedom in India, and who never could have dreamed that his 
grandson would have the opportunity to sit before you today in 
consideration of this important position.
    From an early age, my parents instilled in me the core 
values of service, education, and health. I spent many weekends 
helping in my father's medical clinic, and it was there that I 
came to see what medicine could be like in its best moments: an 
opportunity for a doctor and a patient to come together and to 
form a mutually therapeutic relationship. These early 
experiences inspired my own life's work.
    To be considered for the position of Surgeon General is an 
extraordinary honor that I believe comes with the sacred 
responsibility to improve the health of the Nation. The Surgeon 
General is charged with providing the public with the best 
possible scientific information on health, with leading the 
talented men and women in our Public Health Service 
Commissioned Corps, and with chairing the National Prevention 
Council.
    I respectfully submit that my experience working to improve 
health over the last 20 years has given me the skills and 
perspective to be an effective Surgeon General. As someone who 
has cared for patients in the hospital, conducted research in 
the laboratory, and built public health programs in the 
community, I can help forge partnerships between these worlds, 
and build bridges between older and younger generations to 
address the biggest healthcare challenges that face our Nation.
    Using 21st century approaches and technology, I hope my 
tenure, if I am confirmed as Surgeon General, will be one where 
we marshal partnerships across the country to address the 
epidemics of obesity and tobacco-related disease, to reduce the 
crippling stigma of mental illness, to rollback the resurgence 
of vaccine-preventable disease, and to make prevention and 
health promotion the backbone of our communities.
    Over the course of my career, I have been associated with 
some of our Nation's finest universities and hospitals during 
my time at Harvard, Yale, and Brigham and Women's Hospital, 
initially as a student of biochemistry, management and 
medicine, and later as a physician and educator.
    As a physician, I have cared for thousands of patients of 
all backgrounds with a range of illnesses from diabetes and 
cardiovascular disease to cancer and infections, and I have 
witnessed firsthand the challenges that so many of our patients 
face. I have seen the power of medical science, but I have also 
learned how much of health is determined outside the walls of 
our hospitals in our communities where we need stronger 
partnerships around prevention.
    As a researcher, I have worked in the laboratory on vaccine 
development and studied the access of women and minorities to 
clinical trials. I have a keen understanding of the importance 
of science and innovation in improving health outcomes.
    As a teacher, I am aware of the issues confronting the next 
generation of doctors as they embark on a life dedicated to 
patient care.
    As a public health educator, I have created HIV/AIDS 
education programs for tens of thousands of youth through an 
organization I founded called VISIONS. And I have helped build 
a rural community health partnership in India which trained 
young women to be healthcare educators and leaders which, in 
turn, has reached tens of thousands of patients in rural 
communities.
    Through these experiences, I learned how to conceive and 
execute community-wide health projects that respected cultural 
and geographic differences.
    As an organizational leader, I have co-founded a national 
medical organization, Doctors for America, comprising thousands 
of physicians of all specialties, all ages, and all political 
affiliations in order to strengthen the dialog between 
patients, physicians, and policymakers. In this capacity, I 
have managed thousands of inspiring volunteers and brought 
together diverse stakeholders from local churches and community 
centers to national medical organizations for a common goal of 
improving health.
    As a national leader in prevention, I have served on the 
Advisory Group to the National Prevention Council and helped 
inform and share the Nation's first National Prevention 
Strategy.
    And as an entrepreneur and innovator, I co-founded and 
helped build a successful software company, TrialNetworks, that 
has harnessed the power and potential of information technology 
to improve research collaboration and the efficiency of 
clinical trials around the world.
    These foundational experiences have given me the 
opportunity to view health through multiple dimensions and have 
grounded me in science, research, medicine, and public health.
    I believe the future of public health demands that we 
remove the walls that separate our health delivery systems and 
our communities, and ensure that all institutions in society 
play a role in prevention and health promotion. If given the 
opportunity to serve as Surgeon General, I would build strong 
partnerships between our delivery systems and our faith-based 
groups, local businesses, and other stakeholders in our 
community in order to do three things.
    First, provide the public with scientifically based 
information on issues such as obesity, diet, physical activity, 
and tobacco cessation.
    Second, to implement community-driven public health 
initiatives based on scientific evidence and cultural norms.
    And third, to assess the efficacy of current and new 
strategies for targeting public health challenges in 
collaboration with the research community.
    I will also focus on leading the National Prevention 
Council to assure all agencies of the Federal Government are 
supporting individuals in making healthier choices, and I will 
dedicate myself to leading the committed, talented men and 
women in our Commissioned Corps who work hard every day to 
advance public health in our country.
    I believe that our Nation's strength has always, always 
come from its people. They are, and will always be, our most 
valuable resource. Improving the health of our people means 
strengthening the Nation and if given the opportunity and honor 
to serve as America's Surgeon General, this will be my highest 
priority.
    Thank you for the opportunity to be considered for this 
important position.
    [The prepared statement of Dr. Murthy follows:]
        Prepared Statement of Vivek Hallegere Murthy, M.D., MBA
    Chairman Harkin, Ranking Member Alexander, and members of the 
committee, I am deeply honored and grateful for the opportunity to 
appear before you as nominee for the position of Surgeon General.
    With the committee's indulgence, I am proud to introduce my family 
who is here supporting me today. My mother, Mrs. Myetraie Murthy, my 
father Dr. Hallegere Murthy, and my sister, Dr. Rashmi Murthy.
    Our family, like so many before us, has been fortunate to live the 
American Dream. I am the son of immigrant parents who came to this 
country with little money and few possessions but with a commitment to 
work hard and build a better life for their children. My grandfather 
was a poor farmer who fought for democracy and freedom in India and who 
never could have dreamed that his grandson would have the opportunity 
to sit before you today to be considered for the position of Surgeon 
General.
    From an early age, my parents instilled in me the core values of 
service, education, and health. I spent many weekends helping in my 
father's medical clinic, and it was there that I came to see what 
medicine could be like in its best moments: an opportunity for a doctor 
and patient to come together and create a mutually therapeutic bond. 
These early experiences inspired my own life's work.
    To be considered for the position of Surgeon General is an 
extraordinary honor that comes with the sacred responsibility to 
improve the health of our Nation. The Surgeon General is charged with 
providing the public with the best possible scientific information to 
improve health; leading the talented men and women in our Public Health 
Service Commissioned Corps; and chairing the National Prevention 
Council.
    I respectfully submit that my experience working to improve health 
has given me the skills and perspective to be an effective Surgeon 
General. As someone who has cared for patients in the hospital, 
conducted research in the laboratory, and built public health programs 
in the community, I can help forge partnerships between these worlds 
and build bridges between younger and older generations to address the 
biggest health care challenges that face our Nation. Using 21st century 
approaches and technology, I hope my tenure, if I am confirmed as 
Surgeon General, will be one where we marshal partnerships across the 
country to address the epidemics of obesity and tobacco-related 
disease, to reduce the crippling stigma of mental illness, to rollback 
the resurgence of vaccine preventable disease, and to make prevention 
and health promotion the backbone of our communities.
    Over the course of my career, I have been associated with some of 
our Nation's finest universities and hospitals during my time at 
Harvard, Yale and Brigham and Women's Hospital, initially as a student 
of biochemistry, management, and medicine, and later as a physician and 
educator.
    As a physician, I have cared for patients of all backgrounds with a 
range of illnesses from diabetes and cardiovascular disease to cancer 
and infections, and I have witnessed firsthand the challenges our 
patients face. I have seen the power of medical science, but have also 
learned how much health is determined outside the walls of the 
hospitals in our communities where we need stronger partnerships around 
prevention.
    As a researcher, I have worked in the laboratory on vaccine 
development and studied the access of women and minorities to clinical 
trials. I have a keen understanding of the importance of science and 
innovation in improving health outcomes.
    As a teacher, I am aware of the issues confronting the next 
generation of doctors as they embark on a life dedicated to patient 
care.
    As a public health educator, I created HIV/AIDS education programs 
for tens of thousands of youth through an organization I co-founded 
called VISIONS. I built a rural community health partnership in India 
called Swasthya to train young women to be health care educators and 
leaders. Through these experiences, I learned how to conceive and 
execute community-wide health projects that respected cultural and 
geographic differences.
    As an organizational leader, I co-founded a national medical 
organization, Doctors for America, comprising thousands of physicians 
in all 50 States, in order to strengthen dialog between physicians, 
patients, and policymakers about pressing health matters. In this 
capacity, I managed thousands of inspiring volunteers and brought 
together diverse stakeholders for a common goal of improving health.
    As a national leader in prevention, I have served on the Advisory 
Group to the National Prevention Council and helped inform and share 
the Nation's first National Prevention Strategy.
    And as an entrepreneur and innovator, I co-founded and helped build 
a successful software technology company, TrialNetworks, that has 
harnessed the power of information technology to improve research 
collaboration and the efficiency of clinical trials around the world.
    These foundational experiences have given me the opportunity to 
view health through a variety of lenses and have grounded me in 
science, research, medicine, and public health.
    I believe the future of public health demands that we remove the 
walls separating our health delivery systems and our communities and 
ensure that all institutions in society play a role in prevention and 
health promotion. If given the opportunity to serve as Surgeon General, 
I would build strong partnerships between our delivery systems and the 
faith-based groups, local businesses, and other stakeholders in our 
community in order to do three things:

    (1) provide the public with scientifically based information on 
issues such as obesity, diet, physical activity, and tobacco cessation;
    (2) implement community-driven public health initiatives based on 
scientific evidence and cultural norms; and
    (3) assess the efficacy of current and new strategies in 
collaboration with the research community.

    I will also focus on leading the National Prevention Council to 
assure all agencies of the Federal Government are supporting 
individuals in making healthier choices, and I will dedicate myself to 
leading the committed, talented men and women in our Commissioned Corps 
who work hard to advance public health every day.
    I believe that our Nation's strength has always come from its 
people. They are and will always be our most valuable resource. 
Improving the health of our people means strengthening the Nation. If 
given the opportunity and honor to serve as America's Surgeon General, 
this will be my highest priority.
    Thank you for the opportunity to be considered for this important 
position.

    The Chairman. Dr. Murthy, thank you very much for that 
eloquent and excellent statement.
    We will begin a round of 5 minute questions as soon as they 
get the clock figured out here.
    Dr. Murthy, I especially liked what you said in your 
statement about breaking down the walls and getting everyone 
involved in prevention and wellness. I have, over the last 20 
or 30 years, been talking about the fact that we have a sick 
care system in this country, not a health care system; sick 
care. If you get sick, you get care, but very little have we 
done to keep you healthy and out of the hospital in the first 
place.
    As one wise doctor said to me one time, you go to a 
hospital to get cured, but you go home to get well and that is 
how it ought to be. We ought to have a comprehensive look at 
how we promote prevention and wellness; not just in the 
doctor's office, but in our workplaces, our schools, and our 
communities in a comprehensive fashion.
    That is what the National Prevention Council is set up to 
do. When we were working on the Affordable Care Act, that was 
my top priority to work along with Senator Mikulski. In fact, 
the two of us worked together on putting that provision in 
there to promote prevention and wellness, and to set up the 
Prevention and Public Health Fund making unprecedented 
investments in our society in creating healthy communities, 
keeping people healthy.
    You have mentioned the three things that you would focus 
on, as well as leading the National Prevention Council.
    I wonder if you could just, again, address yourself, to 
your vision of what our country would look like if we could 
really pursue a comprehensive policy of wellness and 
prevention. How that would affect our kids. How that would 
affect their obesity levels. How it would affect how they view 
what they eat and what they do. What our schools do in terms of 
promoting better diet and better physical activity among our 
kids. Paint for us your vision of what that America would look 
like if you could just snap your fingers and make it happen, 
which I know you cannot, but how would you lead that effort?
    Dr. Murthy. Thank you, Senator Harkin, for your question, 
the opportunity to speak about an issue I am deeply passionate 
about, which is prevention. And thank you, as well, and to 
Senator Mikulski and other members of this committee for the 
extraordinary work you did in setting up the National 
Prevention Council, and for your efforts on prevention. I very 
much appreciate that.
    I believe that the future of public health is a society 
where we have a continuum of health that runs through every 
institution and every person. In a traditional society where it 
is not taught to think of our hospitals and our clinics as a 
place where health resides.
    But the truth of the matter is that every person and every 
institution has a role that they can play in improving health 
and in promotion wellness. And I believe the future of public 
health lies in bringing institutions and people together to 
recognize and to embrace that role.
    That looks to me like a society where we do sick care well. 
Where we still have the most advanced technologies in the 
world, where we still provide the highest quality care to our 
people who are ill. But it also looks like a society where we 
are helping our children stay healthy in schools; where 
workplaces are taking every opportunity they can to ensure that 
their workforce is physically active, is eating well, and is 
healthy. It looks like a society where organizations which 
typically have not impacted health, whether they be local 
chambers of commerce or whether they be arts organizations, all 
see that they can come together and play an important role in 
advancing important messages on health.
    This, I believe, is where we need to go as a Nation, not 
just because it is ideally what we need to do to keep the 
Nation strong, but because we are pressed to do so by important 
challenges like a crushing burden of chronic disease.
    Senator Alexander and I had the opportunity to speak about 
obesity and what a challenge that is to our Nation. And I am 
glad to know that many of us feel the importance and urgency of 
addressing that topic.
    My concern about obesity is also that it has spawned a 
plethora of chronic diseases that have not only caused 
tremendous human suffering, but that are also causing 
tremendous healthcare costs. These are issues that we can 
address with a stronger focus on prevention.
    I would last say on this point that we can do a better job 
in getting information to people about how to live healthier 
lives so that they can make decisions that are best for 
themselves and their families.
    But it is not enough to stop at information. We have to 
work with communities to translate information into action. We 
have to work with communities to ensure that we are doing 
everything we can to make healthier choices possible.
    I am happy to say that there are wonderful examples that 
are cropping up around the country where communities are coming 
together across sectors to make these kinds of choices easier, 
and I am happy to talk about more of these as we go on. But my 
hope is that if I have the opportunity to serve as Surgeon 
General, that in addition to bringing information to the 
public, I hope to build coalitions in communities of not just 
hospitals and clinics, but also our faith-based organizations, 
our local businesses, our other community organizations to 
ensure that we are working together to not only get the right 
information to people, but to help them translate that 
information into action.
    The Chairman. Dr. Murthy, that was eloquent. Thank you 
very, very much.
    My time is up. I now yield to Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    Dr. Murthy, I have two or three questions that I would like 
to ask in my 5 minutes. The President said in the State of the 
Union address that the Let's Move campaign had helped to 
decrease childhood obesity.
    Do you think that is accurate? And if so--or whether or not 
it is accurate--how would you measure progress on any campaign 
to reduce obesity so that the American people can rely on you 
for a nonpolitical assessment?
    Dr. Murthy. Thank you for that question, Senator Alexander.
    You are actually giving me an opportunity to talk about an 
area that I am very keen on, which is how we measure progress. 
And as somebody who is trained in science, who not only has 
done scientific research at the molecular level and the macro 
level, but who also teaches evidence-based medicine to students 
and to residents in my practice, I believe deeply that it is 
important for us to use very clear and transparent metrics when 
we track progress.
    With regard to childhood obesity and to obesity in general, 
I believe the kind of metrics we need to track are, first of 
all, looking at the number of people who are actually obese and 
seeing if we are making progress in reducing those numbers.
    Second, I believe we have to do everything we can to 
establish causal relationships to try to understand why 
peoples' behavior is changing. Is it because of the information 
they are receiving? Is it because of the impact of social 
networks? Or, is it because of new programs that they are 
taking part in?
    I fully recognize that when multiple interventions are 
taking place simultaneously, it is not always easy to 
distinguish which one is actually responsible for causing the 
effect. But I do believe that being rigorous and scientific 
about assessing not just outcomes, but the causes of outcomes, 
is an important part of being scientifically based, and it is 
an important part of conveying information to the American 
people.
    I will last say in the campaigns around health----
    Senator Alexander. I have two more questions that I would 
like to ask in 3 minutes.
    Dr. Murthy. Please go ahead.
    Senator Alexander. So finish your answer, if you would 
like.
    Dr. Murthy. The last thing I was going to say in the health 
care projects I have built, I have made the measurement a key 
part of our campaigns, and metrics is an important focus as 
well.
    Senator Alexander. You said in your advocacy for passage of 
gun control last year, ``Tired of politicians playing politics 
with guns, putting lives at-risk because they are scared of the 
NRA.''
    To what extent do you intend to use the Surgeon General's 
Office as a bully pulpit for gun control?
    Dr. Murthy. Thank you, Senator Alexander.
    To start, I do not intend to use the Surgeon General's 
Office as a bully pulpit for gun control. That is not going to 
be my priority. As we spoke about, my priority and focus is 
going to be on obesity prevention. There are a number of public 
health challenges that are facing our Nation.
    My concerns with regards to issues like gun violence have 
to do with my experience as a physician, seeing patients in 
emergency rooms who have come in with acute injuries; but also 
seeing many patients over the years who are dealing with spinal 
cord injuries, post traumatic stress disorder, and other 
chronic complications from gun violence.
    But if given the opportunity to serve as Surgeon General, I 
would like to point out a couple of things. One is that I 
recognize that the role is not to be a legislator or a judge. 
The role is to be a public health educator and to bring the 
country together around our most pressing healthcare 
challenges, and I believe at this point that obesity is the 
defining public health challenge of our time. That is where I 
intend to put my primary focus.
    Senator Alexander. I am glad to hear that. We have very 
well-motivated Senators here who have different points of view 
on the Second Amendment issues and on the new healthcare law, 
and no one doubts the sincerity of each side. But if you were 
to be the Surgeon General and would be seen primarily as an 
advocate for those two positions, to me, that would make it 
more difficult for you to be credible on the mission that you 
see as the most important part of your job, which would be as a 
bully pulpit on obesity.
    Do you want to say anything comparing your level of 
preparation and experience to those who previously held the 
Surgeon General's office?
    Dr. Murthy. Sure. Thanks for the opportunity to speak about 
this important point.
    I believe that past Surgeons General have done 
extraordinary work to advance public health in our country, and 
I recognize and respect their contributions. I also recognize 
that each Surgeon General has come into office with a unique 
mix of experiences, skills, and perspectives to fit the needs 
of the country at that time.
    In my case, I believe what I bring to this role is a 
breadth and depth of experience, which I believe will be useful 
in addressing the key challenges that we face. This is a 
breadth that involves experience as a scientific researcher, 
having done research in two major realms in microscopic and 
macroscopic areas, and published in world class journals. 
Having cared for thousands of patients over time, and educated 
the next generation of practitioners.
    Having also built public health programs on the ground, not 
just talked about them, but actually done the hard work of 
starting from scratch, working with diverse groups and 
communities, bringing groups together around division, and 
translating ideas into reality, into programs that have 
actually impacted tens of thousands of lives.
    And with this together, I bring my experience building a 
national medical organization, building also partnerships 
through the Advisory Group on Prevention, where I have worked 
with communities to advance the message on prevention and to 
work on public education through that route.
    Finally, I bring with this a perspective, I believe, that 
will be important to the role of Surgeon General. In addition 
to the skills that I have built with developing projects, 
managing people, managing budgets, I also bring the perspective 
that is of someone who has brought together younger and older 
generations at a time where we have an aging Baby Boomer 
population, but also an epidemic of obesity and Type 2 
diabetes, as you mentioned, in our young.
    Also the perspective of someone who understands how to 
bring the best of traditional communication tools together with 
new information technology to ensure that our communication 
with the public is effective and broad when it comes to 
healthcare issues.
    Senator Alexander. Thank you, Dr. Murthy. Thank you, Mr. 
Chairman.
    The Chairman. Thank you, Senator Alexander.
    In order, I have Senator Warren, Senator Isakson, Senator 
Mikulski, Senator Enzi, Senator Scott, Senator Roberts. We turn 
now to Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    Dr. Murthy, in your statement, you spoke about wanting to 
work at the community level to reduce obesity in this country, 
and this is an important goal, and we have evidence that 
partnering with local communities is a strategy that we know 
works.
    We have seen it work in Cambridge and in Fall River, MA, 
two cities that have been nationally recognized for their 
community-based effort to reduce diabetes and to improve 
fitness. We have seen it work in Boston where community-based 
local programs have reduced kids' trips to the doctor due to 
asthma and lowered the risks of lead poisoning. And I have seen 
it firsthand in the remarkable initiatives led by community 
health centers across our State that address specific needs in 
the neighborhoods they serve.
    But we know that community health programs are often 
starved for resources. Across this country, local public health 
departments are struggling and many face the double hit of 
shrinking Federal investment and local governments that are 
simply running out of money.
    You recognize the difficulties of tight budgets and often 
partisan rhetoric about prevention in public health, so perhaps 
you could say a bit about how your experience has prepared you 
to work with local partners to achieve your goals.
    Dr. Murthy. Thank you, Senator Warren.
    The topic of partnerships is, I think, critical to how we 
are going to achieve progress when it comes to public health. 
One thing that I have recognized and realized in my work that I 
have done, not only in starting several nonprofits, but in 
starting my company as well, is that in all of these efforts, I 
have begun not with lots of funding and lots of connections, 
but with actually very little; starting with an idea, and then 
figuring out to build that into something meaningful that can 
impact health.
    What has made these efforts successful, in my opinion, a 
key part of it has been partnerships. When partners work 
together, I believe, they can achieve far more than when they 
work alone. When I worked building HIV/AIDS education programs, 
for example, I was able to bring together unlikely partners, 
principals of convent schools, principals of traditional 
schools, parents who were conservative, parents who consider 
themselves liberal, students who were scared about issues like 
HIV and others who wanted to embrace it. I was able to bring 
together different partners and communities to build programs 
that ultimately impacted tens of thousands of students.
    I did similar work in rural parts of India when I built 
community health partnerships with colleagues to serve rural 
healthcare needs. There also, we worked hard to build 
partnerships between hospitals, between community leaders who 
are often suspicious of the work that we were doing, and often, 
actually, had difficult relationships with each other. We had 
to find ways to bring them together around the unifying issue 
of health.
    And finally, with the work that I have done for Doctors for 
America, we have run campaigns around prevention where we have 
brought community partners together, including local churches, 
local medical organizations, and other healthcare organizations 
in the city to come together to educate communities about 
prevention. We have put together actual action campaigns where 
we have had doctors, for example, do runs all across the 
country to help set an example of healthy living to bring their 
colleagues and their patients to run with them. That has served 
as an opportunity to bring the community together.
    The reason I believe this experience with partnerships and 
the approach of partnerships is so important is for the reason 
that I mentioned in my opening statement, which is that we need 
to, and we absolutely must, move toward a model where all parts 
of society see the role that they can play in improving health, 
and to participate and work together to achieve a healthier 
population and a healthier Nation. And I believe that if I have 
the opportunity to serve as Surgeon General, that one of the 
most important parts of the job, and a part that I will 
certainly look forward to the most, is the opportunity to 
connect with and build these kinds of partnerships so that we 
can achieve concrete health improvements in our community.
    Senator Warren. Let me just see if I can be very brief. I 
think it is just powerfully important what you have said. Your 
demonstrated leadership and your clear vision for the future, I 
think, serves this country well and I am very pleased that you 
are willing to serve in this role.
    Mr. Chairman, I see that my time is short. I will yield 
back.
    The Chairman. Thank you, Senator Warren.
    Senator Isakson.

                      Statement of Senator Isakson

    Senator Isakson. Thank you, Mr. Chairman.
    Dr. Murthy, welcome. Do you know Dr. Raj Shah, Director of 
USAID?
    Dr. Murthy. I do not know him personally, no.
    Senator Isakson. My first piece of advice, if you are 
confirmed, is to go have lunch with him. You share a heritage. 
Your voices are identical. But he has transformed USAID.
    Senator Mikulski. I could not hear what you were saying. It 
is the accent.
    Senator Isakson. It is the accent and the heritage. Oh, it 
is my accent.
    [Laughter.]
    What accent? Well, y'all just need to pay attention, that's 
all.
    But Dr. Shah has done one of the best jobs of anybody in 
the Obama administration of building partnerships and 
coalitions and transforming an agency at USAID in doing what 
you want to do, the way you want to do it, he would be a 
perfect role model. So I would suggest that you do that.
    On that subject, I have really two questions. Question No. 
1 is Government has two choices to make change. It can tax, it 
can ban, or it can regulate, or it can educate and promote and 
change attitudes.
    Which would you choose?
    Dr. Murthy. Thank you for that question, Senator Isakson, 
and also for the recommendation to speak with Raj Shah. I will 
certainly keep that in mind.
    My faith has always been greatest in our people. The work 
that I have done in the past has convinced me that the ideas 
and ingenuity of our people are our greatest resource, and are 
going to be our greatest asset when it comes to trying to 
change things for the better in terms of health.
    My approach, if I have the opportunity to serve as Surgeon 
General, would be to focus on providing education to 
communities so that they could use that information to make the 
best possible decisions around health. And my focus would also 
be on bringing communities together and building coalitions 
through which communities can come up with the ideas that are 
going to serve their local needs in a culturally appropriate 
manner, and ultimately advance health.
    I believe that when we allow communities to come together 
to fashion solutions that work best for them, that is when we 
bring out the ingenuity of the American people, and that would 
be my primary focus in terms of prevention programs if I had 
the opportunity to serve.
    Senator Isakson. And I think in terms of the two biggest 
challenges we have, which are hypertension and diabetes 
particularly for Medicare-aged people like myself, advocacy, 
and changing attitudes, and changing habits, and focusing on 
wellness is the way we are going to get there, and I commend 
you for that.
    There is a huge issue brewing in the country, brewing State 
by State, but I think it is important to hear your thoughts on 
it. There are some States that are legalizing marijuana either 
for medical marijuana use or, in some cases, just for outright 
sale.
    Do you have a position on the legalization of marijuana?
    Dr. Murthy. Thank you, Senator.
    You are right that this is a very important issue. We have 
20 States and the District of Columbia which have legalized 
medical marijuana, and I have had patients who I have talked to 
who have told me that they have used medical marijuana in the 
past. So I believe this is an important public health issue.
    I have never prescribed medical marijuana myself and in my 
estimation, while there is anecdotal evidence of benefit that 
we hear from cancer doctors and from other physicians about 
medical marijuana, I agree with the AMA and with other medical 
organizations that we need more information about the proven 
indications for medical marijuana, as well as safe dosages, and 
the risks and potential side effects before we can safely 
prescribe it for medical purposes.
    Senator Isakson. Well, I appreciate the answer because I 
was with Dr. Tom Frieden, both yesterday and last Thursday 
night. But yesterday at a speech in Atlanta, he was asked the 
question that I asked you, and your answer is ironic, because 
he said there is not enough clinical evidence or research for 
him to make a determination and that is where it is really 
lacking in terms of the long-term effect of marijuana, except 
there is tangential evidence that it affects the intelligence 
quotient of young people under the age of 25.
    So I think if this is going to be a trend in the United 
States, as Surgeon General of the United States advocating for 
the research and the scientific knowledge to find out the truth 
on that subject will help a lot of people, because I would hate 
for us to go down a trail of addiction in this country and find 
out we made a mistake.
    I had a doctor tell me one time that not everybody who 
smoked marijuana is a drug addict. But everybody that becomes a 
drug addict started on marijuana. So you have to be very 
careful about that. So I would hope you would advocate for 
research, scientific evidence, and discipline and restraint. 
Thank you, Doctor.
    The Chairman. Thank you, Senator Isakson.
    Senator Mikulski.

                     Statement of Senator Mikulski

    Senator Mikulski. Good morning, Dr. Murthy. We want to 
welcome you to the hearing and we want to pay our respects to 
your very distinguished family, particularly your mother and 
father who, I would claim, instilled a great set of values in 
you; so our respect to you and the entire family.
    Doctor, I want to get right to your job. In your testimony, 
you said that you saw yourself as the chief public health 
educator. I originally saw the Surgeon General's job as the 
chief public health officer of the State.
    Senator Isakson represents Georgia, the great CDC is there. 
He just talked about one of our great public servants, Dr. 
Frieden who, obviously, as head of CDC is the public health 
officer for the Nation, head of CDC.
    What do you see your primary role as? Would you see 
yourself as a public health educator or actually being the 
public health officer for the State? Like there is a health 
commissioner for the State of Maryland, there is a health 
commissioner for the city of Baltimore. That is a public health 
officer advising the executive branch and others.
    Dr. Murthy. Thank you, Senator Mikulski, for that question 
and also for all the great work you have done on prevention.
    Senator Mikulski. Well, keep it short. We have 5 minutes.
    Dr. Murthy. Sure.
    Senator Mikulski. I have a couple of other questions.
    Dr. Murthy. Absolutely. I do see the education as being a 
critical role of the Surgeon General, and a central role the 
Surgeon General has to play. But I also recognize that the 
Surgeon General needs to, in an effort to safeguard the health 
of the Nation, play other roles as well, and that includes 
working with policymakers to ensure they have the information 
that they need, the scientific information to make the best 
decisions.
    Senator Mikulski. We have gone through what you have said. 
If you had to say what is your primary role, do you see 
yourself as education, of all of those different roles that you 
already said in five answers to five Senators?
    Dr. Murthy. I see my primary role as education, yes.
    Senator Mikulski. OK. Now, let us go to the Preventive 
Health Council which Senator Harkin was the chief architect of 
and so on.
    What we saw, when we saw this was, first of all, across the 
board there was every Federal agency in some way with a role in 
health. So if you look at agriculture it is food supply, the 
way we provide food to the poor, what is allowable, what is not 
allowable, apart from the amount and how many people are on 
food stamps and so on. Our housing policy, like our public 
health policy, where are we with education? Are we racing for 
the top? Are we racing for the test?
    With the whole idea of the Council, particularly chaired by 
the Surgeon General, was to say how to leverage every asset of 
the Federal Government, and the money that is spent in 
promoting health and well-being, and they would actually be 
coordinated at the State and local level.
    Is that what you see your job as being?
    Dr. Murthy. Yes, I do believe that the work of the National 
Prevention Council specifically with regard to the Federal 
agency is important, and this is an area where I would like to 
focus, in a few areas.
    No. 1, to enhance the work that individual Federal agencies 
are doing to ensure that prevention, as well as health, are key 
concerns in how they handle their workforce.
    Senator Mikulski. Well, operationalize that. Here is my 
view.
    Dr. Murthy. Yes.
    Senator Mikulski. OK. I am going to jump in here and be 
blunt.
    Does Arnie Duncan even think about this every single day 
about what we can do is educate our children about what goes on 
in their schools? But also what goes on--the kind of leadership 
the First Lady has--what goes on in the cafeteria, the anti-
bullying efforts, all of the kinds of things that go on to help 
in a school. And then as they walk out the door in terms of our 
public, the housing, community development, block grants, they 
come through HUD.
    Are we actually thinking about that? And do you see 
yourself actually meeting with these Cabinet people to leverage 
what we are spending, so we are thinking about it?
    Dr. Murthy. Yes, I do.
    Senator Mikulski. Because I do not believe we are.
    Dr. Murthy. I agree with you that we can do more, and if I 
have the opportunity to serve, I absolutely will look to 
meeting with other cabinet officials who are leading our other 
Federal agencies to ensure that we are thinking about health 
and the policies we put forth.
    Senator Mikulski. This is my opinion. I see that as your 
most important role to do and to promote interest at the local 
level.
    Let me give you two things and then I want to go to where 
we heard about the community level and the faith-based.
    I do not believe that our Federal agencies are thinking 
like that. Now, I might be wrong, and I do not believe that the 
Preventive Council has fully achieved the goals that the 
Congress intended it to do, which is leverage Federal assets in 
a coordinated way, but that they function at the State and 
local level.
    So let us go to my community. Dr. Brian Berman, who heads 
up Integrated Health at the University of Maryland Medical 
Program has brought into our public schools, two hardscrabble 
schools, the whole idea of a coordinated effort with food. Dr. 
Oz has his HealthCorps in there in terms of food, cooking, 
mindfulness, meditation techniques, and so on. With a 
coordinated effort, attendance improved, undercurrent violence 
in the school declined, and school achievement went up, and so 
did graduation rates.
    This is the kind of thing I am talking about where assets 
were leveraged. It had the supervision of the University of 
Maryland program, but it was integrative health.
    Is this the kind of program that you envision?
    Dr. Murthy. Yes, Senator Mikulski, and in particular, the 
local piece of that, I think, is particularly important.
    I think it is very difficult to design these programs 
centrally and expect them to work everywhere, but I think it is 
critical that local communities have the flexibility to focus 
on these priorities and build the kind of programs that will 
work for them.
    Senator Mikulski. But is this what you envision when you 
say, ``Go local''?
    Dr. Murthy. Yes, this is what I envision. I believe that 
when communities, when we bring diverse stakeholders and 
communities together to work on health, they can often fashion 
and implement solutions that we could never think of centrally. 
So this is what I imagine.
    Senator Mikulski. Well, there is one other issue, and I 
know my time is up. Have you heard of The Daniel Plan?
    Dr. Murthy. I am sorry?
    Senator Mikulski. The Daniel Plan.
    Dr. Murthy. No, I have not.
    Senator Mikulski. Well, while Senator Isakson wants you to 
talk to the head of USAID, let me tell you what The Daniel Plan 
is.
    Dr. Murthy. OK.
    Senator Mikulski. It is your kind of thing. The Daniel Plan 
was--you know Rick Warren, the famous pastor who established 
Saddleback Church in California and wrote the well-known, well-
read ``The Purpose Driven Life.'' Mr. Warren's son died of 
suicide. His family has gone through trauma. He himself gained 
90 pounds during a lot of great difficulty, but then he decided 
he had to change his life and he also saw the kinds of things 
Senator Isakson said, hypertension and diabetes was up.
    So using the biblical plan of Daniel into the lion's den, 
he pulled together Dr. Hymen, other medical physicians, and so 
on, and working through faith-based they developed community 
efforts through the church to enhance how everything from 
exercise and whatever, done in a community way in groups 
affected it. Mr. Warren himself has lost a tremendous amount of 
weight, but so has the whole church, because it is made up of 
clusters. His book is on ``The New York Times'' bestseller 
list.
    This is the kind of model, not to enforce a particular 
religion or so on, it is our country, but this goes to faith-
based models. I would really encourage you to read ``The Daniel 
Plan,'' and to talk with the leaders who established this 
because I think this is the kind of thing we are talking about.
    My time is up. I am not going to ask you if you agree and 
if you think this is a good idea. You read the book and we will 
talk about it.
    Dr. Murthy. OK. Thank you, Senator.
    The Chairman. Thanks, Senator Mikulski.
    Senator Enzi.

                       Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman. And thank you, Dr. 
Murthy, for being willing to serve.
    In regard to Senator Mikulski's comments, the author of 
that book is in town this week----
    Senator Mikulski. Is that right?
    Senator Enzi. Because this is the National Prayer Breakfast 
week, and he is one of the usual attendees, and runs some 
special seminars there. So this would be a good week to even 
meet him.
    I have to tell you, I have had some strong reservations 
about you as the nominee and it is based on what I had read to 
date about your position on guns, contraception, Medicare, 
Medicaid, and a whole host of other issues, but I have been 
impressed with your comments today.
    I particularly like the matrix for progress that you talked 
about and the focus that you talked about, which stays out of 
some of the areas that would cause some concern. It puts an 
emphasis on you as an educator and I think your effectiveness 
will be based on how much you focus on a few major goals. You 
are in a very easy position with your nomination, probably a 
difficult position from the Nation as a whole, but we have this 
nuclear option now, so you are relatively assured of your 
nomination.
    But what that has done across the country is make people 
skeptical of nominees saying before they had to kind of make 
sure that there were a few people on both sides of the aisle 
that liked the nominee, but since the nuclear option, that is 
not necessary at all. That is too bad, because it will affect 
what you are able to do. I think you will have tremendous 
capability, and be able to take down some walls, and bring 
people together.
    I noted that in the President's healthcare law, it 
designated the Surgeon General as the chair of the newly formed 
National Prevention Council, which provides coordination and 
leadership among 20 executive departments with respect to 
prevention, wellness, and health promotion activities.
    One thing I hope you will do is find out for us why it is 
spread over 20 departments. What if there was a little bit more 
focus by not having so much of a spread, so many people doing 
the same thing, and isolating some of those things?
    I appreciated the comments that you have made on Second 
Amendment rights. I am glad you did not list them in your 
priorities. One-size-fits-all does not work for this Nation in 
a lot of different areas, and in the West, violence is mostly 
caused by people taking away guns.
    To get onto a question, you did express strong support for 
the President's healthcare law, in particular, you praised the 
President's position on access to contraception and the 
contraception coverage mandate in the healthcare law, saying in 
one Tweet that, ``Obamacare gives women choice, access to 
contraception. What is the matter with choice?''
    Using your logic, can you tell me, then, what is wrong with 
employers who choose to adhere to their religious beliefs and 
do not want to be forced by the Government to provide coverage 
for something they find morally objectionable? Do you believe 
that contraception coverage should be mandatory regardless of 
religion?
    Dr. Murthy. Thank you for that question, Senator Enzi.
    My approach to the issue of contraception really is 
grounded in science and the views that I have expressed, which 
have been echoed by the Institute of Medicine, the American 
College of Obstetricians and Gynecologists, and other medical 
organizations is to understand what we understand medically 
about contraception, which is that when women have access to 
contraception that generally results in better outcomes, health 
outcomes for mothers. And so, that is a perspective that I 
sought to represent in that from medicine that we can bring.
    Now, I recognize that when translating science into policy, 
that policymakers have the challenging and important job of 
trying to balance other considerations as well as including 
laws, including individual liberties, religious liberties, and 
other concerns. And I understand that that is a very difficult 
balance to strike.
    I respect people's individual beliefs and religious 
beliefs. I never want to see peoples' beliefs trampled on 
anymore than I would want to see my own beliefs trampled on, 
but I think striking this balance is often very challenging.
    I think if I had the opportunity to serve as Surgeon 
General, Senator, what I would seek to do is to make sure that 
I did everything I could to bring the science, not just to the 
public, but to legislators as well when it was helpful so that 
they could make the best decisions in terms of policy around 
balancing science with personal values in coming up with 
policy.
    Senator Enzi. Thank you. I think you do recognize the 
employers are not talking about preventing contraception. They 
are talking about them having to provide something that they do 
not believe in.
    Thank you for your answer, my time has expired.
    The Chairman. I might just add to my friend from Wyoming 
that this Prevention Council, I wrote that. Oh, well, my staff 
and I wrote it, to be honest about it.
    The idea behind it, Mike, was that it specifically said the 
Surgeon General is to be the chair of that Prevention Council. 
It was to bring together all of the different departments in 
the Federal Government so they could learn from one another and 
have a comprehensive approach on prevention, not just in health 
and human services, but even in commerce and transportation; 
transportation, talking about bike paths, and walking, and 
making things accessible.
    That was the idea to bring together all of the departments 
of the Federal Government in a focused effort on what each of 
them can do in their own area to promote prevention and 
wellness. And we thought the best person to chair that would be 
the Surgeon General of the United States.
    When you talk about limiting it, we wanted to get all of 
the departments involved in this.
    Senator Enzi. Well, I am always just looking for a 
duplication that will cost us a lot of money----
    The Chairman. Yes.
    Senator Enzi. And does not get more done; it gets the same 
done.
    The Chairman. It is not duplication. It is to get everyone 
thinking about what they can do in their department for 
prevention and wellness. I just wanted to make that clear. Let 
us see.
    I will turn to Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you very much, Mr. Chairman.
    Welcome. Thank you for your testimony and for your service. 
I was not here for Senator Warren's questions, but I think some 
of my questions will key off of hers because I want to continue 
this conversation about a real growing crisis in child health. 
And from my perspective, the ACA is one of the keys to unlock 
that problem, and that we will have much greater eligibility 
with respect to access to health insurance. But I specifically 
want to talk about the issue of urban health.
    We have a real particular acute crisis when it comes to the 
health of kids who live in urban environments, and that is for 
a variety of reasons, not all of which can be addressed, nor by 
the Surgeon General, or by the Government writ large. But some 
things we can talk about.
    For instance, the lack of access to exercise opportunities, 
the lack of access to healthy food with these growing food 
deserts in parts of our cities. And then something that I do 
not think we talk about enough, which is our tendency to site 
pollution emitters right next to the very kids who, already 
have pretty substantial handicaps confronting them when it 
comes to their health. It is not a coincidence that we have 
epidemic rates of asthma in Waterbury and Hartford and New 
Haven, CT, which just happens to be where our incinerators and 
large scale power production is done.
    I wanted you to spend a few minutes talking about how the 
Surgeon General's Office can focus in on this issue of urban 
health. And how we can start to talk about some of these thorny 
issues like the citing of pollution sources in a way that 
starts to realize the tremendous detriment to which we put kids 
in when we do not talk about the variety of factors that lead 
to these pretty dramatic healthcare consequences for urban 
environments.
    Dr. Murthy. Thank you, Senator Murphy, for that question.
    I believe the issue of urban health is, clearly, a 
multifactorial challenge--a set of challenges that we face 
there. But I believe that whether it is the availability of 
healthy foods to kids or whether it is pollution exposure for 
children, that there are, on a number of these issues, we can 
actually do better on them if we build partnerships in 
communities to both identify and address the problems. And let 
me give you an example of what I mean.
    In Pierce County in Washington State, the community there 
has actually come together to build a diverse coalition of 
community organizations that decided that it was not enough to 
just tell people about what was healthy, but they wanted to 
work together to make healthier choices more available to 
community members, and one of their focus areas was kids. And 
in the last few years, what they have been able to do is they 
have been able to make healthy snacks more available in vending 
machines to over 100,000 children in Pierce County.
    And that is important because we can tell kids as much as 
we want, ``Hey, you should eat healthy. You should eat 
healthy.'' But if they do not have healthy choices available 
for them at school, at work, at home, or in the community, then 
it is hard for them to take advantage of that.
    That model is, I believe, a model that we can leverage and 
use in many parts of the country, not just around making 
healthy food choices available, but by bringing communities 
together to recognize important healthcare challenges they may 
face like, for example, pollution that their children may be 
affected by, and then bring them together to collectively 
address that as well.
    Too often with problems like pollution, for example, many 
people will recognize it and say, ``Well, I hope somebody else 
takes care of it.'' ``It is probably somebody else's 
responsibility. It is probably the hospital's responsibility, 
the Department of Public Health, corporations should be more 
responsible, parents should be more responsible.'' People point 
the finger a lot.
    But when we bring coalitions together in communities, when 
we establish that there is a collective responsibility to 
improve our health, that is where, I believe, that we cannot 
only fashion solutions, but implement them as well. It is these 
types of coalitions that I would seek to build to focus on 
local healthcare issues, if I had the opportunity to serve as 
Surgeon General.
    Senator Murphy. I do not claim, nor are you claiming, that 
we have all of the answers here, and we certainly have to 
expect more of parents. The problem is that they have limited 
choices. If they want to eat healthy and they have no access to 
healthy food, then it is difficult to expect them to make the 
difference. If they want their kids to exercise, but half of 
the schools in that particular city do not even have recess in 
their curriculum over the course of the day, then it limits 
their choices as well.
    Thank you very much for your service. We hope you will come 
back to New Haven. If you are confirmed, join us there to talk 
about some of these issues at your alma mater. Thank you very, 
much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murphy.
    Senator Scott.

                       Statement of Senator Scott

    Senator Scott. Thank you, sir.
    Senator Murphy and Dr. Murthy, you guys both are strong 
supporters of the ACA, and I certainly understand your position 
on it. I certainly disagree vehemently with the position on the 
ACA. You are an accomplished professor and you have done well 
in medicine and business, which I really appreciate that as 
well. I would invite you, if you are the Surgeon General, to 
come to South Carolina and help us with some of our disparities 
as it relates to healthcare and obesity being one of your top 
issues. I think South Carolina would be a great place for you 
to come and do some work.
    One of the challenges that I have and many of my friends on 
the right have is that you have had an unprecedented 
involvement in partisan politics. So the question of 
objectivity is where I am really going to drive home my point, 
and hope to have some of your answers on your ability to really 
be objective as it relates to the President's healthcare 
policies and how that impacts the healthcare disparities in our 
country.
    One of the things that we have heard a lot about so far as 
the ACA and your support, and the challenges, I think there are 
some unintended consequences that we see coming out of the ACA. 
I think we could agree on the fact that whether it is higher 
premiums, higher deductibles, whether it is higher out-of-
pocket expenses, these things become hurdles for those folks 
who are in desperate need of healthcare to really find their 
way there. Certainly the preventative aspect and component that 
you have advocated, I would advocate it as well.
    Unfortunately in my State where you see folks, like Mr. 
Hucks, who would be able to get the preventative care that he 
needs as far as his annual checkup, but then he would have a 
$25,000 deductible that he would have to pay before he was able 
to spend any more money from the healthcare plan. In addition 
to that, his premiums have doubled as well.
    So when I look at that, I say to myself, whether it is his 
costs premium-wise, whether it is his out-of-pocket expenses, 
whether it is his deductible, we find ourselves in somewhat of 
a quagmire pit looking forward, and then finding objectivity to 
help meet the needs of those folks who are having chronic 
illness.
    In particular interest in my State is the issue of the cuts 
that happens through the CMS, $716 billion of Medicare. As you 
know, those patients who are having renal failure find 
themselves on Medicare. I think 95 percent of them find 
themselves there. Unfortunately in my State, we are No. 5 for 
kidney disease, 75 percent of these patients are African-
Americans.
    My question is if you were appointed Surgeon General, do 
you feel that you would be capable of advocating positions that 
are perhaps inconsistent with the Administration's position on 
healthcare? How would you balance what seems to be a fairly 
partisan stride with being very objective when it comes to 
meeting those healthcare needs of patients, like patients in 
South Carolina?
    Dr. Murthy. Thank you, Senator Scott.
    And I had the opportunity to actually spend some time in 
South Carolina doing some prevention education work at one of 
the large churches in South Carolina with Doctors for America. 
I had a wonderful experience there and I hope to have the 
opportunity to come back to your State again----
    Senator Scott. Good.
    Dr. Murthy [continuing]. And to work together.
    What I would say is that I believe it is very important for 
the Surgeon General to be able to bring people together of all 
political stripes and beliefs around health. I believe when 
looking at the body of work that I have done in my career that 
my work has been primarily motivated by one thing, and that is 
to improve the health of communities.
    The HIV/AIDS education programs that I built, the rural 
community health partnerships that I built, they serve people 
of all political affiliations. The research, medical research 
that I have done both in the laboratory and in clinical trials 
has served people of all affiliations. The work that I have 
done making clinical trials more efficient will hopefully be 
serving millions of patients across the world regardless of 
affiliation.
    In all these works, while I recognize that some of the work 
that I have done in Doctors for America, where we have 
supported the ACA can be perceived as partisan, I think it was 
unfortunate, and I think all of us feel this way, that the 
discussion over healthcare became very partisan. It became 
polarized. In an ideal world, it would not have been that way.
    But the reason that our group and that many other groups 
came together to support the law was not because it was 
perfect, and it is not because we believe it would solve all 
our healthcare problems. It is because we did believe that it 
would take some steps forward to addressing some difficulties 
we had seen as healthcare providers in the hospital; but going 
forward to address the concern that you brought up, Senator 
Scott.
    I always fall back on that original inspiration and 
guidance that has always led me through my prior work, which is 
that I want to focus on doing what is going to help improve the 
health of the Nation. And I believe that there are a number of 
issues around which we can come together right now, issues 
where we recognize the threat of obesity and the explosion of 
chronic diseases; where we recognize the importance of tobacco 
cessation efforts continuing and accelerating; where we 
recognize, as well, the importance of vaccinating our children 
and strengthening our mental healthcare system. These are areas 
where there is broad agreement.
    What I found when I traveled to South Carolina and spoke to 
people there was that they wanted people to come together to 
address these kind of issues. And my hope is that if I have the 
opportunity to serve as Surgeon General that I will be able to 
work with members of this committee, with yourself, and with 
leaders in communities to address some of these issues where I 
believe there is a lot of common ground, where we can bring 
people together.
    Senator Scott. We look forward to seeing you back in South 
Carolina.
    Dr. Murthy. Thank you.
    The Chairman. Thanks, Senator Scott.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Thank you, Mr. Chairman.
    Doctor, thank you for your willingness to serve in a 
difficult position, and your willingness to put yourself 
forward for this important public service that you are going to 
be doing. I know it is a difficult path getting there, but I 
have confidence you will get there.
    I also want to commend and salute the contribution your 
family has made. Often when folks serve in either appointed or 
elective office, the family, in a sense, serves with them or at 
least has contributed mightily to their success. So we are 
grateful for them and we salute and commend your family on a 
day like today.
    I wanted to start with an issue which has generated more 
attention lately, but was a subject of a lot of debate not 
quite a year ago now when the Violence Against Women Act was 
being reauthorized and the debate that led up to that 
reauthorization. Domestic violence is kind of a broad subject 
area, but in particular not just domestic violence, but dating 
violence, sexual assault has come up in the context of what 
happens in our military as well. So I consider it, and I think 
most people would, a public health problem. I do not think I 
can pinpoint at something in terms of data that shows that it 
is worse than it was 10 years ago; I am not sure about that. 
But it is about as bad as can be. There is only so much that we 
can legislate to improve it. Part of it is making folks more 
aware of the problem and rooting it out at the family level or 
the community level, and I just want to get your sense of how 
you see your role in this subject area.
    Is there something directly you think you could do upon 
confirmation or do you think it is a less direct role that you 
would play?
    Dr. Murthy. Thank you for that question, Senator Casey. And 
thank you, also, for the kind remarks about my family. 
Everything I have is because of them.
    With regard to domestic violence, this is an incredibly 
important and, unfortunately, persistent issue that our society 
faces. I have cared for many patients over the years who have 
been the victims of domestic violence. I have also had members 
of my own family and friend circles who have been the victim of 
domestic violence, and it is very difficult, not just to go 
through, but to watch somebody go through such episodes.
    I do not think, to be honest, that there is a quick fix for 
the problem of domestic violence. I also think that while there 
is a role for policy in these kinds of areas, I think that the 
bigger challenge we face in addressing domestic violence is how 
we shift culture to make domestic violence less acceptable. How 
do we get more men in communities to speak out against domestic 
violence, recognizing that not all domestic violence is 
directed toward women, but the vast majority is. And also the 
question is how do we get more leaders, more respected leaders 
in communities to stand up and to start saying more often that 
this is an issue.
    The role that the Surgeon General, I believe, can play in 
an issue like this is several-fold. One is to raise the profile 
of the issue. Simply by talking about it gives it some 
legitimacy, and that is important to do as a starting point.
    But the second thing is as we build coalitions in 
communities, encouraging our local leaders to talk about 
domestic violence, to raise it both with our men and our women, 
is also an important thing that needs to be done. Very often, 
people in communities take far more from the local leaders who 
speak to them than national leaders who may come, drop in, and 
give a few messages from time to time. They have trust in their 
local leaders and messages from them are powerful.
    And third, and finally, I believe that the Surgeon General 
can also play a role in helping the healthcare community more 
effectively deal with domestic violence, starting with 
screening. Screening for domestic violence is incredibly 
important. It is something that in primary care, we are all 
taught to do in our training. But it is something that we 
should be doing everywhere because as anyone who has 
experienced domestic violence probably knows that the first 
time they are asked about it in a screening questionnaire, they 
do not often reveal that they were a victim of domestic 
violence.
    Ensuring that a broader swath of our healthcare workforce 
is involved with screening for domestic violence is also an 
important role that the Surgeon General could play.
    Senator Casey. Yes, the ultimate betrayal for someone 
within a family who commits an act of violence, or even the 
coward that commits an act of violence of that kind on a 
stranger.
    But I do think you are right about the role that the 
healthcare system plays where doctors and healthcare 
professionals are more, not just more aware, but better trained 
to deal with it; that seems to have improved substantially. The 
same is true in law enforcement. Law enforcement is much better 
trained now than probably 25 years ago.
    What I will do is, because I know I am over time, I will 
submit a question for the record on this kind of basic 
connection between prescription drug abuse being kind of a 
transition to a much worse drug abuse. But I will put that in 
writing and have you address it in writing so as to keep within 
our time.
    [The information referred to may be found in Additional 
Material.]
    But Doctor, thanks very much, and best of luck in the 
confirmation process.
    Dr. Murthy. Thank you.
    The Chairman. Thank you, Senator Casey.
    Senator Roberts.

                      Statement of Senator Roberts

    Senator Roberts. Well, thank you, Mr. Chairman.
    And Doctor, thank you so much for taking your time to come 
up and go through this wonderful exercise. We have had folks 
worried about urban areas. I think it was Senator Murphy over 
there and Tim Scott issued another invitation to go down to 
South Carolina. Have you ever been to Dodge City, KS?
    Dr. Murthy. I have not, sir, but I would love to come.
    Senator Roberts. Well, good. I am going to invite you 
because we have a wonderful doctor from India. She is in her 
mid-thirties, and she is highly respected by the community and 
another doctor from India that did my carpal tunnel on this 
when I did a stupid thing. And so, I think you would be right 
at home. We would welcome you.
    Some of the statements that you have made in the spotlight 
that you are going into with regards to the Tweets, and the 
Twitters, and all the social media that my staff will not let 
me pay any attention to would be troubling, more especially 
with the Second Amendment.
    Senator Harkin and I are the co-chairs of the Rural 
Healthcare Caucus and one of the things that I know he and I 
both agree on is that we have not met enough, and we have not 
really addressed these concerns enough. But have you ever 
visited a real rural community in the United States, I mean, 
way out there in Kansas on the plains or in that area, or has 
it just been limited to the East Coast?
    Dr. Murthy. Well, Senator, I have had a chance to certainly 
travel beyond the East Coast. I have been on the West Coast. I 
have had a chance to spend time in the Midwest.
    Through a prevention project that we have done, I have had 
a chance to drive through rural parts of Georgia, of South 
Carolina, and of North Carolina as well. I have not had a 
chance to spend time in rural Kansas, although as I mentioned, 
that is a place I would certainly love to work with you 
together.
    Senator Roberts. Well, we have 83 critical access hospitals 
that are hanging on by a thread and we do not want some object 
called iPATH determining what Medicare reimbursements we are 
going to get or not. Neither do we want the Congress to waive 
the 11th hour 59th minute to determine that, although I would 
prefer that rather than iPATH. I know your support for iPATH.
    I think that would be the first thing that the doctor from 
Dodge City would bring up because that is the thing that she 
brought up with me and she says she is literally drowning in 
regulations coming out of CMS. CMS is a four-letter word out in 
our country with all of our healthcare providers, with all due 
respect to the hard work that they try to do.
    But she is about to quit and many doctors are just going to 
say, ``I am done with this.'' It is, as the chairman can 
indicate, if you are in Iowa or Kansas and you are in a rural 
area, I mean, you have access problems. You have a lot of 
different problems and all of a sudden, you have all these 
regulations come down the pike.
    They have independent contractors coming in, inspecting 
hospitals, and they get five stars for fining people, and then 
you can appeal it, but then that does not work either, so we 
are drowning out there in regulations. And that comes from 
Washington. Most of your answers today have indicated what can 
you do about recess, for goodness sakes, in an urban area. I 
would think that the local school board could probably make 
that decision and it is a pretty simple decision. Have a 
recess.
    Let me just say in your social media, I am concerned about 
your comments about the Second Amendment.
    What do you think about iPATH? Just a real quick response.
    Dr. Murthy. I think that the general concept of trying to 
reduce our healthcare costs is absolutely important.
    Senator Roberts. Well, of course, everybody knows that.
    But I am talking about 15 people making the decision on 
what an individual hospital will get on Medicare reimbursement 
and they do not even have the means to keep up with what CMS is 
putting out with their capability, and I worry about that a 
lot. I mean, we have already cut Medicare reimbursement big 
time.
    Dr. Murthy. Senator, if given the opportunity to serve as 
Surgeon General, I recognize that I would not have a role in 
implementing or impacting iPATH.
    But the way that I would seek to contribute to reducing 
costs, especially in rural areas where there is a struggle with 
ensuring we have sufficient supply to meet demand is by really 
focusing on prevention and by ensuring that we could improve 
health before people got ill, so that we could essentially 
improve the overall demand on healthcare.
    Senator Roberts. I am for that. I am for that.
    I have 7 seconds here, although I could be like Senator 
Mikulski and ask for more.
    1964, the U.S. Surgeon General has been the leading 
advocate for informing the public about the dangers of smoking 
tobacco.
    How would you characterize the threats to the public health 
posed by marijuana with one large difference between tobacco; 
that is the THC factor, the psychoactive chemical found in 
marijuana? What is your view on that?
    Dr. Murthy. Senator, just like other drugs, I do not 
recommend marijuana and I do not think it is a good habit to 
use marijuana. If I had kids, I would tell them not to use it.
    Senator Roberts. Would you use your office as a means to 
get that out to the public?
    Dr. Murthy. What I would do, as I was mentioning earlier, I 
believe that we need more information on marijuana. There is a 
lot of use. Marijuana is a situation where the use of 
marijuana, both medicinal marijuana and other types of 
marijuana, has far outpaced what we actually understand about 
its efficacy. People are using medical marijuana with many, 
many claims that it is effective for X, Y, and Z.
    Senator Roberts. I appreciate that answer. By the way, if 
you come to Dodge City, we can get you to Colorado, and you can 
have a Rocky Mountain high.
    [Laughter.]
    I just wanted to ask one other question here, and I am 
having a little trouble finding it, my CMS question. What have 
I done with it? I apologize. I have some real strong concerns, 
and Mr. Chairman, I apologize for going over time, about a 
recent proposal from CMS, and because of your interest in and 
your prioritization of addressing issues, including the mental 
health system.
    Can you comment on the role that access and value to mental 
health treatments, and adherence to those treatments, 
specifically antidepressants and antipsychotics play in 
bettering the mental health of our country?
    Dr. Murthy. Sure. Thank you, Senator.
    Mental health, as you mentioned, is an area that I believe 
is important. One of the areas I would hope to focus on if I 
had the opportunity to serve.
    I believe that where we can do better with mental health is 
on more tightly integrating mental health services with our 
traditional delivery systems. Antidepressants and 
antipsychotics, they have a role to play in appropriate 
situations.
    Senator Roberts. Would you state that with regard to CMS? 
Really what I am asking is if CMS comes out with some 
statement, basically they get stars because they are cutting 
Medicare reimbursement trying to make the healthcare costs go 
down. OK. But they are also doing some other things that I 
think are very counterproductive. But you have said that you 
are in favor of that and they have an active role.
    Would you come out and say that with regards to the CMS 
decision which is now pending?
    Dr. Murthy. I am sorry, sir. I did not quite follow you.
    Senator Roberts. Would you tell CMS that they are wrong, 
that is a little strong, but that they might want to take your 
advice with regards to what you have stated with 
antidepressants and the antipsychotics and the part they play? 
They are going to come out with a proposal here to say, ``No, 
they are not,'' people should not be using that more especially 
with regard to Medicare reimbursement.
    Dr. Murthy. Well certainly, if there were rules that CMS 
was putting into place that limited access to medications that 
were helpful for people with mental health, then I would 
certainly seek to bring my clinical experience. And if I had 
the opportunity to serve as Surgeon General, the preventive 
experience and mental health experience of the office to bear 
in discussions with CMS about that.
    I think people having access to adequate treatment is very 
important, and I believe that as a physician.
    Senator Roberts. I appreciate that. Thank you very much. 
That is a very fine statement and I apologize for going over 
time.
    I am going to issue an invitation for you to come to Dodge 
City, and we will make you an honorary marshal.
    Dr. Murthy. Thank you so much.
    The Chairman. Wyatt Earp.
    Senator Alexander.
    Senator Alexander. In the interest of time, Dr. Murthy, I 
am going to ask a 60-second question and ask you if you would 
just reply to it in writing so that I could know the answer.
    If there is one thing that we agreed on, on the healthcare 
law, it was the importance of prevention and wellness; that is 
Senator Harkin's passion as well. But many of us feel like the 
regulations coming out of the ACA have gone in the other 
direction.
    Would you look at a Labor Department rule that puts 
conditions on employer programs to grant incentives if you lose 
weight? I mean, if you do not lose weight, you should not get 
the incentive. It seems there is this feeling that somehow it 
is unfair to receive an incentive without meeting the program 
goals. If you do that, you gut the program.
    Second, would you look at an ACA regulation on smoking 
cessation that says that employers who offer it must offer an 
alternative to another smoking cessation program, so that you 
have a perpetual series of smoking cessation programs which are 
expensive for the employer. The idea was to lower the expense 
for the employer by encouraging better wellness by the employee 
who loses weight. No result, no incentive is my view of that, 
and in this Council that you may be the chairman of, that might 
be an early item for discussion.
    If you could reply in writing, I would appreciate it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Alexander.
    Dr. Murthy, thank you very much for your appearance and 
your answers today. We will adjourn the session.
    The record will stay open for 10 days for Senators to 
submit other questions or comments.
    I also wanted to ask unanimous consent that the letters 
that we have received from different organizations in support 
of your nomination be made a part of the record in addition to 
that letter that you had from Dr. Carmona. It would also be 
made a part of the record.
    Dr. Murthy, thank you for a lifetime of devotion and 
commitment and leadership to keeping people healthy, preventing 
illness, and getting ahead of the curve. We know that that is 
the best approach, better than taking care of people after they 
get sick.
    I thank you for that. I look forward to our committee 
having an expeditious mark up of your nomination, getting it to 
the Senate, and I look forward to working with you as our next 
Surgeon General of the United States.
    Dr. Murthy. Thank you, Mr. Chairman.
    The Chairman. The committee will stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                                                 December 12, 2013.
The Honorable Barack Obama,
President of the United States,
1600 Pennsylvania Avenue,
Washington, DC 20500.

    Dear Mr. President: Recently I read in the press of your intention 
to nominate a physician, early in his career, for the position of U.S. 
Surgeon General.
    Respectfully, I would like to take this opportunity to provide you 
some background information that may be helpful as you make your final 
decision.
    As you may be aware the Army, Navy, Air Force and Public Health 
Service, four of our seven uniformed services, all have Surgeons 
General. These positions by law are of the rank of Vice Admiral or Lt. 
General, pay grade 0-9. The Surgeons General are the leaders of their 
respective medical corps. For well over a century all the Surgeons 
General were promoted based on merit from a pool of career-uniformed 
officers in their respective services. This means that those considered 
are very senior officers who have already qualified for and hold the 
rank of Rear Admiral or Major General, pay grade 0-8, prior to being 
considered for nomination to Surgeon General in their respective 
services. Hence all the Surgeons General have served in uniform for two 
or more decades at a minimum and have earned the respect of their 
fellow officers, uniformed services and the public, as admirals or 
generals who are collectively termed ``Flag Officers''.
    In the last few decades, Federal-elected officials have altered the 
process for the nomination of the U.S. Surgeon General only so that 
they have gone outside of the usual and well-established merit process 
of nomination recommendation to the POTUS. This results in nominees 
that have no uniformed service experience and sometimes no formal 
public health education or experience. I and others believe that this 
non-merit, newer ``political'' process of bypassing qualified 
candidates of the U.S. Public Health Service is not in the public's 
best interest and may also be problematic for the non-uniformed 
inexperienced service nominee. Other challenges may emerge as well. 
They include but are not limited to:

    <bullet> Creating an ``instant Admiral'' and not having the 
maturity, seniority, uniformed experience and earned imprimatur of an 
Admiral and Surgeon General.
    <bullet> Not having established oneself over decades in the medical 
and or public health community to represent the United States as 
Surgeon General.
    <bullet> The lack of credibility with your peer group of senior 
officers, Admirals and Generals (of all uniformed services) on 
statutory committees that the Surgeon General will serve on.
    <bullet> Not having the requisite public health training and or 
experience to analyze, report on and or speak to the American public, 
Congress and the world regarding global public health issues. Not every 
physician can, or should, be a Surgeon General.
    <bullet> By going outside of the traditional and tested uniformed 
service personnel system for the nomination, many career men and women 
officers of the U.S. Public Health Service are unfairly disadvantaged 
for they will never have the opportunity to lead their organization 
that they have dedicated their lives to. This does not happen in the 
Army, Navy or Air Force where every young physician officer can aspire 
to and has the potential to be their uniformed services Surgeon 
General. Why is the U.S. Surgeon General nomination treated differently 
when it is one of our seven uniformed services?
    <bullet> Due to any and all of the aforementioned, a non-
traditional nominee will be at a distinctive disadvantage in 
credibility, knowledge and depth and breadth of experience when 
attempting to address complex public health issues.

    I do not know the potential nominee that the press has reported on. 
However, it appears he is a smart, motivated physician, very early in 
his career with great potential but no significant related leadership 
experience and no formal public health training or experience.
    Mr. President, I respectfully request that you return the U.S. 
Public Health Service to its long successful tradition and seek 
potential nominees from those flag officers who merit consideration 
just as the Army, Navy and Air Force continue to do so successfully. In 
doing so you will ensure that any potential nominees are properly 
educated, trained and tested to serve as the Nation's doctor.
    Having served the 4-year statutory term as Surgeon General, as well 
as having prior military service and decades of education, training and 
progressive experience in public health, I am extremely confident that 
the recommendations I make to you are in the best interests of our 
Nation and quite frankly, also the best interest of a relatively 
inexperienced and untested physician who has the potential and may one 
day earn the right to be considered for Surgeon General.
            Respectfully and Most Sincerely,

                       Richard Carmona, M.D., M.P.H., FACS,
                         17th Surgeon General of the United States.
                                 ______
                                 
                           Letters of Support
             American Academy of Family Physicians,
                          Elk Grove Village, IL 60007-1019,
                                                  January 23, 2014.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Re:  In support of the President's nomination of Dr. Vivek Murthy for 
the position of Surgeon General

    Dear Senators: On behalf of the 110,600 members of the American 
Academy of Family Physicians, I am pleased to support the President's 
nomination of Vivek Murthy, M.D., MBA for the position of Surgeon 
General of the United States.
    In his career as a physician at Brigham and Women's Hospital and as 
an instructor at Harvard Medical School, he has demonstrated many 
important leadership qualities that will contribute to his success as a 
Surgeon General. Perhaps the two most important are a clear belief in 
the importance of preventive health and the ability to communicate the 
principles of effective health care to a wide and diverse population. 
As ``the Nation's doctor,'' the Surgeon General is particularly 
important in bringing to Americans the message of preventive health. 
With Dr. Murthy's service on the National Advisory Group on Prevention, 
Health Promotion and Integrative and Public Health, he has shown his 
ability and commitment to deliver that message, and to do so 
effectively.
    Dr. Murthy is an energetic and creative medical leader, who has 
established two non-profit organizations to promote health care and one 
technology company to improve the quality and efficiency of clinical 
trials. By showing that he has the skills needed to bridge generations 
and diverse groups of people, he will be a Surgeon General who will 
appeal to Americans of all ages and cultural backgrounds.
    We share the President's great confidence that Dr. Murthy is a 
physician leader who will make an outstanding Surgeon General and we 
urge the committee and the Senate to confirm his nomination as soon as 
possible.

            Sincerely,

                              Jeffrey J. Cain, M.D., FAAFP,
                                                       Board Chair.
                                 ______
                                 
                    American Academy of Pediatrics,
                          Elk Grove Village, IL 60007-1019,
                                                  January 22, 2014.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Mr. Chairman and Mr. Ranking Member: On behalf of the American 
Academy of Pediatrics (AAP) and its more than 60,000 primary care 
pediatricians, pediatric medical sub-specialists, and pediatric 
surgical specialists, I extend our support for the nomination of Vivek 
Murthy, M.D., MBA, for U.S. Surgeon General.
    Historically, the role of the Surgeon General has been influential 
in addressing child health disparities and improving children's health. 
The late Julius B. Richmond, M.D., FAAP, and the late C. Everett Koop, 
M.D., FAAP, were both renowned pediatricians and dedicated public 
servants whose tenures as Surgeon General (1977-81 and 1982-89, 
respectively) included landmark tobacco control initiatives, 
establishing the Nation's first quantitative health goals and 
pioneering work on the AIDS epidemic. Recently, I spoke at an event in 
Washington, DC commemorating the 50th anniversary of the first ever 
Surgeon General's report on smoking and health. To be sure, it is 
imperative to the health and well-being of children that the Nation has 
a confirmed Surgeon General.
    Dr. Murthy is certainly a qualified candidate. He has partnered 
with AAP leaders on many issues important to children, including and 
especially during the work leading up to the passage of the Affordable 
Care Act. As a co-founder and president of Doctors for America, a 
grassroots organization of more than 16,000 doctors and medical 
students, and as a 2011 Presidential appointee to the National Advisory 
Group on Prevention, Health Promotion and Integrative and Public 
Health, Dr. Murthy understands firsthand how to raise national 
awareness and mobilize people to achieve strong policies that protect 
public health. Dr. Murthy received his BA from Harvard University, his 
M.D. from the Yale School of Medicine and his MBA from the Yale School 
of Management. He is currently an attending physician at Brigham and 
Women's Hospital in Boston and an instructor at Harvard Medical School, 
where he is an internal medicine hospitalist.
    Please move quickly to confirm Dr. Murthy to be the next U.S. 
Surgeon General.

            Sincerely,
                                James M. Perrin M.D., FAAP,
                                                         President.
                                 ______
                                 
      American Association of Physicians of Indian 
                                            Origin,
                                       Oak Brook, IL 60523,
                                                  January 16, 2014.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC 20510.

    Dear Chairman Harkin: The American Association of Physicians of 
Indian Origin (AAPI) writes this letter strongly in support of the 
nomination of Dr. Vivek H. Murthy as Surgeon General of the United 
States.
    Dr. Murthy is eminently qualified to serve as the Nation's Surgeon 
General. He currently is an attending physician and instructor of 
medicine at the prestigious Brigham and Women's Hospital/Harvard 
Medical School in Boston. He also co-founded and serves on the board of 
a software technology company that uses social media platforms to 
enhance efficiency in clinical trials around the world to improve their 
effectiveness.
    His academic credentials are impeccable. He received his BA from 
Harvard, MBA from Yale and graduated from Yale School of Medicine.
    He has been actively involved in both the physician and Indian 
American communities. For nearly a decade, he worked tirelessly to 
combat HIV/AIDS in India. He also empowered women in rural areas of 
India to be health care providers through a U.S.-India health 
partnership campaign.
    Dr. Murthy has been actively engaged in the Indian American 
community as a practicing physician, medical school instructor, and 
published writer. His confirmation by the Committee on Health, 
Education, Labor, and Pensions and full Senate would be historic, 
making him the first Indian American Surgeon General. He is a person of 
the highest character and is highly esteemed, both as a second 
generation Indian American leader and successful physician. He is well-
regarded for his coalition work, preventive care focus, and innovative 
approaches to modern day medical care.
    AAPI is America's largest ethnic and oldest medical nonprofit 
association, representing the interests of 67,000 physicians and 35,000 
medical students, residents, and fellows. We are proud of our 
association with Dr. Murthy, which dates back for many years. We fully 
support his nomination as Surgeon General and urge you to support his 
nomination both in the Committee on Health, Education, Labor, and 
Pensions and on the Senate floor.

            Yours truly,
                                        Dr. Jayesh B. Shah,
                                                    AAPI President.

                                       Dr. Ravi Jahagirdar,
                                              AAPI President-Elect.

                                        Dr. Narendra Kumar,
                                               AAPI Past President.
                                 ______
                                 
                           American Cancer Society,
                                    Atlanta, GA 30303-1002,
                                                  January 29, 2014.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

    Dear Chairman Harkin: I am very pleased to write today on behalf of 
the 3 million volunteers and staff of the American Cancer Society, the 
Nation's largest voluntary health organization, in strong support of 
Dr. Vivek Hallegere Murthy's nomination to be Surgeon General of the 
United States.
    As co-founder and president of Doctors for America, Dr. Murthy has 
been a crucial advocate for improving access to quality health care in 
this country, something the American Cancer Society and our nonprofit, 
nonpartisan advocacy affiliate, the American Cancer Society Cancer 
Action Network, have long supported. Dr. Murthy's work in support of 
the Affordable Care Act has been an important contribution to the 
nationwide dialog on this issue.
    I have had the privilege of serving alongside Dr. Murthy on the 
White House Advisory Group on Prevention, Health Promotion, and 
Integrative and Public Health, an experience that has shown me 
firsthand his deep commitment to the health of this Nation and its 
people. His experience as a practicing physician, an instructor at 
Brigham and Women's Hospital at Harvard Medical School, and in 
advancing global health as a co-founder of VISIONS Worldwide I believe 
have given him a diverse set of experiences from which he could draw in 
helping build a healthier nation as Surgeon General.
    We at the American Cancer Society would be pleased to work with Dr. 
Murthy as Surgeon General and believe he would bring both a wealth of 
experience and a sincere commitment to this critical role for the 
health of Americans. I urge members of the Committee on Health, 
Education, Labor, and Pensions to support his appointment so the full 
Senate might quickly vote on his confirmation. With extraordinary 
leaders like Dr. Murthy in place, we can no doubt improve public health 
and advance our shared goal to finish the fight against cancer.

            Sincerely,

                                     John R. Seffrin, Ph.D.
                                 ______
                                 
              American College of Physicians (ACP),
                                 Washington, DC 20001-7401,
                                          February 3, 2014.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Alexander: On behalf of the 
American College of Physicians (ACP), we want to express our strong 
support for President Obama's nomination of Vivek Hallegere Murthy, 
M.D., M.B.A. to the position of Surgeon General of the United States. 
Dr. Murthy is a well-respected internist and member of the College who 
will serve the country well in this role.
    ACP is the largest medical specialty organization and second-
largest physician group in the United States, representing 137,000 
internal medicine physicians (internists), related subspecialists, and 
medical students. Internal medicine physicians are specialists who 
apply scientific knowledge and clinical expertise to the diagnosis, 
treatment, and compassionate care of adults across the spectrum, from 
health to complex illness.
    Dr. Murthy is an esteemed faculty member at Harvard Medical School 
and hospitalist at Brigham and Women's Hospital in Boston, MA. He is a 
strong advocate for the provision of health insurance coverage to all 
Americans and is a proven leader who can build coalitions among diverse 
individuals to ensure better health for our communities. Additionally, 
Dr. Murthy has extensive experience with protecting the public's 
health, including serving on the U.S. Presidential Advisory Council on 
Prevention, Health Promotion, and Integrative and Public Health; co-
founding VISIONS Worldwide in 1995, a non-profit organization focused 
on HIV/AIDS education in India and the United States; and co-founding 
TrialNetworks, an organization aimed at optimizing the quality and 
efficiency of clinical operations at each stage of a trial from 
feasibility through closeout. Therefore, ACP encourages a swift 
appointment of Dr. Murthy to the role of Surgeon General.

            Sincerely,

                               Charles Cutler, M.D., Chair,
                  Board of Regents, American College of Physicians.

                       Steven E. Weinberger, M.D., EVP/CEO,
                                    American College of Physicians.
                                 ______
                                 
             American College of Sports Medicine ,
                               Indianapolis, IN 46202-3233,
                                          February 6, 2014.

Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
644 Dirksen Office Building,
Washington, DC 20510.

Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

Re: Support for Dr. Vivek Murthy as Surgeon General

    Dear Chairman Harkin and Ranking Member Alexander: On behalf of the 
more than 50,000 members and certified professionals of the American 
College of Sports Medicine, we write to express our strong support for 
the nomination of Dr. Vivek Murthy as the 19th Surgeon General of the 
United States.
    Dr. Murthy's background and career experience uniquely qualify him 
to tackle the difficult problems facing our Nation and continue the 
legacy of previous Surgeons General to fight obesity and get Americans 
moving again. He has championed the need to address health disparities 
and the role of lifestyle in preventing chronic disease. In addition, 
Dr. Murthy has stated his desire to work collaboratively with groups 
from around the country to combat the epidemic of obesity and sedentary 
lifestyles. We stand ready to support him in his efforts.
    One of the gravest health challenges facing our Nation is the 
rising prevalence of obesity and physical inactivity in the U.S. 
population. Studies by the Department of Health and Human Services 
indicate that 68 percent of adults and 16.9 percent of children of the 
United States are obese or overweight. The Centers for Disease Control 
and Prevention have found that poor diet and physical inactivity cause 
more than 400,000 deaths each year.
    The office of Surgeon General has played an important role in 
promoting health and wellness in America. Most recently, former Surgeon 
General Regina Benjamin, M.D., developed strategies to fight obesity 
and to increase levels of physical fitness through a call to action to 
support and promote walking and walkable communities. Dr. Benjamin 
recognized that regular physical activity, such as walking, helps 
people of all ages protect and improve their health.
    ACSM is dedicated to promoting an active, healthy lifestyle for all 
Americans and we look forward to working with Dr. Murthy on behalf of 
better health for all Americans.

            Sincerely,

                                        James R. Whitehead,
                                      Executive Vice President/CEO.
                                 ______
                                 
                     American Diabetes Association,
                                      Alexandria, VA 22231,
                                                  January 16, 2014.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
428 Dirksen Office Building,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Alexander: I am writing in 
strong support of the nomination of Vivek Murthy, M.D., MBA to be 
Surgeon General.
    Currently a member of President Obama's National Advisory Group on 
Prevention, Health Promotion, and Integrative and Public Health as well 
as president of the organization he co-founded, Doctors for America, 
Dr. Murthy has demonstrated a commitment to prevention and health 
improvement that makes him ideally suited to be the next Surgeon 
General. Dr. Murthy's work on the design and implementation of the 
National Prevention Strategy, as well as his experience in coalition 
building, social media communication and grassroots mobilization shows 
he is uniquely capable of bringing diverse groups together to advance 
health in our country.
    When the Committee on Health, Education, Labor, and Pensions 
considers Dr. Murthy for the post of Surgeon General, I urge you to 
support his nomination and see to his swift confirmation by the full 
Senate. Given the alarming rise in both the economic and human cost of 
chronic diseases--like diabetes--across the Nation, we need a Surgeon 
General who will be devoted to prevention efforts. Dr. Murthy has 
demonstrated this commitment throughout his career, and he has the full 
support of the American Diabetes Association.
    Thank you for your consideration.

            Sincerely,

                                             Larry Hausner,
                                           Chief Executive Officer.
                                 ______
                                 
                  American Heart Association (AHA),
                                      Washington, DC 20036,
                                                  January 23, 2014.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Alexander: On behalf of the 
American Heart Association (AHA), including the American Stroke 
Association (ASA) and over 22.5 million AHA and ASA volunteers and 
supporters, we strongly urge you to support the nomination of Vivek 
Murthy, M.D., MBA as the next U.S. Surgeon General.
    Dr. Murthy has an impressive academic and professional background, 
making him well-suited for this position. As America's doctor, he has 
an opportunity to impact the health and well-being of Americans across 
the country, a commitment which he has proven over the course of his 
distinguished career. As a member of the President's Advisory Group on 
Prevention, Health Promotion, and Integrative and Public Health, he was 
critical to the development and implementation of the National 
Prevention Strategy. As a physician, Dr. Murthy is acutely aware of the 
challenges faced by patients with chronic diseases and understands the 
importance of prevention and public health promotion as a means to 
prevent illness.
    Dr. Murthy has proven to be a thoughtful leader who is effective in 
convening varying stakeholders to build consensus. He certainly shares 
our vision and commitment to prevention and is well-positioned to help 
us improve the health of our Nation. We look forward to working with 
him on some of our Nation's most pressing health issues and urge you to 
confirm him swiftly.
    Thank you for your consideration.

            Sincerely,

                                      Mariell Jessup, M.D.,
                                                         President.
                                 ______
                                 
                     American Hospital Association,
                                 Washington, DC 20004-2802,
                                                  January 30, 2014.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
835 Hart Office Building,
Washington, DC 20510.

    Dear Senators Harkin and Alexander: The American Hospital 
Association (AHA), on behalf of its more than 5,000 member hospitals, 
health systems and other health care organizations, and its nearly 
40,000 individual members, enthusiastically supports the nomination of 
Vivek H. Murthy, M.D., M.B.A, to Surgeon General of the United States.
    Dr. Murthy is well qualified to serve as our Nation's Doctor. He is 
committed to improving health and health care in America, and would be 
a strong advocate for advancing the health of our Nation. He is 
currently a hospitalist at Brigham and Women's Hospital in Boston and 
an instructor of medicine at Harvard Medical School. He is an extremely 
accomplished physician known for providing compassionate, 
collaborative, high quality patient care. He is dedicated to promoting 
wellness, and currently serves on the National Advisory Group for 
Prevention, Health Promotion, and Integrative and Public Health. He is 
also the co-founder and president of Doctors for America, a non-
partisan organization working to provide Americans with more 
affordable, accessible health care.
    The AHA strongly believes that our Nation would benefit greatly 
from Dr. Murthy's knowledge, dedication, enthusiasm and experience. We 
urge the Committee on Health, Education, Labor, and Pensions to support 
his appointment so the Senate can quickly vote to confirm his 
nomination. If you have any questions regarding his candidacy, please 
do not hesitate to contact me or Robyn Bash, Executive Director, 
Federal Relations at (202) 626-2672 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fb89999a8893bb9a939ad594899cd5">[email&#160;protected]</a>

    Sincerely,

                                              Rick Pollack,
                                          Executive Vice President.
                                 ______
                                 
       American Medical Women's Association (AMWA),
                                          Reston, VA 20190,
                                                  January 23, 2014.
Senator Tom Harkin,
731 Hart Senate Office Building,
Washington, DC 20510.

    Dear Senator Harkin: The American Medical Women's Association 
(AMWA) encourages you to support President Barack Obama's nomination of 
Dr. Vivek Murthy to be the next Surgeon General of the United States of 
America. Our organization has had the privilege of working with Dr. 
Murthy during his tenure as President of Doctors for America. We have 
been impressed with his leadership skills, dedication, and vision for 
better health and healthcare delivery in the United States.
    Dr. Murthy is a well-respected leader in the medical community who 
has effectively mobilized organizations and individuals to work 
together toward the common goal of better healthcare for America. 
Understanding the complex problems facing this country, he has provided 
not only thoughtful commentary but active leadership in galvanizing 
physicians from all over the country to work toward better access to 
high-quality care for their patients. In addition, Dr. Murthy has an 
innate ability to connect with the American public, an essential factor 
to bringing about real change in our society. If the American public 
will cooperate with their Surgeon General's recommendations, there is 
no limit to the transformation that we will see in the health of this 
country.
    Establishing healthy habits early on in life is critical so that 
individuals will continue making wise choices regarding their diet, 
personal habits, and medication compliance as they grow older. Thus, 
being able to convey this message to young Americans becomes of 
paramount importance for our aging population. By using his own age and 
compelling leadership skills to that advantage, Dr. Murthy has the 
potential to make a significant impact on the health of future 
generations to come.
    We urge you to support the nomination of Dr. Vivek Murthy to be the 
next Surgeon General of the United States. He is extremely well-
qualified for this position, and we have no doubt that he will 
accomplish great things for our country in that role.
            Sincerely,
                                  Eliza Lo Chin, M.D., MPH,
                                                Executive Director,
                              American Medical Women's Association.
                                 ______
                                 
         American Public Health Association (APHA),
                                 Washington, DC 20001-3710,
                                                  January 24, 2014.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, & Pensions,
U.S. Senate,
527 Hart Office Building,
Washington, DC 20510.
Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, & Pensions,
U.S. Senate,
727 Hart Office Building,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Alexander: On behalf of the 
American Public Health Association, a diverse community of public 
health professionals who champion the health of all people and 
communities, I write to urge the swift confirmation of Vivek Murthy, 
M.D., to serve as U.S. surgeon general. Dr. Murthy is highly qualified 
and his experience as an attending physician at Brigham and Women's 
Hospital, instructor at Harvard Medical School and co-founder of 
Doctors of America make him an excellent and unique candidate for this 
important position.
    As you are aware, the U.S. surgeon general has several important 
duties that include serving as the leader of the Commissioned Corps of 
the U.S. Public Health Service, chairing the National Prevention, 
Health Promotion and Public Health Council (National Prevention 
Council) and serving as the Nation's doctor to communicate the best 
scientific information available on health promotion and disease and 
injury prevention. I believe that Dr. Murthy is ready to serve our 
Nation in these three most important roles.
    He has demonstrated the maturity and leadership skills that one 
would expect of a vice admiral, the level that the surgeon general 
would hold, and are necessary to lead the fine men and women of the 
Commissioned Corps. As co-founder and president of Doctors for America, 
Dr. Murthy has been an extraordinary leader in igniting a national 
movement to bring together 16,000 physicians and medical students 
working to ensure access to quality health care for all. He has 
demonstrated creativity and innovation in addressing complex public 
health issues through acting as a vocal advocate and cultivating strong 
relationships and partners. These skills are essential as we all work 
together to improve the Commissioned Corps.
    Dr. Murthy currently serves on the Advisory Group on Prevention, 
Health Promotion, and Integrative and Public Health, which advises the 
National Prevention Council on evidence-based prevention and health 
promotion strategies. Through his participation in the advisory group 
he has demonstrated his understanding of the core principles necessary 
to advance the health of our Nation. As the surgeon general, Dr. Murthy 
would seamlessly transition to serve as the chair of the National 
Prevention Council.
    Dr. Murthy is well-trained, knowledgeable and well-prepared to act 
as the Nation's doctor. I am confident he will be a tremendous leader 
as the surgeon general and contribute greatly to improving the lives 
and health of all Americans. I strongly endorse Dr. Murthy's nomination 
and urge the Senate HELP Committee's immediate approval.
            Sincerely,
                                    Georges Benjamin, M.D.,
                                                Executive Director.
                                 ______
                                 
      Associated Industries of Massachusetts (AIM),
                                          Boston, MA 02108,
                                                  January 23, 2014.
Senator Thomas Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
731 Hart Office Building,
Washington, DC 20510.

    Dear Senator Harkin: I write on behalf of Associated Industries of 
Massachusetts (AIM) to support the President's nomination of Vivek H. 
Murthy, M.D., MBA to the position of Surgeon General of the United 
States. Dr. Murthy, currently Hospitalist Attending Physician at 
Brigham and Women's Hospital and Instructor in Medicine at the Harvard 
Medical School (both AIM members), has a remarkable record of 
leadership in the most critical fields within the purview of the office 
of Surgeon General; public outreach, particularly to underserved 
populations; the integrity of the physician-patient relationship; and 
management issues, particularly with regard to the impacts of 
information technology.
    AIM's mission is to promote the prosperity of our State by 
improving the economic climate, proactively advocating fair and 
equitable public policy, and providing relevant, reliable information 
and excellent services on behalf of the thousands of member employers 
of all kinds throughout the State. Health care is a primary issue for 
us, and we have learned over the past decade that progress in this area 
depends upon interchange, collaboration, and shared responsibility 
across interest groups and political divisions. I believe that Dr. 
Murthy, who is at once firmly grounded in the principles and practices 
of his profession and open to broader experience and perspectives--
including those of business management--can contribute to fostering 
such communication and comity at the national level.
    The Surgeon General has significant management responsibilities, 
but ultimately his or her effectiveness in the role depends on the 
individual's dedication, energy, and independence. Dr. Vivek Murthy's 
career displays outstanding qualifications in all four dimensions.
            Sincerely,
                                           Richard C. Lord,
                                                 President and CEO.
                                 ______
                                 
                                    Foley Hoag LLP,
                                 Washington, DC 20006-5350,
                                                  January 23, 2014.
Hon. Tom Harkin, Chairman,
Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

    Dear Senators Harkin and Alexander: I am writing to you today to 
express my strong support for the nomination of Dr. Vivek Hallegere 
Murthy as Surgeon General of the United States. I urge all members of 
the Senate HELP Committee, Democratic and Republican, to support Dr. 
Murthy's nomination so that the full Senate may quickly vote on his 
nomination and this important position within the Department of Health 
and Human Services (HHS) be filled expeditiously.
    I am a partner in the law firm of Foley Hoag LLP and an adjunct 
professor of law and health policy at the George Washington University 
School of Public Health and Health Services. Prior to my joining the 
partnership at Foley Hoag, I served as Health Policy Counselor to 
former HHS Secretary Michael O. Leavitt, as well as deputy general 
counsel and acting general counsel of HHS. During my tenure at HHS, I 
worked closely with the Office of the Surgeon General and am well aware 
of the important responsibilities of the Surgeon General. This position 
should not remain unfilled and needs a Senate-confirmed appointee.
    Dr. Murthy has, in my view, the skills necessary to succeed as the 
Surgeon General of the United States. First, he understands the 
American health care system both as a physician and as a health policy 
scholar who has received both an M.D. and an MBA degree from Yale 
University. Second, he understands instinctively the importance of 
improving public health and the role of the Surgeon General as an 
advocate for addressing America's public health challenges. Third, he 
has an extraordinary ability to communicate important messages 
regarding public health without demagoguery.
    To my fellow Republicans, who may be concerned over Dr. Murthy's 
outspoken advocacy of the Patient Protection and Affordable Care Act 
(the ACA), I would like to say that I have personally discussed the ACA 
with Dr. Murthy on multiple occasions. Although we have had 
disagreements over aspects of the law, I can attest that Dr. Murthy has 
always conducted himself with the utmost respect, fairness and candor 
in our discussions. Whatever our differences may be over the ADA, I can 
assure you that Dr. Murthy's primary agenda as Surgeon General will be 
to promote the public health of the people of the United States. It is 
for that reason that I strongly support his nomination and, with the 
utmost respect, ask you to do the same.
    Thank you for your attention to this matter. I would be happy to 
speak to any of the members of your committee or their staffs regarding 
Dr. Murthy's nomination.
            Sincerely,
                                          Thomas R. Barker,
                                                           Partner.
                                 ______
                                 
                      Brigham and Women's Hospital,
                                          Boston, MA 02115,
                                                  January 29, 2014.

Hon. Tom Harkin, Chairman,
Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

    Dear Senators Harkin and Alexander: On behalf of Brigham and 
Women's Hospital, I am writing to express my strong support for the 
President's nomination of Dr. Vivek Hallegere Murthy as the next 
Surgeon General of the United States. While his professional 
accomplishments are extraordinary, his personal integrity, compassion, 
and energy are unsurpassed.
    Brigham and Women's Hospital has experienced directly the depth of 
knowledge and breadth of vision of Dr. Murthy. Not only did he receive 
his medical training at our hospital--a founding member of Partners 
HealthCare--but he also continues to care for patients as an internist. 
He is an outstanding and compassionate clinician who seeks to 
understand the needs of and treat the whole patient both inside and 
outside the hospital walls.
    Early in his career, Dr. Murthy committed himself to providing the 
best care for his patients, but also the best healthcare for all 
patients. As a student, he co-founded VISIONS and the Swasthya Project, 
both of which were international service organizations focused on HIV/
AIDS education and rural health. These organizations expanded to 
include hundreds of student members in the United States and India. He 
co-founded Doctors for America, a non-profit organization that 
advocates for improvements in the American health care system and also 
founded TrialWorks, a software company focused on improving the 
efficiency of the drug development 
process in order to accelerate the availability of new drugs for 
patients.
    Dr. Murthy has demonstrated his strong commitment to public health 
with his service on the National Advisory Group on Prevention, Health 
Promotion and Integrative and Public Health. He also has a deep and 
keen understanding that the health of Americans requires knowledge and 
sensitivity of conditions in the communities in which they live. He has 
demonstrated the ability to engage diverse groups, to articulate the 
importance of taking personal responsibility for leading healthier 
lives, and to provide the necessary supports to enable individuals to 
make the meaningful changes in lifestyles to improve their health. Dr. 
Murthy's experience, his skills and his commitment to the health of all 
Americans make him eminently qualified to be Surgeon General of the 
United States and the ``Nation's doctor'' for all of us.
    We share the President's great confidence that Dr. Murthy is a 
physician leader who will make an outstanding Surgeon General and we 
urge the committee and the Senate to confirm his nomination as soon as 
possible.

            Sincerely,
                                   Elizabeth G. Nabel, M.D.
                                 ______
                                 
         National Center for Disaster Preparedness,
                                        New York, NY 10027,
                                                  January 16, 2014.

Hon. Tom Harkin,
U.S. Senate,
Hart Office Building,
Washington, DC 20510.

Re: Vivek Murthy, M.D.

    Dear Tom: I hope this finds you and the family doing well, 
anticipating a happy and healthy 2014.
    The purpose of this letter is to express my whole-hearted support 
for Vivek Murthy's nomination to be the next U.S. Surgeon General. I 
have known Dr. Murthy for a number of years and I believe that he would 
make an outstanding Surgeon General with exactly the right skills, 
experiences and communication savvy that is needed at this momentous 
time of health and public health transition. His work on health reform 
is well-known and his ability to communicate what's important about 
health care reform for All Americans is superb.
    Dr. Murthy is a brilliant physician who has dedicated himself to 
helping ensure that the Nation finally achieves an equitable health 
care system. He has served as a presidential appointee to the National 
Advisory Group on Prevention. Health Promotion and Public Health and 
has been an active voice in promoting the elimination of disparities in 
access to health care in the United States. He has also worked to 
insure that medical care in America remains patient and family-centered 
and that humanism and compassion serve as the cornerstone of health 
care, even as medicine becomes increasingly high tech and large-system 
oriented.
    I would greatly appreciate your support of Vivek's nomination. He 
is a terrific candidate and would serve the President and the Nation 
extremely well.
            Regards,
                                      Irwin Redlener, M.D.,
                                            President & Co-Founder,
                                            Children's Health Fund.

               Director, National Center for Disaster Preparedness,
              Director, Program on Child Well-Being and Resilience,
                              Earth Institute, Columbia University.
                                 ______
                                 
                  Saint Thomas Rutherford Hospital,
                               Murfreesboro, TN 37129-2245,
                                                  January 24, 2014.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

    Dear Senator Harkin: This is to express support of the nomination 
of Dr. Vivek Murthy for Surgeon General of the United States. I have 
known Dr. Murthy for the last several years, the contact being through 
his efforts at improving U.S. health care while I was working with an 
organization that worked in international health care. He is incredibly 
bright, thoughtful, and energetic. He has managed to serve the dual 
roles of both helping individual patients ``one patient at a time'' as 
a practicing physician while helping the entire population through his 
public health work. Additionally he also has developed a software 
product that is used in clinical trials of new medications.
    He brings an understanding of communication skills at a time when 
those modalities are changing at a speed hardly grasped by many of us 
only 20 years older. Public health initiatives such as addressing 
obesity so often depend on communication; these initiatives are not 
interventions that can simply be provided or done by the Surgeon 
General, physicians, or health care workers, but require action by 
individuals. This individual action must be inspired by communication 
that is heard by the target audience, and Dr. Murthy has the skills to 
lead that endeavor.
    He brings a fresh perspective to health care overall, having 
trained and now practiced in an age of unprecedented medical knowledge. 
He has seen and understood the increasing problems of availability of 
that care to so many Americans. He also brings the energy and 
imagination of his age to a position that requires increasing action in 
order to address the myriad issues that will confront the next surgeon 
general, such as obesity. He also is well-equipped to handle new and 
unforeseen health issues that might arise.
    Dr. Murthy is a very wise and innovative choice for this important 
position, and the country deserves his prompt approval by the Senate. 
Thank you very much for your attention.
            Sincerely,
                                   Scott Corlew, M.D., MPH,
                                             Chief Medical Officer.
                                 ______
                                 
             St. Jude Children's Research Hospital,
                                    Memphis, TN 38105-3678,
                                                  January 28, 2014.

Hon. Thomas Harkin, Chairman,
Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

    Dear Senators Harkin and Alexander: This letter is to express my 
strongest support for the nomination of Dr. Vivek Murthy as Surgeon 
General for the United States. I urge the Senate HELP Committee to 
support Dr. Murthy's nomination so that the full Senate may quickly 
vote on his nomination.
    As someone who is actively engaged in clinical medicine myself, I 
feel that I am well-positioned to comment on the qualifications of Dr. 
Murthy. I am a full member and chairman of the Department of Surgery at 
St. Jude Children's Research Hospital in Memphis, TN, and hold the St. 
Jude Endowed Chair in Surgical Research. I also have adjunct 
appointments in Surgery, Pediatrics and Pathology & Laboratory Medicine 
at the University of Tennessee School of Medicine. I received part of 
my surgical training through a fellowship in general and thoracic 
pediatric surgery at the Children's Hospital of Philadelphia. During 
that time I had the great pleasure of meeting Dr. C. Everett Koop, who 
instilled in me a tremendous appreciation for the job of the Surgeon 
General and the important things that a strong, motivated person in 
that position can accomplish.
    I think that Vivek Murthy is just such a person. This is a critical 
time for healthcare in the United States and informed, innovative 
leadership is critically needed. I am impressed that Dr. Murthy has 
these qualities and characteristics and will do an outstanding job for 
this country. Although I don't know Dr. Murthy personally, I am 
extremely impressed with his extensive and profound accomplishments, 
and at a relatively young age. I have followed his career with great 
admiration and look forward to watching his certain continued success. 
He is an extremely bright, motivated individual who is a great 
innovator, communicator and team-builder. He has already proven himself 
to be a dedicated leader in the health care and public policy arenas.
    In summary, I believe that Dr. Murthy is extremely well-qualified 
to serve as the Nation's Surgeon General. I am very pleased to endorse 
his nomination and urge you to support him as well.
    Thank you for your attention to this matter.
            Sincerely,
                                   Andrew M. Davidoff, M.D.
                                 ______
                                 
    Duke University Medical Center & Health System,
                                          Durham, NC 27710,
                                                  January 21, 2014.

Senator Tom Harkin, Chairman,
Senator Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Alexander: I write this 
letter supporting the nomination of Dr. Vivek Murthy for the position 
of U.S. Surgeon General in the strongest possible terms.
    I have known Dr. Murthy for over 10 years and believe he is the 
right leader for our Nation on matters of public health. Dr. Murthy's 
academic credentials are of the highest caliber and his portfolio of 
experience as a health care leader is both broad and deep. He has 
excelled as a public health educator, researcher, clinician, technology 
entrepreneur, and health policy leader.
    Currently he is a member of President Obama's National Advisory 
Group on Prevention, Health Promotion, and Integrative and Public 
Health. He has created public health education programs from scratch 
that have impacted thousands of people in the United States and abroad.
    I also know Dr. Murthy as a compassionate physician, award-winning 
medical educator and innovative researcher. His research has shed light 
on important questions of equity in clinical trials, and he has built a 
software technology company that is accelerating clinical trials around 
the world.
    Dr. Murthy is an inspiring leader. In building Doctors for America, 
a national organization of physicians across the Nation, Dr. Murthy has 
proven himself to be a leader with integrity, vision, and excellent 
communication skills. He is respected by colleagues and community 
members of all ages and across the political spectrum.
    At a time of great health care challenges, our Nation needs a 
Surgeon General who can bring people together around a vision for 
better health. We need a Surgeon General for the 21st century who 
understands how to harness the power of technology and social media to 
communicate effectively about health. And we need a Surgeon General who 
combines creativity and resourcefulness with humility and integrity in 
advancing the health interests of the Nation.
    Dr. Murthy will be this kind of Surgeon General for the Nation if 
confirmed by the Senate.
    I strongly urge you to support his nomination for U.S. Surgeon 
General.

            Sincerely,

                                       Victor J. Dzau, M.D.
                                 ______
                                 
                Federation of American Hospitals ,
                                      Washington, DC 20001,
                                                  January 23, 2014.

Hon. Tom Harkin, Chairman,
Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

    Dear Senators Harkin and Alexander: I am writing to you today to 
express the support of the Federation of American Hospitals for the 
nomination of Dr. Vivek Hallegere Murthy as Surgeon General of the 
United States. I urge the Senate HELP Committee to support Dr. Murthy's 
nomination so that the full Senate may quickly vote on his nomination.
    Dr. Murthy is an innovative thought leader in the health care 
field. His accomplishments are numerous. As a relatively young 
physician, he has founded a software company (TrialWorks) that seeks to 
improve the efficiency of drug development in clinical trials in an 
attempt to hasten access to medicine to patients. He is also co-founder 
of Doctors for America, a non-profit organization that advocates for 
improvements in the American health care system.
    He also has a strong commitment to public health, which is the main 
focus of the Surgeon General. As a physician and a public health 
leader, and from his work with the patients that he treats, he 
understands that improving the health of Americans requires a keen 
understanding of what happens in our communities. He is also a strong 
communicator who has the ability to explain clearly to the American 
people the importance of taking responsibility for leading healthier 
lives as well as educating the clinical community about the need for 
stronger partnerships between public health and the health care system.
    The Federation believes that Dr. Murthy is well-qualified to serve 
as the Nation's Surgeon General. We are pleased to endorse his 
nomination and urge your support for him.
    Thank you for your attention to this matter.
            Sincerely,
                                       Charles N. Kahn III,
                                                 President and CEO.
                                 ______
                                 
                       Harvard Pilgrim Health Care,
                                          January 22, 2014.

Hon. Tom Harkin,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.
Hon. Lamar Alexander,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Alexander: I am writing to 
support the nomination of Vivek Murthy, M.D., MBA for Surgeon General.
    Dr. Murthy's dedication to expanding access to health care is quite 
impressive, particularly for those without health insurance. He 
understands the value of physician leadership for the health care 
improvements that are sorely needed in our country. Dr. Murthy works 
collaboratively to bring together not just physicians, but patients and 
elected officials to make health care better for our citizens. He has 
worked tirelessly to support the implementation of the Affordable Care 
Act (ACA), particularly through the founding of Doctors for America. He 
has also been active internationally, establishing VISIONS Worldwide, 
which is dedicated to education on HIV and AIDS in India. I applaud his 
focus on preventive health care, which needs to be a top priority for 
all of us. He has helped guide prevention efforts by serving on the 
U.S. Advisory Group on Prevention, Health Promotion and Integrative and 
Public Health.
    For the last 10 years, Harvard Pilgrim has been named the #1 
private health plan in America, according to an annual ranking of the 
Nation's best health plans by the National Committee for Quality 
Assurance (NCQA).* Our mission is to improve the quality and value of 
health care. I believe that Dr. Murthy would be an excellent proponent 
of this mission for the country as a whole.
---------------------------------------------------------------------------
    * NCQA's Private Health Insurance Plan Rankings, 2011-14, HMO/POS. 
NCQA's Health Insurance Plan Rankings 2010-11--Private. U.S./News/NCQA 
America's Best Health Insurance Plans 2005-09 (annual). America's Best 
Health Insurance Plans is a trademark of U.S News & World Report. NCQA 
The State of Health Care Quality 2004. Harvard Pilgrim Health Care of 
New England, Harvard Pilgrim's New Hampshire affiliate, is the top-
ranked private health plan in New Hampshire and the 9th highest ranked 
private health plan in America.
---------------------------------------------------------------------------
    I urge the Committee on Health, Education, Labor, and Pensions to 
support Dr. Murthy's nomination so that the full Senate might quickly 
vote on his confirmation.
    It would be my pleasure to work with Dr. Murthy as Surgeon General.
            Sincerely,

                                           Eric H. Schultz,
                                                 President and CEO.
                                 ______
                                 
                     Health & Disability Advocates,
                                         Chicago, IL 60606,
                                                  January 17, 2014.
Senator Tom Harkin, Chairman,
Senator Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Alexander: I am writing in 
strong support of Dr. Vivek Hallegere Murthy's nomination as Surgeon 
General of the United States. I urge members of the Committee on 
Health, Education, Labor, and Pensions to support his appointment so 
that the full Senate might quickly vote on his confirmation.
    Dr. Murthy has proven to be an innovator in health care as the co-
founder and president of Doctors for America and has played a critical 
role in forward thinking endeavors around prevention and health 
promotion, including co-founding VISIONS Worldwide, an HIV/AIDS 
education collaborative in India and the United States. We believe he 
is uniquely positioned to be our ``Nation's Doctor'', given his current 
role as a Hospitalist Attending Physician and Instructor in Medicine at 
Brigham Women's Hospital in Boston. He has a deep investment in people, 
and an understanding of the important roles physicians, community-based 
providers and community leaders play as the Nation moves toward a 
culture of ``health'' care, rather than our current state of ``sick'' 
care.
    I have had the incredible pleasure of getting to know Dr. Murthy as 
a fellow member on the Advisory Group for Prevention, Health Promotion 
and Integrative Public Health. He is a passionate advocate for 
empowering Americans to make healthier, easier choices through 
engagement and collaboration with individuals and their health care 
professionals. This is critically important for Health & Disability 
Advocate's constituency, which includes people with complex medical 
needs.
    Dr. Murthy is truly a transformational leader and at no other time 
in our history as a country can I think of a time when we have needed 
such an approach in the Office of the Surgeon General. I thank you for 
your leadership and thoughtful consideration. If you should have any 
questions, please feel free to contact me directly at 312-265-9090 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7f1d100b0b103f171b1e1b09101c1e0b1a0c51100d1851">[email&#160;protected]</a>
            Sincerely,
                                           Barbara A. Otto,
                                           Chief Executive Officer.
                                 ______
                                 
                          Henry Ford Health Center,
                                         Detroit, MI 48202,
                                                  January 27, 2014.

Hon. Tom Harkin, Chairman,
Health, Education, Labor, and Pensions Committee,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

Hon. Lamar Alexander, Ranking Member,
Health, Education, Labor, and Pensions Committee,
U.S. Senate,
835 Hart Office Building,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Alexander: I am pleased to 
offer my strong support for the nomination of Dr. Vivek Hallegere 
Murthy as Surgeon General of the United States.
    Over the past 2 years I have been honored to serve with Dr. Murthy 
as fellow Presidential appointees to the Advisory Council on 
Prevention, Health Promotion, and Integrative and Public Health with in 
the U.S. Department of Health and Human Services. Without exception. I 
have experienced Dr. Murthy to be an articulate, compelling, leading 
voice for the health of Americans everywhere.
    Dr. Murthy brings the experience basis of a highly respected 
Internal Medicine physician along with a strategic passion for 
population health and access to care. Moreover, he has a strong 
background in health informatics and improving the quality and 
efficiency of health care. With a heart for the people, he also is an 
international leader in HIV prevention and AIDS education.
    In 2012, Dr. Murthy and I, along with Dr. Bob Kocher, co-authored 
an editorial published in Internal Medicine News on the health 
economics of the Affordable Care Act. Our collaboration showed me up-
close the depth of expertise and insight Dr. Murthy possesses on 
population health--including the dynamic interrelationship of clinical 
care coverage, prevention and community-based supports.
    I urge members of the Committee on Health, Education, Labor, and 
Pensions to approve this appointment so that the full Senate might 
readily vote to confirm Dr. Vivek Hallegere Murthy as our Nation's 19th 
Surgeon General.
    Thank you for your consideration.
            Sincerely,

                              Kimberlydawn Wisdom, M.D., MS
                                 ______
                                 
      University of California, Los Angeles (UCLA),
                                 Los Angeles, CA 90095-1772
                                                  January 27, 2014.

Senator Tom Harkin, Chairman,
Senator Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Alexander: As a 
presidentially appointed member of the Advisory Group on Prevention, 
Health Promotion, and Integrative and Public Health, I write to express 
my strong support of Dr. Vivek Hallegere Murthy in his nomination as 
Surgeon General of the United States. I have had the opportunity to 
work alongside Dr. Murthy to inform and advise the National Prevention, 
Health Promotion and Public Health Council.
    In my experience, Dr. Murthy has demonstrated sincere passion and 
commitment to pursuing health improvement for all Americans. He 
effectively utilizes his knowledge, as both a clinician and an 
innovator, to advance vital aspects of prevention and public health. 
Dr. Murthy will be a capable and deft leader who will successfully 
promote prevention in the health system.
    I encourage members of the Committee on Health, Education, Labor, 
and Pensions to support Dr. Murthy's appointment so that the full 
Senate may have an opportunity to vote on his confirmation as Surgeon 
General. Thank you for your consideration.
            Sincerely,
                 Jonathan E. Fielding, M.D., M.P.H., M.B.A,
         Distinguished Professor of Health Services and Pediatrics,
                       Schools of Public Health and Medicine, UCLA.

                                       Director and Health Officer,
                   Los Angeles County, Department of Public Health.
                                 ______
                                 
                     Emory Global Health Institute,
                                               Atlanta, GA,
                                                  February 4, 2014.

Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

    Dear Senator Harkin: I write as a former Director of the Centers 
for Disease Control and Prevention (CDC) and professor of Medicine and 
Public Health at Emory University to endorse the nomination of Dr. 
Vivek Murthy as Surgeon General of the U.S. Public Health Service. I am 
very familiar with the role and responsibilities of the Surgeon General 
as a 27-year employee of the CDC and Assistant Surgeon General (Rank: 
USPHS 08) for my last several years as Director of the CDC.
    Dr. Murthy is very well-qualified for this job and I am convinced 
he will make a superb Surgeon General. He is very well-trained and 
knowledgeable about both the practice of medicine, the U.S. health care 
system and the opportunities to improve the quality of and access to 
care in a thoughtful, compassionate and fiscally sound manner. He is an 
excellent communicator and will play a powerful role in explaining 
health issues and crises to the American people and in encouraging them 
to practice healthy behaviors.
    Senator Harkin, I had the privilege of collaborating with you for 
many years on important public health programs and hope that you will 
share my enthusiasm for and confidence in Dr. Murthy and support his 
nomination as Surgeon General of the United States.
            Sincerely,

                                   Jeffrey P. Koplan, M.D.,
                                  Vice President for Global Health,
                                                  Emory University.
                                 ______
                                 
                         March of Dimes Foundation,
                                      Washington, DC 20005,
                                                  January 29, 2014.

    Dear Chairman Harkin and Ranking Member Alexander: On behalf of the 
March of Dimes, a unique collaboration of scientists, clinicians, 
parents, members of the business community, and other volunteers 
affiliated with 51 chapters representing every State, the District of 
Columbia and Puerto Rico, I would like to highlight a few notable 
qualifications and urge swift Senate consideration of the nomination of 
Vivek Murthy, M.D., MBA, to serve as 19th Surgeon General of the United 
States.
    The U.S. Surgeon General provides vital counsel to the Secretary of 
Health and Human Services on public health and medical issues, in 
addition to serving as the head of the U.S. Public Health Service 
Commissioned Corps. As such, it has traditionally been the role of the 
Surgeon General to be ``America's doctor,'' attuned to the health care 
needs and priorities of all Americans. The Surgeon General has singular 
opportunities to use his or her position to call attention to vital 
health issues, educate Americans, and help shape public discourse on 
the Nation's health.
    Dr. Vivek Murthy possesses a number of qualification and qualities 
that render him well suited for the position of Surgeon General. His 
extensive accomplishments in the medical, business and academic 
communities reflect a keen intellect, tremendous energy, and a passion 
to improve patient health. His combination of experience and expertise 
in these fields give him unique insights into both the challenges and 
opportunities facing our health care system. He has made valuable 
contributions through his service on the Advisory Group on Prevention, 
Health Promotion, and Integrative and Public Health, which advises the 
Secretary of Health and Human Services on the National Prevention 
Strategy and top preventive health priorities. Given his past 
experience with health education and grassroots organizing, Dr. Murthy 
can be expected to have an energetic social media presence, which is a 
vital tool for reaching and educating many Americans about a range of 
health issues.
    If we may provide additional information, please do not hesitate to 
contact Cynthia Pellegrini, Senior Vice President for Public Policy and 
Government Affairs, at 202-659-1800.
            Sincerely,
                                     Dr. Jennifer L. Howse,
                                                         President.
                                 ______
                                 
                           The New England Council,
                                          Boston, MA 02114,
                                                 February 25, 2014.

Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

    Dear Chairman Harkin: On behalf of the New England Council, I am 
writing to express support for the nomination of Dr. Vivek H. Murthy to 
be the next Surgeon General of the United States.
    The New England Council is the Nation's oldest regional business 
organization, and promotes Federal policies and initiatives that 
enhance the economy and quality of life within New England. Among our 
members are health insurers and plan providers, community, rural and 
teaching hospitals, drug and medical device manufacturers and 
suppliers, independent physician organizations, non-profit think tanks, 
and various health-related trade groups and associations.
    As an attending physician at Brigham and Women's Hospital and an 
Instructor at Harvard University Medical School--both of which are 
members of the New England Council--Dr. Murthy has addressed the health 
needs of countless patients. He is also the co-founder and is president 
of Doctors for America, a national, non-partisan grassroots physician 
organization that engages physicians in health care policy issues. He 
also co-founded and led VISIONS Worldwide, devoting his efforts to 
educate tens of thousands of young people about HIV/AIDS.
    By his own account, Dr. Murthy serves as a physician, a researcher, 
a teacher, a public health educator, an organizational leader, a 
national leader in prevention, and an entrepreneur and innovator. There 
is little doubt that Dr. Murthy's experience and determined approach to 
tackling obesity and promoting the health of all Americans will serve 
him well as this Nation's top doctor.
    The New England Council urges the HELP Committee and the full 
Senate to approve the nomination of this outstanding candidate to serve 
as Surgeon General.
            Very truly yours,
                                            James T. Brett,
                                                   President & CEO,
                                           The New England Council.
                                 ______
                                 
   New Hampshire Public Health Association (NHPHA),
                                         Concord, NH 03301,
                                                  January 24, 2014.
Senator Tom Harkin, Chairman,
Senator Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Alexander: On behalf of New 
Hampshire Public Health Association (NHPHA), I write in strong support 
of Dr. Vivek Hallegere Murthy's nomination as Surgeon General of the 
United States. I urge members of the Committee on Health, Education, 
Labor, and Pensions to support his appointment so that the full Senate 
might quickly vote on his confirmation.
    I first met Dr. Murthy when he graciously provided the keynote 
address at the NHPHA Fall Forum in 2011. As a member of the Advisory 
Group on Prevention, Health Promotion, and Integrative and Public 
Health, he discussed the National Prevention Strategy as a component of 
the Affordable Care Act and shared his insights from his work on the 
Advisory Council regarding implementation of the National Prevention 
Strategy at the national and State levels. During this visit, Dr. 
Murthy demonstrated his vision and leadership as a forward thinking and 
innovative health leader, with a strong commitment to public health. 
His communication style was clear and effective in making meaningful 
connections with how national work can be applied locally. As Surgeon 
General of the United States, I believe his vision to strengthen public 
health will guide the Nation forward to improved health.
    Thank you for your consideration.
            Sincerely,
                                   Marie Mulroy, President,
                           New Hampshire Public Health Association.
                                 ______
                                 
                            UNC School of Medicine,
                                Chapel Hill, NC 27599-7530,
                                                  January 28, 2014.

Hon. Tom Harkin, Chairman,
Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

    Dear Senators Harkin and Alexander: It is with great honor that I 
write a strong letter of support for my dear colleague and friend, Dr. 
Vivek Murthy in his candidacy for U.S. Surgeon General. Vivek would be 
an energetic, thoughtful, dynamic and charismatic moral force that I 
believe would bridge the gap between populations, political factions, 
and move this country forward to be more aware of changes in health 
care and live healthier lives. In working with him I can speak 
extensively on his talents, passion for medicine and his progressive 
innovative way of thinking that would benefit this great nation.
    At every level of his training, Dr. Murthy has showcased his 
talents to improve how health care is perceived both here and abroad. 
As an undergraduate at Harvard, Vivek created the VISIONS program that 
has trained hundreds of students to teach thousands more in the United 
States and in India on HIV prevention. He has also been attentive to 
underlying issues that tend to be overlooked such as mental health when 
he created an annual course for trainees and physicians to be mindful 
of their own mental health. As a practicing physician, he is also 
keenly aware of the issues facing our country and how an unhealthy 
workforce will impact our economic prosperity not only in the present 
but also in the future.
    Vivek has a long history of problem solving and a history of 
communicating those solutions to various groups to promote 
collaboration and inclusiveness. Vivek has made strong relationships 
with physicians and community leaders across the country in every 
State, many local programs, and national organizations. He is a master 
communicator with the savvy to win over adversaries while promoting the 
common good.
    He currently serves on the National Advisory Group on Prevention, 
Health Promotion, and Integrative and Public Health. He has also 
thrived in grassroots efforts as well as when he galvanized physicians 
across the country to participate in Doctors for America.
    Vivek has shown that he can adjust with the times by showing his 
ability to quickly adapt to ever-changing technology and has 
demonstrated his creativity with his health care company, 
TrialNetworks, a company that has combined social media with clinical 
trials.
    The Surgeon General needs to be a strong dynamic leader with a 
demonstrated history of working with people from all backgrounds. The 
Surgeon General needs to be someone who can work with others and be 
willing to embrace change. Dr. Vivek Murthy embodies these qualities 
and many others and so, without hesitation or reservation, I strongly 
support his candidacy for Surgeon General.
            Sincerely,
                              Cedric M. Bright, M.D., FACP,
                        Assistant Dean Medical Admissions, UNC SOM,
                      112th President National Medical Association.
                                 ______
                                 
                              Partners Healthcare,
                                     Boston, MA 02199-8001,
                                                  January 29, 2014.
Hon. Tom Harkin, Chairman,
Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

    Dear Senators Harkin and Alexander: On behalf of Partners 
HealthCare, I am writing to express my strong support for the 
President's nomination of Dr. Vivek Hallegere Murthy as the next 
Surgeon General of the United States. While his professional 
accomplishments are extraordinary, his personal integrity, compassion, 
and energy are unsurpassed.
    Partners HealthCare has experienced directly the depth of knowledge 
and breadth of vision of Dr. Murthy. Not only did he receive his 
medical training at the Brigham and Women's Hospital--a founding member 
of Partners HealthCare--but he also continues to care for patients at 
the hospital as an internist. He is an outstanding and compassionate 
clinician who seeks to understand the needs of and treat the whole 
patient both inside and outside the hospital walls.
    Early in his career, Dr. Murthy committed himself to providing the 
best care for his patients, but also the best healthcare for all 
patients. As a student, he co-founded VISIONS and the Swasthya Project, 
both of which were international service organizations focused on HIV/
AIDS education and rural health. These organizations expanded to 
include hundreds of student members in the United States and India. He 
co-founded Doctors for America, a non-profit organization that 
advocates for improvements in the American health care system and also 
founded TrialWorks, a software company focused on improving the 
efficiency of the drug development process in order to accelerate the 
availability of new drugs for patients.
    Dr. Murthy has demonstrated his strong commitment to public health 
with his service on the National Advisory Group on Prevention, Health 
Promotion and Integrative and Public Health. He also has a deep and 
keen understanding that the health of Americans requires knowledge and 
sensitivity of conditions in the communities in which they live. He has 
demonstrated the ability to engage diverse groups, to articulate the 
importance of taking personal responsibility for leading healthier 
lives, and to provide the necessary supports to enable individuals to 
make the meaningful changes in lifestyles to improve their health. Dr. 
Murthy's experience, his skills and his commitment to the health of all 
Americans make him eminently qualified to be Surgeon General of the 
United States and the ``Nation's doctor'' for all of us.
    We share the President's great confidence that Dr. Murthy is a 
physician leader who will make an outstanding Surgeon General and we 
urge the committee and the Senate to confirm his nomination as soon as 
possible.
            Sincerely,
                             Gary I. Gottlieb, M.D., M.B.A.
                                 ______
                                 
             St. Jude Children's Research Hospital,
                                    Memphis, TN 38105-3678,
                                          January 25, 2014.
Hon. Tom Harkin, Chairman,
Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC. 20510.

    Dear Senators Harkin and Alexander: I am writing this letter today 
primarily in support of Dr. Vivek Hallegere Murthy to be our next 
Surgeon General.
    I am a pediatric surgeon at St. Jude Children's Hospital for the 
past 34 years and also am director of Surgical Training for the 
International Outreach Program. These two initiatives of St. Jude's are 
committed to stopping the advancement of catastrophic diseases in 
children, not only in the USA but also in over 20 other countries 
around the world.
    I have had the pleasure and privilege of watching Dr. Murthy's 
career evolve over the past 15 years. His initial work as part of 
Visions Worldwide, a nonprofit organization he founded promoting HIV 
education in India. My daughter accompanied him on two separate 
missions as part of Vision's groundbreaking efforts. His most recent 
work to improve America's health care system was with Doctors for 
America. This to me underscores his strong commitment to public health, 
outreach and advocacy.
    I honestly believe Vivek has accomplished far more in under 40 
years than most people. I strongly feel that because of his leadership 
skills he can inspire and ultimately motivate our generation and the 
next.
    He is soft spoken and humble, but his most important quality is his 
ability to listen to his peers, digest information, the ideas, 
communicate what we need so that this country can ultimately benefit.
    These are the essential qualities for the quality of life that the 
next generation of American children and adults deserve.
    I am pleased to endorse Dr. Vivek Murthy for this position and 
sincerely hope that you can support him also.
            Sincerely,
                                            Bhaskar N. Rao.
                                 ______
                                 
            The Satcher Health Leadershp Institute,
                                    Atlanta, GA 30310-1495,
                                                  February 3, 2014.

Hon. Tom Harkin, Chairman,
Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

    Dear Senators Harkin and Alexander: I am writing in support of the 
nomination of Dr. Vivek Hallegere Murthy as the next Surgeon General of 
the United States. Dr. Murthy has made a remarkable impression on me in 
the few interactions we have shared, and judging by what I know about 
him I feel he could make a great Surgeon General. In today's world, we 
need a Surgeon General who is committed to a prevention agenda and a 
health system that incentivizes primary care and quality of care, and 
who also keeps the position relevant and cutting-edge, particularly for 
our young people growing up in an increasingly globalized society. As 
Surgeon General, Dr. Murthy's impressive track record of 
accomplishments as an innovative and well-respected thought leader in 
health care will prove to be invaluable to the American people.
    I would also like to address and respond to the controversy of this 
nomination for Surgeon General coming from outside of the U.S. Public 
Health Service Commissioned Corps. As a proud veteran of the USPHS who 
holds the utmost respect for the Commissioned Corps, I also continue to 
disagree with my colleagues who hold that the Surgeon General must come 
from within the Commissioned Corps. I myself was appointed as Director 
of the CDC from outside the Commissioned Corps, and as you know, had 
the opportunity to serve in government for 8 years in the Clinton 
administration and 1 year in the George W. Bush administration, 
becoming Surgeon General and Assistant Secretary for Health. I had a 
great working relationship with the Corps during my years of government 
service and was able to appoint Deputies from within the Commissioned 
Corps, which turned out to be excellent decisions. But appointing 
persons from outside of the Commissioned Corps not only enhances the 
diversity of the Public Health Service, it has also in the past enabled 
the President and Senate to bring in perspectives that have been 
important in achieving important public health goals such as childhood 
immunization, the Tuskegee Apology, and diversity in leadership at 
every level. I think it would be a great disservice to constrain the 
appointment of Surgeon General to within the Commissioned Corps.
    The American people look to the Office of the Surgeon General for 
credible information based on the best available public health science, 
not politics, not religion, and not personal opinion. A highlight of my 
service was the opportunity I had to release the first ever Surgeon 
General's Reports on Mental Health, Overweight and Obesity, Sexual 
Health, Disabilities, Oral Health, and Youth Violence Prevention. In 
addition, my work in the communities of Watts, CA, Cleveland, OH, 
Atlanta, GA, and Nashville, TN greatly enhanced my perspective and 
ability to reach the communities that had not been adequately reached 
before with the goal of eliminating disparities in health. I have faith 
that as Surgeon General, Dr. Murthy can continue to carry this torch to 
fulfill a sacred trust with the American people.
    The Office of Surgeon General requires a strong and thoughtful 
leader who can navigate political pressures to champion health 
promotion for the American People, and Dr. Murthy's has proven his 
capabilities in that capacity. We need a Surgeon General who can 
connect with people across generations, cultures, and political 
persuasions to empower Americans to take responsibility for and improve 
their health. I feel that Dr. Murthy meets all of these qualifications 
superbly.
            Sincerely,
                                David Satcher, M.D., Ph.D.,
                     Director, Satcher Health Leadership Institute,
                                      Morehouse School of Medicine,
                                         16th U.S. Surgeon General.
                                 ______
                                 
               New York State Department of Health,
                                          January 27, 2014.
Hon. Tom Harkin, Chairman,
Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

    Dear Senators Harkin and Alexander: I am writing to express my 
strong support for the nomination of Dr. Vivek H. Murthy as the next 
Surgeon General of the United States. Given his impressive credentials 
as a physician, thought leader and innovator, Dr. Murthy is eminently 
qualified to fulfill this role as the Nation's leading physician at 
this critical time in our evolving health care system.
    As an attending physician at Brigham and Women's Hospital, Dr. 
Murthy has a front row seat to the health care needs of our citizens. 
He is the co-founder and president of Doctors for America, an 
organization of more than 16,000 doctors and medical students directly 
involved in helping to build a better health care system for all 
Americans. In that role, he has organized numerous activities around 
educating communities about the importance of primary and preventive 
health care. He is also the co-founder and board chairman of 
TrialNetworks, a software technology company that works to make 
clinical trials more efficient, so that vital therapies can be made 
available to patients more quickly. His passion for these issues 
demonstrates a clear commitment to the most topical and relevant health 
issues of our generation.
    The role of the U.S. Surgeon General has always been an important 
one, but never as much as it is right now, as our country confronts 
dual epidemics of chronic diseases such as diabetes and obesity, and 
strives to reform its health care system. Having a Surgeon General like 
Dr. Murthy, who has the energy, drive and passion to lead our citizens 
toward healthier lives, will help spur the transformation and lead us 
to a more vibrant and responsive health delivery system.
    President Obama has made an excellent choice in his nomination of 
Dr. Murthy. I hope you will give Dr. Murthy your support and approve 
him as our next Surgeon General. Thank you.
            Sincerely,
                                  Nirav R. Shah, M.D., MPH,
                                            Commissioner of Health.
                                 ______
                                 
                      Tenet Healthcare Corporation,
                                    Dallas, TX 75313--9036,
                                                  January 24, 2014.
Hon. Lamar Alexander,
U.S. Senate,
455 Dirksen Office Building,
Washington, DC 20510.

Re: Nomination of Dr. Vivek Murthy as Surgeon General

    Dear Senator Alexander, I am pleased to support the nomination of 
Dr. Vivek Murthy to the position of Surgeon General of the United 
States.
    Dr. Murthy is clearly an outstanding nominee. His two decades of 
experience as a physician-leader in both public service and the private 
market make him an excellent choice to serve as the Administration's 
leading spokesman on matters of public health.
    As you know, Dr. Murthy has established non-profit medical 
foundations to increase access to healthcare, is practicing physician 
at Boston's Brigham and Women's Hospital, and is co-founder and 
chairman of TrialNetworks, a company dedicated to improving the quality 
and efficiency of clinical trials. Through this extraordinary 
leadership, he has acquired the breadth of experience needed to serve 
as head of the U.S. Public Health Service Commissioned Corps.
    Finally, his leadership in bringing together doctors and medical 
students from around the country with the common goal of improving the 
health of the Nation will prove him to be an able leader in building 
support within diverse populations--a critical skill for the incoming 
Surgeon General.
    Dr. Murthy has proven his dedication and commitment to improving 
the lives and health of all Americans. If confirmed, Dr. Murthy would 
bring impeccable credentials, broad experience and a host of admirable 
personal qualities to the role of Surgeon General.
    As such, I urge the Committee on Health, Education. Labor, and 
Pensions to give favorable consideration to the nomination of Dr. Vivek 
Murthy.
            Sincerely,
                                             Trevor Fetter,
                                                   President & CEO.
                                 ______
                                 
                        Trust for America's Health,
                                              Washington, DC 20036,
                                                  January 16, 2014.
Senator Tom Harkin, Chairman,
Senator Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Alexander: On behalf of 
Trust for America's Health (TFAH), a non-profit, non-partisan 
organization dedicated to improving the health of all Americans, I 
write in strong support for Dr. Vivek Hallegere Murthy's nomination as 
Surgeon General of the United States. I urge members of the Committee 
on Health, Education, Labor, and Pensions to support his appointment so 
that the full Senate might quickly vote on his confirmation.
    Dr. Murthy is a forward thinking and innovative health leader, with 
a strong commitment to public health. As a physician and a public 
health leader, he understands that improving the health of Americans 
requires a close partnership between what happens in the clinic and 
what happens in our communities. He is a strong and compassionate 
communicator, who will be able to guide the American people to a deeper 
understanding of how we can all take responsibility for leading 
healthier lives and to educate the clinical community about the need 
for stronger partnerships between public health and the health care 
system.
    Dr. Murthy has demonstrated this ability in his personal work as 
well as his policy work. Dr. Murthy is a member of the Advisory Group 
on Prevention, Health Promotion, and Integrative and Public Health, 
which I chair. He is a strong leader among his colleagues, bringing a 
thoughtful and collaborative approach to our work.
    We at TFAH look forward to working with Dr. Murthy as the Nation's 
Doctor in promoting our shared vision of prevention as the driving 
force in our health system. Thank you for your consideration.
            Sincerely,
                                       Jeffrey Levi, Ph.D.,
                                                Executive Director.
                                 ______
                                 
                                 TUFTS Health Plan,
                                  Watertown, MA 02472-1508,
                                                  February 3, 2014.

Hon. Tom Harkin,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

Re: Surgeon General Nominee Vivek Murthy, M.D.

    Dear Chairman Harkin: Dr. Vivek Murthy is an excellent choice to be 
the next Surgeon General of the United States. His experience and 
record of accomplishment have prepared him for the Surgeon General's 
role as the Nation's chief advocate for access to health care, 
prevention and wellness. He has been caring for sick and injured 
patients at one of the Nation's leading academic medical center 
hospitals. He has shown that he can create and manage organizations 
that carry the message of wellness and healthy lifestyles to the 
public. He is a prolific and effective speaker and author on health 
care delivery and access.
    As the CEO of a million member health plan in Massachusetts and 
Rhode Island, I can attest that Dr. Murthy's reputation is excellent. I 
fully and enthusiastically recommend him for confirmation. He is a true 
leader and would serve the health of the people of the United States 
with distinction and accomplishment. Please feel free to contact me if 
you have any questions.
            Respectfully,
                                       James Roosevelt, Jr.
                                 ______
                                 
              Vanderbilt University Medical Center,
                                  Nashville, TN 37232-2104,
                                                  January 31, 2014.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education. Labor, and Pensions,
U.S. Senate,
1727 Hart Office Building,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Alexander: I write to 
express my support for the nomination of Dr. Vivek Hallegere Murthy as 
Surgeon General of the United States and urge the Senate HELP Committee 
to approve his nomination so that he may be considered by the full 
Senate in a timely manner. Dr. Murthy has already distinguished himself 
as a brilliant young physician at one of our Nation's pre-eminent 
academic medical centers; his passion and commitment to the health of 
his patients is admirable. 1 believe that these traits will make him a 
successful Surgeon General.
    The Surgeon General plays an important role in focusing the 
country's attention on critical public health matters and effecting 
change in Americans' lifestyles. We need an individual in this role who 
not only understands the public health challenges our country faces but 
has an ability to effectively communicate with all of the American 
people. I believe that Dr. Murthy intimately understands these health 
issues and is committed to the mission of the Surgeon General. I have 
confidence that he will be a visible leader in our communities, 
educating patients on the importance of healthier lifestyles and 
working with providers to strengthen their partnerships with their 
communities.
    In short, I believe that Dr. Murthy is qualified for the position 
of Surgeon General and will serve with distinction. I am pleased to 
lend my support to his nomination. Thank you for your attention to this 
matter.
            Sincerely,
                             Jeffrey R. Balser, M.D., Ph.D.
                                 ______
                                 
                                         WellPoint,
                                    Indianapolis, IN 46204,
                                                  January 28, 2014.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

    Re: Nomination of Vivek Murthy, M.D., MBA to the Surgeon General of 
the United States

    Dear Senator Harkin: I am writing to enthusiastically endorse the 
candidacy of Vivek Murthy, M.D., MBA as Surgeon General of the United 
States. The best Surgeons General fulfill their mission of improving 
the health of our Nation by being conveners of people and 
organizations.
    Vivek has dedicated his life to empowering others to improve their 
health and their communities. Beginning during his undergraduate years 
at Harvard, through medical and management training at Yale, and 
continuing beyond his post graduate medical education at Harvard, 
Vivek's deep commitment to helping people live healthier, better lives 
has transformed what started as a personal passion in to a lifelong 
calling and vocation.
    As an undergraduate at Harvard, Vivek saw the lack of public 
education amid a growing AIDS epidemic in India and created VISIONS, 
which trained students in the United States and India to educate 
students in India on HIV prevention. As a medical student at Yale, he 
brought faculty members and students together to create an annual 
course that equips trainees and physicians with lifelong skills in 
self-care and humanistic medicine. As an entrepreneur, he created 
TrialNetworks, which builds social networking platforms to enhance 
collaboration and efficiency in clinical trials. As a practicing 
physician at Brigham and Women's Hospital and a teacher at Harvard 
Medical School, he co-founded a national grassroots organization which 
has empowered thousands of doctors and medical students in all 50 
States to advocate for policies aiming to improve health care for their 
patients.
    The United States has an epidemic of preventable illness. Vivek's 
passion for prevention and health improvement led to his appointment to 
the National Advisory Group on Prevention, Health Promotion, and 
Integrative and Public Health. Serving in this capacity, he has helped 
design and implement the National Prevention Strategy.
    This is an optimal time for a Surgeon General to be the 
spokesperson and a leader for transformative change. Most importantly, 
the coalescence of organizations focused on health improvement, health 
inequalities and payment for value together provide a nexus for 
mobilizing the Federal and State agencies, private sector businesses 
and health plans, health professionals and the American people to join 
together in shared accountability for health.
    I believe Vivek is the right person to lead this effort as Surgeon 
General, given the many capabilities he would bring to the job:

    <bullet> Communication skills: Vivek has spoken on health care 
issues to local and national audiences comprising tens of thousands of 
patients and providers around the country. He has the ability to 
explain complex concepts with simplicity, and a unique ability to build 
consensus in diverse audiences around common, unifying concepts--
particularly prevention.
    <bullet> Ability to mobilize and lead people to action: Vivek has 
galvanized thousands of physicians in all 50 States around a positive 
vision to improve health care and prevention. These physicians have 
organized prevention screenings and community education programs for 
thousands of patients, and they have shared their experiences caring 
for patients with the media and local government with the goal of 
creating policies that improve health for all.
    <bullet> Expertise with technology: Vivek created a health care 
technology company (TrialNetworks) that is transforming how clinical 
trials are run by using the power of social media and on line 
efficiency tools to bring effective therapies to patients faster. He 
has a solid understanding of the role of technology in health as well 
as proven success in using social media to communicate about key health 
care issues.
    <bullet> Builder of partnerships: Vivek has built strong 
relationships with physicians and community leaders across the country, 
national and local organizations, and industry leaders. As Surgeon 
General, he can leverage these relationships to build effective 
coalitions to advance health.

    The Surgeon General's opportunity for impact is immense especially 
at this moment in history. Delivery system reform focused on health, 
National Quality and Prevention Strategies, and payment innovations and 
expansion of coverage are transforming health in our communities. The 
need for an outstanding communicator, educator, and leader who can 
engage the public and providers could not be more critical.
    I have been impressed by Vivek's ability, passion, drive and proven 
track record. He would build an inclusive campaign to mobilize millions 
of Americans to take concrete steps to improve their health based on 
commonly agreed upon principles of health promotion and of healthy 
living. Vivek and I have spoken about the opportunities to engage 
health plans and their two hundred million members in meaningful ways 
to improve their health, and he would engage with the public and 
elected officials from both parties to lead the Nation in moving toward 
better health for all.
            Sincerely yours,
                                  Samuel R. Nussbaum, M.D.,
                                          Executive Vice President,
                  Clinical Health Policy and Chief Medical Officer.
                                 ______
                                 
 Response of Vivek Hallegere Murthy to Questions of Senator Alexander, 
  Senator Enzi, Senator Burr, Senator Hatch, Senator Roberts, Senator 
Murkowski, Senator Murray, Senator Sanders, Senator Franken and Senator 
                                 Casey
                           senator alexander
    Question 1. During negotiations on the Affordable Care Act, one of 
the only bipartisan amendments considered was related to wellness 
incentives for employees. These permit employers to offer incentives to 
employees who participate and achieve improved health outcomes through 
programs targeted at a few conditions that can be managed or improved 
to reduce long-term health effects. These programs help individuals 
lose weight, reduce high blood pressure, manage diabetes and quit 
smoking, for example. Unfortunately, the final rules put the brakes on 
wellness efforts that incentivize employees to achieve a goal. Those 
employees who can't achieve a goal because of an underlying medical 
condition should certainly be exempt or given another alternative. But 
the final rules say that an employee, without a medical reason, must be 
given another option at any time during the plan year. At a time when 
you and the Administration are working to encourage all Americans, 
including employers, to design and participate in innovative approaches 
to achieving improved health outcomes, would you commit to urging the 
appropriate Federal officials to give employers the regulatory 
flexibility they need and currently do not have to innovate and 
motivate employees to work to improve their own health and prevent 
diseases?
    Answer 1. Having built my own company, TrialNetworks, I understand 
the importance of freedom and flexibility to employers. I believe that 
the engagement of employers is an essential component of a community-
based approach to prevention and wellness. I have also observed that 
the most effective programs are those where local stakeholders like 
employers have the flexibility to implement programs that are best 
suited to their members. If confirmed, I would welcome the opportunity 
to share input with the Administration and lawmakers on how best to 
provide employers with the support and tools they need to advance 
prevention and health promotion in our communities.

    Question 2. In our meeting last week, we talked about the public 
health crisis posed by obesity in America and your plans to involve 
State and local community groups in an effort to reach the entire 
Nation and fight the problem together. What kind of groups do you plan 
to work with and what projects do you envision?
    Answer 2. My experience building community coalitions and my 
knowledge of community efforts through my work on the Prevention 
Advisory Group have taught me that (1) communities are often best able 
to determine the optimal approach for addressing public health 
challenges based on their particular needs, capacity, and norms, and 
(2) a wide range of community groups can play a role in improving 
prevention and addressing obesity rates. If confirmed as Surgeon 
General, I would work with faith-based groups, local businesses, 
schools, health care delivery systems (e.g., hospitals and community 
health centers), and community benefit organizations (e.g., YMCA) to 
educate communities about healthy diet and physical activity choices 
and to build coalitions that can implement scientifically based 
programs to improve diet and physical activity.
    Resources such as the U.S. Community Preventive Services Task Force 
recommendations provide accessible summaries of community interventions 
that are evidence-based and can be helpful to communities considering 
implementing obesity programs. The precise obesity reduction 
initiatives undertaken would depend on the community's needs and the 
coalition's interests. These initiatives could include voluntary 
initiatives directed at improving public education on diet and 
exercise; making healthier food choices available in schools, 
workplaces, restaurants and hospitals; improving physical activity 
through voluntary fitness challenges; and enrolling eligible community 
members in risk reduction programs such as the Diabetes Prevention 
Program (DPP). The DPP has been shown to reduce the development of Type 
II diabetes by 58 percent, and is currently being employed for patients 
in Minnesota through the YMCA of the Greater Twin Cities.

    Question 3. What existing programs or initiatives focused on 
fighting obesity that are supported by the Federal Government do you 
find to be the most effective?
    Answer 3. The Diabetes Prevention Program (DPP) may be one of the 
best examples of a proven community-based program that addresses the 
fundamental causes of obesity--poor nutrition and inadequate physical 
activity. The Federal Government's role in developing DPP is a model 
for the government's role in prevention: NIH supported the randomized 
clinical trial that demonstrated the approach works, CDC has supported 
translating this into a community-based program in collaboration with 
the YMCA, and now insurance plans across the country are beginning to 
pay for it, ensuring sustainability. The DPP is about empowering 
individuals through community organizations to make healthier choices. 
It is my hope that--if confirmed as Surgeon General--we could inspire 
similar public-private collaborations around obesity in communities 
across the country.

    Question 4. We've seen in the past that the efforts to fight 
obesity can become nanny-State campaigns to limit certain foods and 
beverages. Would you advocate for bans or harsher regulations on 
certain foods, beverages, or specific ingredients?
    Answer 4. My experience as a physician, public health educator, 
researcher, and entrepreneur has convinced me that the ideas, energy, 
and ingenuity of the American people are our greatest resource when it 
comes to improving health and emphasizing prevention.
    If confirmed, my focus would be on providing our Nation with 
scientifically based information regarding health and wellness so that 
people can make decisions that are best for themselves and their 
families. I would work with community coalitions to implement voluntary 
initiatives to expand education and to make healthy choices easier for 
community members.

    Question 5. As Surgeon General, you will lead the Commissioned 
Corps, which is made up of men and women who have dedicated their 
careers to public health and clinical service in the Department of 
Health and Human Services. What experience do you have leading a group 
like this and what do you hope to accomplish with the Commissioned 
Corps if you are confirmed?
    Answer 5. The Public Health Service Commissioned Corps is one of 
our Nation's most important public health resources and protects and 
promotes the public health of our Nation in numerous ways, including 
playing a key role in disaster response and in meeting the needs of 
underserved communities. I believe leading the Commissioned Corps is 
one of the most important duties of the Surgeon General. I have 
personally worked with Corps members and have experienced first-hand 
the extraordinary skill and commitment with which members dedicate 
themselves to improving the health of the Nation.
    Having started, built, and led several organizations focused on 
HIV/AIDS education, rural health, health policy, information 
technology, and clinical trials, I have experience overseeing teams 
ranging from dozens of staff to thousands of physician and non-
physician volunteers spread across the country. In addition, I have 
overseen budgets ranging from shoestring budgets to budgets in the 
millions of dollars. My experiences have honed my skills in developing 
and executing organizational strategy, building partnerships between 
diverse stakeholder organizations, taking projects from conception to 
completion with minimal resources, and communicating effectively to 
bring people together around a common vision for improving health.
    If confirmed by the Senate, I would support the work of the Corps 
in its work on the frontlines of public health, particularly on 
disaster response and relief and with underserved communities. I would 
also work with the Assistant Secretary of Health and leaders in the 
Commissioned Corps to develop a strategy for continuing to strengthen 
the Corps' ability to be a rapidly deployable, efficient force that is 
meeting the 21st century public health needs of the Nation. This would 
include exploring the role of the Corps in meeting rural health needs 
and in building public-private partnerships in communities to advance 
prevention and health promotion.

    Question 6. In your meeting with staff, you stated that no 
political party has the monopoly on good ideas. This is in contrast to 
many of the public posts you have made on Twitter promoting Obamacare 
and proclaiming that guns are a healthcare issue. It is important that 
all Americans listen when you speak as Surgeon General, not just one 
subset of the population. Could you discuss further how you plan to 
work with people on both sides of the aisle to accomplish your goals 
should you be confirmed as Surgeon General?
    In order to address the health care challenges that face our 
Nation, I believe we must encourage the sharing of ideas grounded in 
science and experience and foster the engagement of as many people as 
possible regardless of age, geography, or political affiliation. If 
confirmed as Surgeon General, I would focus on bringing people together 
to address issues where science supports taking action such as with 
obesity and tobacco-related disease. The information I would seek to 
disseminate would be scientifically based, the coalitions I would seek 
to build would draw from all parts of the community, and I would seek 
the support and partnership of HELP committee members and other elected 
officials of both parties. I believe the pursuit of better health is a 
bipartisan issue and a cause that can unite Americans, and this would 
be my intention if given the opportunity to serve.

    Question 7. Surgeons General are supposed to take a hard look at 
data and present medically accurate and complete information to the 
American people regardless of political winds. In your tweets, you 
reference politically motivated reports. For example, you claim that 
the President's raid of Medicare to pay for Obamacare was ``debunked'' 
when the nonpartisan CBO has clearly said you can't spend the same 
dollar twice. As Surgeon General, how will you turn off the hard 
partisan tone you have displayed in your tweets?
    Answer 7. In my work as a physician, I have always sought to 
provide each patient with the best care possible because the practice 
of medicine is about bringing science and empathy together to improve 
health. In my work as a researcher, I have worked to generate 
scientifically sound data at the microscopic and societal level for the 
benefit of all people regardless of political beliefs. In my work as a 
public health educator, I have built education programs that have 
served thousands of people regardless of political beliefs. And in my 
work as an entrepreneur, I have sought to improve the efficiency of 
clinical trials around the world in order to bring effective treatments 
to all patients who need them.
    Similarly, if confirmed as Surgeon General, I would respect 
people's diverse beliefs and ensure that the activities of the Surgeon 
General were guided by science and our current public health needs. I 
would focus on bringing individuals and organizations together to apply 
the best of science to improving the health of our Nation, particularly 
with regards to reducing obesity rates--a goal that is shared across 
the political spectrum.
    Additionally, I would avoid the use of social media platforms such 
as Twitter and Facebook for personal purposes as I would recognize that 
all of my communications and actions would need to be directed to 
supporting the work of the Office of the Surgeon General.

    Question 8. You worked extensively on the 2008 campaign to support 
President Obama, leading the group Doctors for Obama, and used a 
similar network to advocate passage of the health care law. However, 
ethics rules do not appear to permit the Surgeon General to participate 
in any campaign activity. How will you ensure your work as Surgeon 
General does not cross over into campaign activity or create the 
appearance of impropriety?
    Answer 8. I recognize that the role of the Surgeon General is to 
bring all Americans together around the critical mission of improving 
health. There is no place for electoral campaigns in this work. If 
confirmed, the information that I share with the public about issues 
such as obesity and tobacco cessation will be grounded in science not 
politics. The reports and press releases I would issue would be 
grounded in science not politics. And coalitions I would seek to build 
would be broad-based, including faith-based groups, local businesses, 
schools, and health care institutions. In seeking the input and 
partnership of members of the HELP Committee and other elected leaders, 
I would reach out to leaders of both parties because addressing 
challenges such as obesity and tobacco-related disease are causes that 
can bring us together and that require a broad set of ideas and 
participation. Finally, if confirmed, I can assure you that I intend to 
comply with all ethics standards.

    Question 9. During your staff interview, you said that to preserve 
individual autonomy, your focus would be on educating people to make 
good choices. Did you take a similar position on the Obamacare mandate 
that individuals purchase health insurance?
    Answer 9. If confirmed as Surgeon General, my focus will be on 
providing people with the best possible scientific information so they 
can make health decisions that are appropriate for themselves and their 
families. As a physician in Massachusetts, I observed a notable 
increase in insurance coverage among patients when the State 
implemented reforms similar to the ACA. However, I recognize that the 
role of the Surgeon General is to be an educator and not a legislator, 
and if confirmed, I would use the role to advance public health.

    Question 10a. You have an extensive public record in support of 
Obamacare. You lead a group of physicians to advocate passage of the 
law and promote it, and you have said it ``sets us on the path to 
better health, better healthcare, and lower cost.'' In our meeting, you 
said promoting Obamacare would not be your first priority, but that it 
would be within the Surgeon General's responsibilities to inform 
Americans about coverage options under Obamacare.
    As Surgeon General, how would you inform Americans about coverage 
options under Obamacare, and what else would you do to promote the law?
    Answer 10a. If confirmed as Surgeon General, my primary focus would 
be on prevention and wellness initiatives focused on reducing obesity 
rates and obesity-
related complications. Recognizing the importance of access to 
prevention services and coverage to improving overall health, I would 
seek to educate the public about new preventive services and coverage 
available to them. The education initiatives and coalitions I build 
will be directed toward addressing public health challenges such as 
obesity, tobacco-related disease, vaccine preventable illnesses, and 
mental health.

    Question 10b. Have you already had conversations with anyone in the 
Administration about how you could use the Office of the Surgeon 
General to promote Obamacare?
    Answer 10b. No, I have not.

    Question 10c. Are there any aspects of the health care law that you 
think would not be appropriate for the surgeon general to discuss--
either because they are not a public health issue or because they are 
too divisive?
    Answer 10c. I recognize there are elements of the health care law 
that are subject to disagreement. However, I believe the role of the 
Surgeon General is not to legislate or to lobby but rather to be a 
scientifically driven educator who brings diverse people and community 
groups together to find common ground and improve health together. If 
given the opportunity to serve as Surgeon General, this would be my 
focus.

    Question 11. In a January 14, 2013, letter to Congress, you 
supported ``remov[ing] the provision in the Affordable Care Act and 
other Federal policies that prohibit physicians from documenting gun 
ownership.'' Do you think physicians should keep a record of whether or 
not their patients own firearms?
    Answer 11. I respect individuals' constitutional rights to bear 
arms and to privacy. I also support open and honest communication 
between physicians and patients on all health care topics. 
Understanding the importance of helmets, seat belts, and safe storage 
of firearms can help prevent children from getting injured. This should 
be done in a way that respects each individual's privacy and civil 
rights.

    Question 12. That same letter calls for the Federal Government to 
ban the sale of semi-automatic rifles. If the last congressionally 
imposed ban on these rifles did not lead to a reduction in gun 
violence, why would that be the No. 1 gun control goal of the Doctor's 
for America? And you know that semi-automatic rifles are used in only a 
tiny fraction of all shootings. That indicates to me that this effort 
is not about reducing violence and death and much more about control.
    Answer 12. If confirmed as Surgeon General, I recognize the role of 
the Surgeon General is not to legislate but to educate the public on 
health issues, such as obesity, using science. The letters from Doctors 
for America to congressional leaders in the wake of the Newtown tragedy 
were sent on behalf of thousands of physicians who offered first-hand 
perspectives of those who have treated victims of gun violence in the 
hope that those perspectives could aid lawmakers in their 
decisionmaking. The measures suggested for consideration are consistent 
with those offered by a number of national medical organizations 
representing hundreds of thousands of physicians.
    I recognize that Congress, not the Surgeon General, has the 
challenging task of balancing suggestions from the community with our 
current laws in order to formulate policies that reduce injuries and 
deaths while also respecting our laws, traditions, and history. My hope 
is that our country can come together to find solutions that save lives 
while protecting the laws of the land and each person's individual 
liberties.
    If I am confirmed as Surgeon General, I would focus on obesity and 
other major public health challenges such as tobacco-related disease, 
vaccine-preventable illnesses, and mental health.

    Question 13. Finally, you have called for the Federal Government to 
sponsor what you call a ``buyback'' of semi-automatic rifles. Now, the 
government didn't sell the rifles, so I'm not sure why you call it a 
``buyback.'' But let me ask you this: Do you believe that people should 
be forced to sell their semi-automatic rifles to the Federal 
Government?
    Answer 13. No, I do not think that people should be forced to sell 
their semi-automatic rifles to the Federal Government. As I previously 
stated, if confirmed as Surgeon General, gun violence would not be my 
area of focus.

    Question 14. What are your thoughts on the health impacts of a 
person switching from using traditional cigarettes to electronic 
cigarettes? How do novel nicotine delivery products, like electronic 
cigarettes, fit into your strategy to reduce the harmful health impacts 
of smoking?
    Answer 14. The number of Americans who have used e-cigarettes is 
increasing every year, and the rapid adoption of these alternative 
nicotine-delivery devices--particularly among adolescents--has far 
outpaced our public health understanding of their potential benefits 
and harms. I believe establishing a better understanding of the risks 
and benefits of e-cigarettes is an important public health priority.
    If research establishes that e-cigarettes can help smokers quit 
traditional cigarettes, this could present a potential harm reduction 
opportunity. However, there are important unanswered questions. We do 
not fully understand the health impacts of vaporized nicotine, and we 
do not know if e-cigarettes will lead to nicotine addiction and 
traditional cigarette use among non-smokers, particularly young people.

    Question 15. Regarding the new policy that went into effect January 
of this year that Commissioned Corps officers cannot use tobacco 
products while in uniform, are electronic cigarettes considered tobacco 
products?
    Answer 15. Yes. The policy defines tobacco or tobacco products as 
including, but not limited to, ``cigars, cigarettes, electronic 
cigarettes (e-cigarettes), stem pipes, water pipes, hookahs, and 
smokeless products that are chewed, dipped or snuffed.''
                              senator enzi
    Question 1. Dr. Murthy, you are a co-founder of Doctors for 
America, which has the stated goal of improving access to health care. 
My staff has provided me with statements made on social media sites 
from both the Doctors for America account and your personal Twitter 
account which suggest gun rights are a health care issue. Specifically, 
a tweet from your account on October 16, 2012 which reads:

          ``Tired of politicians playing politics with guns, putting 
        lives at risk because they're scared of the NRA. Guns are a 
        health care issue.''

    I know each Senator on this panel takes violence in our country 
extremely seriously and wants to do what is possible to end criminal 
and violent behavior when it occurs in our communities. However, I am 
curious to know why you think gun ownership, a right guaranteed by our 
Constitution, poses a health care risk?
    Answer 1. As a physician who has cared for many patients who have 
suffered the short- and long-term consequences of gun violence, my 
desire is to reduce injuries and deaths from violence in our 
communities. I recognize the rich history and tradition our country has 
around gun ownership, and I respect and recognize the importance of the 
Second Amendment and the protections it affords. I believe the vast 
majority of gun owners--including my friends, colleagues, and 
patients--are responsible gun owners who pose no threat to public 
safety. My hope is that we can find areas of common ground in order to 
reduce violence while respecting the laws of our land and preserving 
our individual liberties.

    Question 2. How do any of your comments about guns fulfill the goal 
of your organization in improving access to health insurance?
    Answer 2. The stated mission of Doctors for America is to improve 
health and ensure that everyone has access to affordable, high-quality 
health care. Its primary focus has been on improving our health care 
system through such measures as expansion of coverage and increasing 
our focus on prevention. The referenced comments represent a small 
portion of the organization's work and reflected the perspectives of 
physicians around the country who grappled alongside the entire Nation 
with questions of how to reduce gun violence.

    Question 3. You also posted a tweet on October 16, 2012 that said 
in part ``Millions of health care professionals who see gunshot victims 
everyday beg to differ'' as to whether we need stronger gun laws. Do 
you have any background in law enforcement or criminal law that would 
inform your assessment of gun laws in this country?
    Answer 3. I do not have a background in law enforcement or criminal 
law. Rather, my background is as a physician who has cared for many 
patients who have suffered the short- and long-term consequences of gun 
violence. My desire is to reduce injuries and deaths from violence in 
our communities. I recognize the rich history and tradition our country 
has around gun ownership, and I respect and recognize the importance of 
the Second Amendment and the protections it affords. My hope is that we 
can find areas of common ground in order to reduce violence while 
respecting the laws of our land and preserving our individual 
liberties.

    Question 4. Dr. Murthy, a criticism of previous nominees is a 
concern with excessive politicization of the office of Surgeon General. 
You have been an unabashed supporter of the President and the 
President's health care law and have indicated that you believe it is 
appropriate for the Surgeon General to inform Americans about their 
coverage options under the law.
    Given your past writings and commentary about the law and other 
topics, how can we be assured that, as one of the Nation's top public 
health officials, the information you present on important public 
health and safety issues, such as reducing infection rates in hospitals 
or obesity rates in children, is not tainted by a biased political 
agenda? What will you do to preserve objectivity in public health 
discussions?
    Answer 4. The role of the Surgeon General is to bring people 
together around the critical mission of improving health. This work 
should be driven by science, not politics. In my 20 years of work in 
medicine and public health, my guiding motivation has always been 
improving the health of my patients and community. As a physician, 
researcher, and public health expert who has trained and practiced in 
rigorous science-based disciplines, I can assure you that, if confirmed 
as Surgeon General, the information I share with the public about 
issues such as obesity and tobacco cessation will be grounded in, 
unbiased science. The reports and press releases I issue will be 
grounded in independent, unbiased science. And coalitions I build will 
be broad-based, including faith-based groups, local businesses, 
schools, and health care institutions. They will be based on who can 
help improve the health of communities. In seeking the input and 
partnership of members of the HELP Committee and other elected leaders, 
I would reach out to leaders of both parties because addressing 
challenges such as obesity and tobacco-related disease are causes that 
can bring us together and that require a broad set of ideas and 
participation.
                              senator burr
    Question 1. In a letter to Congress earlier this year, you 
advocated for removing prohibitions and barriers that you believe keep 
health professionals from protecting patients in the context of gun 
safety. The letter also advocates for removing prohibitions regarding 
firearm research and data-tracking. Do you believe physicians should 
document and share information regarding patient gun ownership?
    Answer 1. I do not think physicians should be routinely recording 
and sharing firearm ownership information about their patients. I 
respect individuals' constitutional rights to bear arms and to privacy. 
I also support open and honest communication between physicians and 
patients on all health care topics. Understanding the importance of 
helmets, seat belts, and safe storage of firearms can help prevent kids 
from getting injured. This should be done in a way that respects each 
individual's privacy and civil rights.

    Question 2. In light of your letter, what limitations do you see 
with reporting and research today? What type of research would be 
useful?
    Answer 2. I believe any research that is conducted should be done 
in a way that respects individual privacy, our Nation's laws, and 
personal liberties and should be conducted in accordance with high 
scientific standards of peer review. With that said, if I am confirmed 
as Surgeon General, I would focus my efforts on addressing obesity, 
tobacco-related disease and deaths, vaccine-preventable illness, and 
our mental health needs.

    Question 2. What type of firearm background checks, data bases, and 
data-tracking do you support?
    Answer 3. I believe these are decisions for lawmakers to make. The 
role of the Surgeon General is not to institute laws and regulations or 
impose personal opinions but to share scientific information regarding 
health issues with the public. If confirmed, my priority will be to 
share scientific information that people can use to address public 
health challenges such as obesity, tobacco-related disease and deaths, 
vaccine-preventable illness, and our mental health needs.

    Question 4. What factors do you believe play a role in gun violence 
and how would you address them?
    Answer 4. As a physician, I have seen many patients and families 
deeply affected by gun violence. I also recognize the causes of 
violence are complicated and multi-faceted. While it is important to 
note that the great majority of people who experience mental illness 
pose no risk to themselves or to others, most researchers agree that 
improved mental health treatment, particularly for young adults with 
co-occurring substance use disorders, would be helpful in reducing 
violence. Strengthening our mental health system is one of the areas on 
which I would like to focus if confirmed as Surgeon General.

    Question 5. Former Surgeon General Dr. Richard Carmona has 
described electronic cigarettes as a viable alternative to tobacco. Do 
you agree?
    Answer 5. The number of Americans who have used e-cigarettes is 
increasing every year, and the rapid adoption of these alternative 
nicotine-delivery devices--particularly among adolescents--has far 
outpaced our public health understanding of their potential benefits 
and harms. I believe establishing a better understanding of the risks 
and benefits of e-cigarettes is an important public health priority.
    If research establishes that e-cigarettes can help smokers quit 
traditional cigarettes, this could present a potential harm reduction 
opportunity. However, there are important unanswered questions. We do 
not fully understand the health impacts of vaporized nicotine, and we 
do not know if e-cigarettes will lead to nicotine addiction and 
traditional cigarette use among non-smokers, particularly young people.

    Question 6. Press accounts on the Doctors for America Web site 
indicate that Doctors for America, an organization you led and co-
founded, is the successor organization to a prior group known as 
Doctors for Obama, for which you were the co-chair. Yet, in Doctors for 
America's application for tax-exempt status, you indicated that your 
organization was not a successor group, despite sharing officers and a 
substantially similar mission. Can you explain why you did not disclose 
the relationship between these two organizations to the IRS?
    Answer 6. In completing its Form 1023 exemption application, 
Doctors for America (DFA) checked ``no'' to the question asking if it 
is a ``successor to another organization'' because Doctors for Obama 
(DFO) was never a formal organization (i.e., it was never incorporated, 
was never a legal entity for taxing or any other purposes, never had 
staff, never had an office, never raised any funds for itself or for 
others, and never had a bank account); rather, it was an informal group 
of physicians and medical students who signed onto a letter supporting 
then-candidate Obama's health reform plan during the general election 
in 2008.
    After the election, some of the doctors on the DFO sign-on letter 
decided they wanted to create a non-partisan group of physicians and 
medical students to educate and engage the health care community and 
public about health policy as part of a broad mission to ensure our 
country had a health care system that provided affordable, high quality 
health care. The group was named Doctors for America (DFA). DFA began 
its work in early 2009; had a different purpose and mission from DFO; 
was a charitable and educational project of the Center for American 
Progress; and was staffed largely by individuals who had not been 
involved with DFO. Moreover, as explained above, DFO was never a formal 
organization, so under the applicable IRS definition, it would have 
been incorrect for DFA to claim that it was a ``successor to another 
organization.''

    Questions 7a and 7b. One important aspect of the Commissioned Corps 
is emergency response in the event of a public health emergency, 
outbreak or disaster.
    (a) What role do you believe the Surgeon General and the 
Commissioned Corps should play as part of our Nation's medical and 
public health preparedness and response?
    (b) How would you work to ensure a coordinated response within HHS 
if confirmed?
    Answers 7a and 7b. The mission of the Commissioned Corps is to 
protect, promote and advance the health and safety of the Nation. As a 
highly mobile, highly trained cadre of uniformed public health 
officers, the Corps serves underserved and vulnerable populations by 
providing public health and medical capabilities where they are most 
needed. Populations and communities are often at their most vulnerable 
during emergencies and public health crises. The Corps' role in 
emergency and crisis response is unique in providing not only medical 
resources but also the broadest spectrum of public health resources. In 
recent years alone, Corps officers and multidisciplinary response teams 
were deployed to Hurricane Sandy (14 response teams and over 500 
officers), Sandy Hook shootings, Boston Marathon bombings, Saipan, the 
Crow Nation, and in support of numerous National Special Security 
Events. In fact, during 2013, at least one Corps officer was deployed 
every day of the year. In addition to these emergency and crisis 
response activities, the Corps has also participated in and delivered 
preparedness training to local communities and conducted joint 
operations with our other uniformed service counterparts in the 
Department of Defense.
    The Surgeon General is the head of the Commissioned Corps and 
responsible for day-to-day operations including readiness and 
deployment operations. The role of the Surgeon General in this regard 
is defined in statute (Pub. L. 109-417, title II, Sec. 206(a), Dec. 19, 
2006, 120 Stat. 2851):

    ``(1) To ensure the Corps is ready to respond rapidly to urgent or 
emergency public health care needs and challenges.
    ``(2) To ensure the availability of the Corps for assignments that 
address clinical and public health needs in isolated, hardship, and 
hazardous duty positions, and, when required, to address needs related 
to the well-being, security, and defense of the United States.
    ``(3) To establish the Corps as a resource available to Federal and 
State Government agencies for assistance in meeting public health 
leadership and service roles.''

    Further, I believe the Surgeon General should ensure that members 
of the Corps, both active duty and Ready Reserves, are appropriately 
organized in response teams and units, ensure that the Corps is 
trained, equipped, and otherwise prepared to fulfill their public 
health and emergency response roles, and that appropriate procedures 
are in place for their command and control.
    If confirmed, I will work to ensure that effective coordination 
between my office and that of the Assistant Secretary for Preparedness 
and Response continues, and I will support ongoing collaboration to 
provide the most effective utilization of the Corps during emergencies 
and urgent public health crises. I will also seek partnership 
opportunities to better leverage common resources and capabilities.

    Questions 8a and 8b. Last year, Congress reauthorized the 
bipartisan Pandemic and All-Hazards Preparedness Act. The Pandemic and 
All-Hazards Preparedness Reauthorization Act amended the Public Health 
Service Act to be unambiguously clear that the Assistant Secretary for 
Preparedness and Response has authority over and responsibility for the 
Medical Reserve Corps.
    (a) Why does the Department's Web site state that the Medical 
Reserve Corps is headquartered within the Surgeon General's office?
    (b) I would ask that HHS please provide the committee a timeline 
for how the Department is going to come into compliance with the ASPR 
being the lead over the Medical Reserve Corps and an explanation for 
why the Department has failed to do so thus far.
    Answers 8a and 8b. Since I am not yet confirmed and hence have not 
been involved in the implementation of the Pandemic and All-Hazards 
Preparedness Reauthorization Act, my understanding of the issue is as 
follows.
    Immediately following the passage of the Pandemic and All-Hazards 
Preparedness Reauthorization Act, senior leaders from the Office of the 
Assistant Secretary for Preparedness and Response, the Office of the 
Assistant Secretary for Health, and Office of the Surgeon General 
identified a way forward to transfer authority over and responsibility 
for the Medical Reserve Corps from the Office of the Surgeon General to 
the Assistant Secretary for Preparedness and Response with minimized 
disruptions to operational capabilities.
    The Medical Reserve Corps program is listed on the Office of the 
Surgeon General Web site to maintain continuity in communications to 
critical State and local Medical Reserve Corps units to obtain program 
information, clarify ongoing issues, and/or seek additional guidance to 
enhance local capabilities. The designated way forward supports the 
incorporation and integration of Medical Reserve Corps capabilities in 
HHS-led response and recovery capabilities to better mitigate the 
lasting effects of public health and medical incidents and moves 
forward in addressing requirements as established in the Pandemic and 
All-Hazards Preparedness Reauthorization Act.
                             senator hatch
    Question 1. If confirmed, you would become the Nation's most 
recognizable doctor, overseeing more than 6,800 public health care 
professionals in the U.S. Public Health Service Commissioned Corps 
(USPHS) and 200,000 volunteers in the Civilian Volunteer Medical 
Reserve Corps. For more than a century, all Surgeon Generals were 
promoted based on merit from a pool of career uniformed officers from 
the Army, Navy, Air Force or Public Health Service. These leaders were 
officers holding the rank of at least Rear Admiral or Major General 
prior to nomination, meaning they all served no less than 20 years in 
their respective uniformed services. With no such experience or 
knowledge, how are you qualified to fill the role of Surgeon General?
    Answer 1. The Public Health Service Commissioned Corps is one of 
our Nation's most important public health resources and plays a key 
role in disaster response and meeting the needs of underserved 
communities. I believe leading the Commissioned Corps is one of the 
most important duties of the Surgeon General. I also recognize the 
concern expressed by some Corps members that most of our recent 
Surgeons General have not come from the ranks of the Commissioned 
Corps. I have personally worked with Corps members and have experienced 
first-hand the extraordinary skill and commitment with which Officers 
dedicate themselves to improving the health of the Nation. If 
confirmed, I would look forward to leading the Corps and would welcome 
and value input from the dedicated and talented members of the Corps.
    Having started, built, and led several organizations focused on 
HIV/AIDS education, rural health, health policy, information 
technology, and clinical trials, I have experience overseeing teams 
ranging from dozens of staff to thousands of physician and non-
physician volunteers spread across the country. In addition, I have 
overseen budgets ranging from shoestring budgets to budgets in the 
millions of dollars. My experiences have honed my skills in developing 
and executing organizational strategy, building partnerships between 
diverse stakeholder organizations, taking projects from conception to 
completion with minimal resources, and communicating effectively to 
bring people together around a common vision for improving health.
    If confirmed by the Senate, I would support the work of the Corps 
in its work on the frontlines of public health, particularly on 
disaster response and relief and with underserved communities. I would 
also work with the Assistant Secretary of Health and leaders in the 
Commissioned Corps to develop a strategy for continuing to strengthen 
the Corps' ability to be a rapidly deployable, efficient force that is 
meeting the 21st century public health needs of the Nation. This would 
include exploring the role of the Corps in meeting rural health needs 
and in building public-private partnerships in communities to advance 
prevention and health promotion.
    In addition to leading the Corps, the Surgeon General must be 
equipped to provide the public with scientifically based information to 
improve health and must be able to work with communities to translate 
information into action. In addition to the above mentioned skills, I 
believe I bring a set of experiences and perspectives that will enable 
me to fulfill these responsibilities effectively.
    I have had the opportunity to study biochemical sciences at 
Harvard, medicine at Yale, and health care management at Yale. I have 
created HIV education programs for tens of thousands of youth and built 
a rural health partnership in India to train young women to be public 
health educators and leaders in their community; they, in turn, have 
impacted thousands of rural residents. I have cared for thousands of 
patients with a wide range of illnesses and have helped train the next 
generation of health care providers as a medical educator. I have built 
a health care technology company that harnesses the power of social 
networking and information technology to advance clinical trials and 
have built a national medical organization to strengthen the 
conversation between physicians, patients, and legislators around 
improving health.
    I have worked together with fellow national public health leaders 
to inform and share the National Prevention Strategy as part of my work 
on the Advisory Group on Prevention, Health Promotion, and Integrative 
and Public Health.
    I bring an important set of perspectives as someone who can build 
bridges between younger and older generations at a time when we have an 
aging baby boomer population and when our young generation is 
struggling with record rates of obesity and early onset diabetes. I 
also bring an understanding of how to use modern information technology 
to improve communication and an understanding of the need to more 
closely integrate our health care delivery system and community 
organizations around prevention.
    I believe my experience and perspective will enable me to serve as 
a 21st century surgeon general who can bring people together around 
improving the health of the Nation. I am also grateful for the support 
of national medical and public health organizations and national 
leaders, including former Surgeon General Dr. David Satcher, the 
American Public Health Association, the American Cancer Society, the 
American Heart Association, the American Diabetes Association, March of 
Dimes, the American Academy of Family Physicians, the American Academy 
of Pediatrics, the American College of Physicians, the American 
Hospital Association, the Federation of American Hospitals, and 21 
nursing organizations.

    Question 2. Below are comments from actual Public Health Service 
officers, copied on January 28, 2014, from a public message forum for 
PHS officers. What are your thoughts on their concerns?

    <bullet> ``I'm a big fan of RADM Lushniak and think he does an 
incredible job representing the PHS and public health in general. I 
will be very sad to see him step down from this role . . . It's 
disheartening. I get the sense that an excellent and qualified PHS 
officer like RADM Lushniak will always be passed over for someone who 
is able to join a president on the campaign trail.''
    <bullet> ``Very disappointed. We need a career Officer as SG so 
badly, no more political appointees . . . with no history of service to 
the country in uniform, no history of working side by side with 
Officers in the field at their duty stations or on deployment. All of 
our sister services laugh at the fact that our top officer isn't even 
one of us.''
    <bullet> ``(PHS members) should be sending a similar such letter to 
all Members of Congress, that encourages them to ask how the nominee is 
actually qualified to lead a uniformed service and advocate for that 
service when they have never worn the uniform, and there is a perfectly 
suitable career officer in the position . . . While I applaud President 
Obama for quickly nominating a replacement, he has no reason to 
marginalize career officers in this way and I think Congress should 
make a point of asking his nominee why he is more qualified for the 
position than our own RADM Lushniak.''
    Answer 2. I recognize and respect the concerns voiced by some of 
our Commissioned Corps members that most of our recent Surgeons General 
have not come from the ranks of the Commissioned Corps. If confirmed by 
the Senate, I would, as previous Surgeons General have had to do, work 
hard to gain the trust and respect of the Corps. I would make it a top 
priority to establish strong lines of communication to ensure I hear 
the concerns of the Corps members and take action to address their 
needs. I would also work with the Corps and the leadership of HHS to 
implement a strategy to preserve the traditions and best practices of 
the Corps while also ensuring the Corps is evolving to meet the 
changing public health needs of the Nation. I believe the Corps is a 
valuable force for improving health in the Nation, and I have seen 
first-hand how dedicated and committed our Corps members are. The 
opportunity to work with and lead the Corps would be a privilege and 
honor.

    Question 3. This year marks the 50th anniversary of the creation of 
the Public Health Service (PHS). Throughout its long history, in 
addition to public health achievements to prevent disease and improve 
public health, the PHS has led efforts to fight plagues of yellow 
fever, cholera, and smallpox and have battled monkey pox, SARS, and 
H1N1. What is your experience with public health emergency and/or 
disaster response? What makes you qualified to lead a branch of service 
that plays a vital role in public health emergency preparedness and 
response?
    Answer 3. The Commissioned Corps plays an essential role in public 
health emergencies and disaster response. If given the opportunity to 
serve as Surgeon General, I would draw upon my experience as a 
clinician, public health expert, and manager to ensure the Corps 
operates in a manner that maximizes flexibility and cost-effectiveness 
with regard to emergency response. I would also work with other teams 
involved in emergency response in the Department of Health and Human 
Services to make certain that the unique skills and assets of the Corps 
were being applied in a coordinated fashion.
    When Hurricane Andrew struck my native Florida in 1992, I 
experienced first-hand the challenges of living through disasters with 
limited electricity, water, food, and sanitation. Since then, I have 
served on medical relief teams to Haiti and India after major 
earthquakes in those countries. Additionally, I have cared for 
thousands of patients over the years on the front lines of the health 
care system, and I have worked in resource-poor, rural settings to 
build programs that provide education and basic care to communities.

    Question 4. In addition to overseeing the U.S. Public Health 
Service Commissioned Corps, the Office of the Surgeon General is the 
headquarters of the Division of the Civilian Volunteer Medical Reserve 
Corps (DCVMRC). What would your vision be for the mission of the DCVMRC 
under your leadership as Surgeon General?
    Answer 4. Working with the Assistant Secretary of Health, the 
Assistant Secretary for Preparedness and Response, and leaders of the 
Medical Reserve Corps, my goal for the DCVMRC is continued success in 
achieving a sustainable network of active Medical Reserve Corps (MRC) 
units that conduct and support activities in communities to strengthen 
public health, reduce vulnerability, build resilience, and respond to 
emergencies when necessary. At a time where we need communities to work 
together to strengthen our focus on prevention and wellness, the MRC 
can play an important role in supporting health care delivery systems 
and community organizations in working toward this goal.
    Since its founding almost 12 years ago, the MRC has grown into a 
national network of over 200,000 volunteers, organized in almost 1,000 
local community-based groups. Last year, MRC units reported over 15,000 
activities in their local communities, and these reports cover a wide 
spectrum of unit development, training, public health, preparedness, 
and emergency response support and activities.
    If confirmed as Surgeon General, I would support and expand 
participation in the MRC. Working with the Assistant Secretary of 
Health, the Assistant Secretary for Preparedness and Response, and 
leaders of the Medical Reserve Corps, I would build on existing DCVMRC 
projects, processes, and support efforts to provide training, technical 
assistance, communications, outreach, information sharing, unit 
development, capacity building and other expert guidance resources and 
opportunities to our MRC units.

    Question 5. You have been very active in your use of social media 
to share your viewpoints on many partisan issues, including the Second 
Amendment, the Affordable Care Act, and election politics. How would 
you overcome the partisan tone of your past public comments to be seen 
as an independent voice on public health as Surgeon General?
    Answer 5. In order to address the health care challenges that face 
our Nation, I believe we must encourage the sharing of ideas grounded 
in science and foster the engagement of as many people as possible 
regardless of age, geography, or political affiliation. If confirmed as 
Surgeon General, I would focus on bringing people together to address 
issues where science supports taking action such as with obesity and 
tobacco-related disease. The information I would seek to disseminate 
would be scientifically based, the coalitions I would seek to build 
would draw from all parts of the community, and I would seek the 
support and partnership of HELP committee members and other elected 
officials of both parties. I believe the pursuit of better health is a 
cause that can unite Americans, and this would be my intention if given 
the opportunity to serve.
    I also believe the Surgeon General's job is to let science and our 
current public health needs inform communication and initiatives. In my 
work as a physician, I have always sought to provide each patient with 
the best care possible because the practice of medicine is about 
bringing science and empathy together to improve health. Similarly, if 
confirmed as Surgeon General, I would respect people's individual and 
diverse beliefs. I would focus on bringing individuals and 
organizations together to apply the best of science to improving the 
health of our Nation, particularly with regards to reducing obesity 
rates.
    Additionally, I would avoid the use of social media platforms such 
as Twitter and Facebook for personal purposes as I would recognize that 
all of my communications and actions would need to be directed to 
supporting the work of the Office of the Surgeon General.

    Question 6. Doctors for America and the Center for American 
Progress benefit from favorable tax status categorized under Federal 
law as a nonpartisan nonprofit think tank. Doctors for America has 
lobbied for Medicaid expansions, to protect Medicare, and to support 
the Affordable Care Act. Please provide examples of nonpartisan 
publications to which you contributed.
    Answer 6. Doctors for America is a non-partisan charitable and 
educational organization that has educated physicians and the general 
public regarding a variety of health care issues, including: 
prevention, health policy, and benefits and services available under 
the recent health care reform law. Doctors for America has focused on 
educating physicians and patients on these health care issues through 
non-partisan educational activities and community events, including a 
call series with policy experts and faculty from major universities, 
national conferences, webinars, continuing medical education (CME) 
activities, presentation of fact sheets, and discussion groups. The 
organization has also provided prevention screenings in communities, 
organized walks and runs to set an example of healthy living, and 
organized education town halls on topics such as prevention.

    Question 7. Referencing Obamacare in a New Republic article, you 
wrote, ``[D]octors will support the new law to the extent that it 
becomes visible in their everyday lives''--yet I hear every day from 
doctors in practice who disagree. Why do you think they are wrong?
    Answer 7. Like most groups in the country, physicians have diverse 
opinions when it comes to the health care law. Many physicians have 
seen their patients and colleagues benefit from the law and look upon 
it favorably while other physicians are concerned the costs of the law 
outweigh the benefits. I recognize and respect different points of view 
about the health care law, and I believe we all benefit when physicians 
voice their concerns and ideas about improving the health care system.

    Question 8. What are your views on nursing? Where and to what 
extent does the profession fit in your goal of increasing visibility of 
the healthcare workforce?
    Answer 8. I have worked with many dedicated nurses in my careers, 
and I know first-hand how vital their role is for high quality health 
care delivery. Nurses are essential to ensuring that we can meet the 
needs of patients. I support efforts to expand our system's workforce, 
including nursing. I also want to ensure that our vital providers are 
used more efficiently through coordinated care programs that shift our 
system's focus from quantity of care toward quality of care with the 
dual aims of improving health outcomes and efficiency of care. Finally, 
I am proud to note that my nomination as Surgeon General was endorsed 
by 21 nursing organizations around the country in a letter to Senators 
Harkin and Alexander on February 4, 2014.

    Question 9. Fifty years after the release of the first Surgeon 
General's Report on smoking and health in January 1964, tobacco use 
remains the leading preventable cause of disease, disability, and death 
in the United States. In a meeting with HELP Committee staff, you 
shared your vision for tackling obesity in America. Many government 
anti-obesity campaigns and programs have been launched in recent 
years--what would be different, and more effective, about your 
approach?
    Answer 9. One of my primary methods for combating the obesity 
epidemic would be to help forge stronger bonds between health care 
systems and community organizations. As a physician, I would emphasize 
that screening, counseling, and treatment for obesity in our hospitals 
and clinics is an important and under-performed evidence-based 
practice. I would also work to build stronger partnerships between 
health care providers and community-based organizations that can 
provide evidence-based education and support for healthy lifestyles.
    I would seek out exemplary clinical-community partnerships on 
obesity from around the country, and I would highlight these success 
stories and promote them as part of a more integrated and community-
focused health care system. As part of my work with the Advisory Group 
on Prevention, Health Promotion, and Integrative and Public Health, I 
have met leaders from across the country who are creating tangible 
change in their communities through innovative projects and approaches, 
and over the years, I have forged relationships with many thought 
leaders in health care, prevention, and community-based organizations. 
I would seek to strengthen and expand these partnerships to ensure we 
are connecting communities to a growing pool of science and experience 
when it comes to obesity initiatives and other public health programs.
    Additionally, I admire the First Lady's work to address childhood 
obesity through the Let's Move! initiative. If confirmed, I would work 
with Mrs. Obama to align efforts on childhood obesity.

    Question 10. Further, in expressing a focus on rural obesity, you 
mentioned that the ``resources need to be there'' and that an 
appropriate approach would be to ``build initiatives that meet local 
needs.'' Please provide additional detail on these thoughts and what 
such initiatives might be.
    Answer 10. I believe that efforts to address obesity must be 
tailored to the needs and resources of communities. I also believe that 
the best way to identify these needs and to tailor programs to meet 
these needs is to have efforts that are informed and driven by 
coalitions of local stakeholders that can combine their strengths and 
resources. For example, a community with strong faith-based 
organizations may decide that the most important need is education 
around diet and physical activity, and they may use their network and 
relationships with congregants to bring scientific information about 
diet and activity to the community. Communities where schools and 
parents are active may choose to focus on increasing the availability 
of healthy food options or developing school and home-based physical 
activity interventions. If confirmed as Surgeon General, I would work 
with communities to bring together such coalitions and connect them 
with evidence-based obesity interventions so they can pursue 
initiatives that are best suited to their needs. The U.S. Community 
Preventive Services Task Force is an example of a resource I would draw 
upon that identifies interventions for addressing challenges like 
obesity that are grounded in scientific evidence.

    Question 11. In your view, how might the Surgeon General work to 
improve the dialog between patients and medical professionals to 
improve patient-centered care?
    Answer 11. In 2014 and beyond, health information technology will 
play a prominent role in improving the dialog between professionals and 
their patients. We will see more communication through patient portals 
in communicating test results, diagnoses, medication lists, and 
educational materials designed to engage patients in their own care. At 
the same time, we must address health literacy among patients with 
better communication of evidenced-based clinical information, taking 
into account that not all Americans have access to the same technology 
and different means of communication will be required to reach 
different populations. If confirmed, I would work to advance patient-
centered care by supporting the most promising efforts in health 
literacy and health information technology.

    Question 12. What do you feel should be the Surgeon General's role 
with regard to complementary and alternative, or ``integrative,'' 
medicine?
    Answer 12. As a physician rooted in science, I believe that we must 
be open-minded about how best to treat disease while subjecting our 
hypotheses to rigorous testing and analysis. There has been growing 
public interest and utilization of complementary and alternative 
treatments in recent years. Many physicians find it challenging to 
advise patients on the use of such treatment because of the paucity of 
studies that have been conducted looking at the benefits and harms from 
such treatments.
    I believe we would benefit from having more information on the 
benefits and risks of commonly used complementary and alternative 
treatments. Research efforts have already generated helpful results. 
For example, the 2012 NIH-funded study published in the New England 
Journal of Medicine evaluated three different forms of exercise 
(resistance training, stretching, and tai chi) and found that tai chi 
led to the greatest overall improvements in balance and stability for 
patients with mild to moderate Parkinson's disease. Equally important 
is understanding what does not work, such as a 2006 NIH-funded study 
showing that saw palmetto herb is ineffective for the signs and 
symptoms of prostatic enlargement.
    I believe the role of the Surgeon General is to ensure the public 
has scientifically grounded information that they can use to make the 
best possible health decisions. I also believe health care providers 
need to communicate to patients that we respect their efforts to derive 
benefits from complementary and alternative medicine. If we dismiss or 
ignore these therapies, the only guaranteed outcome is that our 
patients will continue to use them without telling their health care 
providers about them. The Surgeon General can play a role in promoting 
a culture of science and respect in this area.

    Question 13. I share your belief that informed people can make the 
best decisions for themselves. You expressed in your testimony a goal 
of providing the public with scientifically based information on health 
promotion. In this respect, how do you define ``scientifically based 
information?'' At what point is such information considered appropriate 
or sufficient for public dissemination?
    Answer 13. I believe an important responsibility of the Surgeon 
General is to provide the public with the best available information 
that science has to offer so they can make the best decisions for 
themselves and their families. While there is no single definition of 
``scientifically based,'' I would look to the peer-reviewed scientific 
literature, clinical practice guidelines and expert findings of 
independent professional societies as my sources of evidence-based 
scientific information.
    When dealing with emergent public health crises, it is sometimes 
necessary to evaluate and disseminate preliminary information quickly 
based on the best possible data at the time. In less urgent matters, 
the best approach is to wait until there are high quality data and 
studies available and significant scientific consensus. For any given 
topic, I would weigh the data sources and quality, scientific opinions, 
and the urgency of the public health matter at hand to determine when 
it was appropriate to disseminate information to the public. 
Ultimately, the goal is to improve health while minimizing risks and to 
be transparent with the public about sources of scientific information.

    Question 14. In your testimony, you also expressed as a goal to 
``implement community-driven public health initiatives based on 
scientific evidence and cultural norms.'' Please give some specific 
examples of what this means.
    Answer 14. I strongly believe that communities are best able to 
determine what is the best approach for addressing a public health 
problem, based on their needs, capacity and norms. The role of the 
Surgeon General is to educate the public about public health problems 
and to point them toward evidence-based approaches that they should 
consider for adoption in their communities. To that end I would look to 
experts that have already judged the scientific effectiveness of 
different approaches, including the U.S. Community Preventive Services 
Task Force's recommendations and the New York Academy of Medicine's ``A 
Compendium of Proven Community-Based Prevention Programs.''
    For example, the Diabetes Prevention Program (DPP) may be one of 
the best examples of a proven community-based program that addresses 
the fundamental causes of obesity--poor nutrition and inadequate 
physical activity. The Federal Government's role in developing DPP is a 
model for the government's role in prevention: NIH supported the 
randomized clinical trial that demonstrated the approach works, CDC has 
supported translating this into a community-based program in 
collaboration with the YMCA, and now insurance plans across the country 
are beginning to pay for it, ensuring sustainability. The DPP is about 
empowering individuals through community organizations to make 
healthier choices. If confirmed as Surgeon General, I would work to 
build coalitions between community institutions, including hospitals, 
community health centers, YMCAs, schools, businesses, faith-based 
organizations, and local government that could implement and sustain 
programs such as the DPP. This would involve educating communities 
about evidence-based programs like the DPP and sharing experiences and 
lessons from other communities that have successfully implemented DPP.

    Question 15. What is your experience with biomedical research and 
traditional medicine?
    Answer 15. I have worked on vaccine development at Harvard Medical 
School and have studied the access of women and minorities to clinical 
trials during my time at the Yale School of Medicine. The results of 
both research endeavors were published in top tier journals, including 
Science and JAMA. As a medical educator, I routinely teach medical 
students and residents how to interpret clinical research studies with 
rigor and how to apply research findings to the care of patients.
    I received my training in medicine at the Yale School of Medicine 
and in the internal medicine residency program at Brigham and Women's 
Hospital, one of the Nation's top hospitals and a flagship teaching 
hospital of Harvard Medical School. I have continued to practice 
clinical medicine at Brigham and Women's Hospital since completing my 
training. I have cared for thousands of patients with a wide variety of 
conditions from diabetes and heart disease to cancer and infections. I 
have also provided clinical services during the aftermath of 
earthquakes in Haiti (2010) and India (2001) and have participated in 
prevention screenings in various parts of the United States.
    In addition, I have built a technology company, TrialNetworks, that 
provides collaborative clinical trial management tools that improve the 
quality, transparency and efficiency of clinical trial research 
operations. These tools are used by physicians, nurses, study site 
monitors, supervisors, and many other people involved in executing a 
clinical trial. Drawing from social networking and other information 
technology innovations, our tools modernize the clinical trial research 
process with the ultimate goal of bringing safer medicines to patients 
on a shorter timeframe.
                            senator roberts
    Question 1. On your Twitter account, you tweeted, ``Tired of 
politicians playing politics with guns, putting lives at risk because 
they're scared of NRA. Guns are a health care issue.'' As one of the 
Senators I assume you were referring to, I want to state for the record 
that the reason I am adamantly opposed to more gun control laws is 
because I have always been a strong supporter of individual's Second 
Amendment rights. If confirmed and you become the head spokesperson for 
matters of public health, can you ensure that you will not push your 
personal gun control agenda and most importantly, not infringe on 
individuals Second Amendment rights?
    Answer 1. I recognize the rich history and tradition our country 
has around gun ownership, and I respect and recognize the importance of 
the Second Amendment and the protections it affords. I believe the vast 
majority of gun owners--including my friends, colleagues, and 
patients--are responsible gun owners who post no threat to public 
safety. My hope is that we can find areas of common ground in order to 
reduce gun violence while respecting the laws of our land and 
preserving our individual liberties.
    I also believe the Surgeon General's job is to let science and our 
current public health needs inform communication and initiatives. In my 
work as a physician, I have always sought to provide each patient with 
the best care possible because the practice of medicine is about 
bringing science and empathy together to improve health. Similarly, if 
confirmed as Surgeon General, I would focus on bringing individuals and 
organizations together to apply the best of science to improving the 
health of our Nation, particularly with regards to reducing obesity 
rates.

    Question 2. As a strong supporter of the Second Amendment, I am 
concerned about comments made on social media by yourself and the 
organization you founded, Doctors for America. Specifically, Doctors 
for America tweeted that ``Gun violence is a public health crisis''.
    You also mentioned in staff interviews that one of the priorities 
you would like to focus on is a more robust mental health system. I too 
agree that we need to address the inadequacies of our mental health 
system as evidenced by some of the crises that have been highlighted in 
the media.
    However, I believe after working with the mental health community 
on many legislative priorities that we should be cautious about making 
a direct connection between gun violence, or any violence, and people 
suffering from a mental health condition.
    I detail this because I would like you to explain if gun violence 
is a public health crisis and you are confirmed to be surgeon general, 
which would make you responsible for addressing public health issues, 
can you guarantee you will separate your desire to improve the mental 
health system and not use this position to infringe on individuals' 
second amendment rights?
    That you will not advocate for more gun control, both in law and in 
the surgeon general's recommendations on matters of mental health, 
prevention and wellness?
    Would you commit to refrain from policies that infringe on Second 
Amendment rights if asked by the Secretary of Health and Human Services 
or even if the President of the United States, asked you to make gun 
control a public health priority?
    Answer 2. I recognize that the role of Surgeon General is to be a 
public health educator--not a legislator or a judge--and that the 
Surgeon General must respect and abide by our Nation's laws, including 
the Second Amendment. If confirmed by the Senate, this would be my 
approach. I would not seek to utilize the position of Surgeon General 
to infringe on Second Amendment rights.

    Question 3. I have some strong concerns with a recent proposal from 
CMS. Because of your interest in, and prioritization of, addressing 
issues in and improving the mental health system, can you comment on 
the role access to mental health treatments and adherence to those 
treatments, specifically antidepressants and antipsychotics play in 
bettering the mental health in our country?
    Do you know if anyone in the division of the Surgeon General or the 
Assistant Seceretary for Health was consulted in this most recent CMS 
decision?
    Answer 3. Having cared for many patients with psychiatric illness, 
I believe it is essential that patients are able to access appropriate 
antidepressants and antipsychotics when prescribed by their physicians. 
I was not part of the Administration when the recent CMS decision was 
made and am not aware of who was consulted during this process.

    Question 4. Dr. Murthy can you please discuss your experience in 
management roles? Specifically the number of physicians and other 
medical professionals you've overseen?
    Answer 4. Having started, built, and led several organizations 
focused on HIV/AIDS education, rural health, health policy, information 
technology, and clinical trials, I have experience overseeing teams 
ranging from dozens of staff to thousands of physician and non-
physician volunteers spread across the country. I have also managed 
numerous teams of physicians and medical students for the purposes of 
providing direct clinical care in the hospital. In addition, I have 
overseen budgets ranging from shoestring budgets to budgets in the 
millions of dollars. My experiences have honed my skills in developing 
and executing organizational strategy, building partnerships between 
diverse stakeholder organizations, taking projects from conception to 
completion with minimal resources, and communicating effectively to 
bring people together around a common vision for improving health.

    Question 5. Dr. Murthy, we all know that finances are tight right 
now and that the Surgeon General must also manage a budget. Some of the 
ideas that you propose could be costly, how do you plan to manage the 
resources for what you are proposing? For things such as outreach, 
studies, etc.?
    What are existing programs and what agencies are leading them that 
you can work with, and build off of, to further your specific 
priorities? Specifically, are there current programs that already exist 
that may be doing what you would like to see achieved which you would 
like to further as Surgeon General?
    Answer 5. I have extensive experience building initiatives, 
collaborations, and 
organizations with shoestring budgets and am used to operating in 
resource-
constrained environments. If confirmed by the Senate, I would work with 
community institutions to pursue education and other health initiatives 
that leveraged existing public resources, philanthropy, and local 
investment opportunities. As I have learned, building public health 
programs over the last 20 years, community organizations can achieve 
significant impact when they work together and recognize that improved 
health accrues to the benefit of their organizations and 
constituencies.
    If confirmed, I would also work to enhance and further existing 
government programs that are advancing health. With regard to obesity, 
such programs include the commitments Federal agencies have made to 
increase access to healthy and affordable food (supported by the 
National Prevention Council), the Presidential Youth Fitness Program, 
the First Lady's Let's Move! initiative, and the Surgeon General's Call 
to Action on Walking and Walkable Communities (currently in 
development).
    With regard to reducing tobacco-related disease and deaths, I would 
work to further CDC and FDA campaigns designed to help smokers quit and 
to prevent youth from initiating smoking, including the Tobacco Free 
College Campus Initiative, a public-private partnership to encourage 
the voluntary adoption of tobacco-free policies at institutions of 
higher learning.
    With regard to improving mental health, I would work to further 
SAMHSA's mental health initiatives and tools such as the ``Toolkit for 
Community Conversations about Mental Health,'' which focuses on 
reducing stigma and encouraging connection to community services. I 
would also continue work on implementation of the 2012 National 
Strategy for Suicide Prevention in partnership with the National Action 
Alliance for Suicide Prevention.

    Question 6. What experience do you have working with the U.S. 
Public Health Service Commissioned Corps? What do you see as 
similarities and differences between overseeing uniformed public health 
officers versus other accredited medical professionals?
    Answer 6. The Public Health Service Commissioned Corps is one of 
our Nation's most important public health resources and plays a key 
role in disaster response and meeting the needs of underserved 
communities. I believe leading the Commissioned Corps is one of the 
most important duties of the Surgeon General. I have personally worked 
with Corps members and have experienced first-hand the extraordinary 
skill and commitment with which members dedicate themselves to 
improving the health of the Nation.
    Like accredited medical professionals, our uniformed public health 
officers share a sense of mission, a grounding in science, and a 
commitment to public health. An important difference is that our 
uniformed public health officers are part of a service that is 
responsible for safeguarding the public health of the entire Nation. 
Furthermore, the Commissioned Corps has unique traditions, history, and 
partnerships that must be respected when leading the Corps.

    Question 7. What do you see as the role of the Surgeon General in 
working with the Assistant Secretary of Health? What about other 
Agencies in the Department of Health and Human Services? Is there a 
role in working with other Departments and other Surgeons General in 
uniformed branches of government?
    Answer 7. The Assistant Secretary of Health and the Surgeon General 
work closely to advance the health mission of the Department of Health 
and Human Services, particularly with regard to reducing tobacco-
related disease and deaths, obesity, and substance abuse.
    As chair of the National Prevention Council, the Surgeon General 
oversees the efforts of 20 Federal departments and agencies to identify 
opportunities for departments and agencies to support prevention and 
health. For example, the Department of Defense is a member of the 
National Prevention Council and is committed to increasing tobacco-free 
environments and increasing access to healthy, affordable food. The 
Office of the Surgeon General works with the Department of Defense on 
priorities including the Healthy Base Initiative, reducing tobacco use 
in the uniformed services, and suicide prevention.
    The Surgeon General also works with the Surgeons General in the 
other uniformed services on a regular basis on matters related to the 
uniformed services members and health. Recently, the Commissioned Corps 
of the U.S. Public Health Service adopted a ban of use of tobacco 
products while in uniform.

    Question 8. Dr. Murthy, as a representative of Kansas I have long 
been interested in ensuring our rural health system can provide the 
same care for rural patients as urban areas. Throughout my experience I 
recognize that rural communities and the rural health delivery system 
is unique and cannot be treated in a one-size-fits-all approach. 
Keeping that in mind, can you provide some detail on your experience 
working within the rural health delivery system?
    What rural communities have you visited in the United States? What 
did you identify as some of the major challenges of those communities?
    Answer 8. I believe as well that our rural communities face unique 
health care challenges. My primary understanding of rural health issues 
in the United States comes from working with a broad network of 
physicians who have provided care in rural communities in Alabama, 
Mississippi, Kansas, South Dakota, Alaska, Montana, and many other 
States. I have also built health programs in rural India focused on 
education, prevention, and the provision of basic health care.
    If confirmed as Surgeon General, I would work with members of the 
HELP committee and with rural community leaders to ensure we were 
advancing health in rural America. Access to care is an important issue 
in rural America, including access to primary and acute care, mental 
health and substance abuse services. Additionally, many rural residents 
don't have ready access to scientific information about health, and 
they need greater access to prevention programs that will help reduce 
the incidence of obesity and chronic disease. I agree there is no one-
size-fits-all approach that works and that each community has unique 
challenges. One common element is that our approach to health must be 
guided by science.
    I also very much appreciate your invitation and the invitations by 
other members of the HELP committee to visit their home States. If 
confirmed by the Senate, I would make it a point to travel to rural 
communities across the Nation to hear their concerns and learn more 
about their unique challenges.

    Question 9. You have made some politically charged statements 
through social media. In your testimony you have stated that you intend 
to use the social media platform to further the goals of the Surgeon 
General. In particular one of your tweets regarding Benghazi has struck 
a nerve. I am not going to detail all of my concerns with these 
controversial statements, but I would like to know what role do you 
believe the Surgeon General has in taking a position on issues of 
military or foreign relations matters, such as the situation in 
Benghazi, and then commenting on them?
    Answer 9. I do not believe the Surgeon General has a role on 
military and foreign relations issues. If confirmed by the Senate, I 
would not be involved in such matters.

    Question 10. In reviewing your background I also noted your work in 
support of Dr. Berwick and his bid to become Governor of Massachusetts. 
I had some significant concerns with Dr. Berwick as the head of CMS, 
including and not limited to his unequivocal support of a single payer 
health system and his promotion of rationing as a way to reduce costs 
in our health system.
    You have tweeted many times about the distortions made by many 
political nominees about the Independent Payment Advisory Board. I 
absolutely believe IPAB should be repealed. Do you support the use of 
IPAB to ration care and do you support a single payer system as a 
health care delivery system? What role do these beliefs play into your 
desire to be Surgeon General?
    Answer 10. I believe health care decisions should be made by 
patients and their health care providers based on scientific facts and 
the individual needs and beliefs of each patient. My interest in 
serving as Surgeon General is based on my desire to bring 
scientifically based health information to the public and to work with 
communities to enhance prevention and wellness efforts.

    Question 11. When asked recently about legalizing marijuana, 
President Obama said: ``I view it as a bad habit and a vice, not very 
different from the cigarettes that I smoked as a young person up 
through a big chunk of my adult life.''
    While the President may not see much difference between tobacco and 
marijuana, I can think of at least one large difference--THC, the 
psychoactive chemical found in marijuana. What is your view Dr. Murthy?
    Since 1964, the U.S. Surgeon General has been the leading advocate 
for informing the public about the dangers of smoking tobacco. How 
would you characterize the threats to the public health posed by 
marijuana?
    Answer 11. While the public health dangers of smoking are well-
studied and well-known, much less is known about the health effects of 
marijuana. Despite anecdotal evidence of symptom improvement for 
certain medical conditions treated with medicinal marijuana, there is 
still a paucity of high quality research about the proper indications 
for medical marijuana, safe dosage, and frequency of side effects. As 
the American Medical Association, the Institute of Medicine, and other 
groups have emphasized, I believe it is important that the science keep 
up with practice. Before we expand the use of marijuana for medical 
purposes or declare its safety, we must study and better understand the 
effects of marijuana through carefully designed clinical trials.
                           senator murkowski
    Question 1. The title of the position you have been nominated to is 
``Medical Director in the Regular Corps of the Public Health Service, 
and Surgeon General of the Public Health Service''. Many of the 6,800 
public health service officers work in under-served areas, especially 
through assignments in the Indian Health Service which cover 
reservations serving our Nation's first people; in small native 
villages throughout my State of Alaska; and at Coast Guard medical 
clinics. In reviewing your qualifications, I see that the bulk of your 
education and employment took place in large cities: Boston, Miami, New 
Haven, and Cambridge. It doesn't appear from the information you 
submitted to the committee that you have experience living or working 
in rural America which gives me pause given the position to which you 
have been nominated to. What experience do you have managing doctors or 
serving in rural America that gives you the requisite background to 
oversee thousands of Public Health Service Officers serving in my State 
(336/6,800) and throughout rural America?
    Answer 1. Having started, built, and led several organizations 
focused on HIV/AIDS education, rural health, health policy, information 
technology, and clinical trials, I have experience overseeing teams 
ranging from dozens of staff to thousands of physician and non-
physician volunteers spread across the country. I have also managed 
numerous teams of physicians and medical students for the purposes of 
providing direct clinical care in the hospital. In addition, I have 
overseen budgets ranging from shoestring budgets to budgets in the 
millions of dollars. My experiences have honed my skills in developing 
and executing organizational strategy, building partnerships between 
diverse stakeholder organizations, taking projects from conception to 
completion with minimal resources, and communicating effectively to 
bring people together around a common vision for improving health.
    I believe our rural communities face unique health care challenges, 
and if confirmed as Surgeon General, I would work with members of the 
HELP Committee and with our rural residents to ensure we were advancing 
health in rural America. I have built health programs in rural India 
focused on education, prevention, and the provision of basic health 
care. In the United States, my primary understanding of rural health 
issues comes from working with a broad network of physicians who have 
provided care in rural communities in Alabama, Mississippi, Kansas, 
South Dakota, Alaska, Montana, and many other States.
    Access to care is an important issue in rural America, including 
access to primary and acute care, mental health and substance abuse 
services. Additionally, many rural residents don't have ready access to 
scientific information about health, and they need greater access to 
prevention programs that will help reduce the incidence of illness and 
chronic disease. I agree there is no one-size-fits-all approach that 
works and that each community has unique challenges. One common element 
to addressing health needs in communities is that our approach must be 
guided by science.

    Question 2. As you may know, fewer than half (48 percent) of all 
U.S. adults meet the 2008 Physical Activity Guidelines, only 13 percent 
of children walk or bike to school, compared with 44 percent a 
generation ago. Simultaneously, America's obesity rates have 
skyrocketed, as more than one-third of U.S. adults are considered 
obese. The most recent U.S. Surgeon General Regina Benjamin promoted 
physical activity as a form of prevention through her call to action on 
walking--Every Body Walk! What will you and your team do to address our 
Nation's obesity crisis?
    Answer 2. My experience building community coalitions and my 
knowledge of community efforts through my work on the Prevention 
Advisory Group has taught me that (1) communities are best able to 
determine the optimal approach for addressing public health challenges 
based on their needs, capacity and norms, and (2) all community groups 
can play a role in improving prevention and addressing obesity rates 
among their members, employees, and constituents. If confirmed as 
Surgeon General, I would seek to work with faith-based groups, local 
businesses, schools, health care delivery systems (e.g., hospitals and 
community health centers), and community benefit organizations (e.g., 
YMCA) to educate communities about healthy diet and physical activity 
choices and to build coalitions that can implement scientifically based 
programs to improve diet and physical activity.
    Resources such as the U.S. Community Preventive Services Task Force 
recommendations provide easily accessible summaries of community 
interventions that are evidence-based and can be helpful to communities 
considering implementing obesity programs. The precise obesity 
reduction initiatives undertaken would depend on the community's needs 
and the coalition's interests but could include voluntary initiatives 
directed at improving public education on diet and exercise; making 
healthier food choices available in schools, workplaces, restaurants 
and hospitals; improving physical activity through voluntary fitness 
challenges; and enrolling eligible community members in risk reduction 
programs such as the Diabetes Prevention Program (DPP). The DPP has 
been shown to reduce the development of Type II diabetes by 58 percent, 
and is currently being employed for patients in Minnesota through the 
YMCA of the Greater Twin Cities.

    Question 3. I supported legislation that passed out of this 
committee and was enacted into law in June 2009, The Family Smoking 
Prevention and Tobacco Control Act to federally regulate tobacco 
products. Since its passage, the FDA has had the authority to regulate 
and ensure that companies are not targeting tobacco sales to minors. 
However, the FDA has said it does not have authority over e-cigarettes 
and has yet to publish regulations on e-cigarettes. According to a 
National Youth Tobacco Survey conducted by the Centers for Disease 
Control and Prevention, 1.8 million middle and high school students 
said they had tried e-cigarettes in 2012. Please discuss your position 
on e-cigarettes and the public messaging role you and your team will 
play in addressing the marketing of these products to children. Also, I 
would like to know the role you see your office playing in focusing the 
Nation on tobacco cessation, especially when the NIH, FDA and CDC all 
play major roles in research and prevention.
    Answer 3. The rapid adoption of e-cigarettes--particularly among 
minors--has far outpaced our public health understanding of their 
potential benefits and harms. I believe establishing a better 
understanding of the risks and benefits of e-cigarettes is an important 
public health priority.
    If research establishes that e-cigarettes can help smokers quit 
traditional cigarettes, this could present a potential harm reduction 
opportunity. However, there are important unanswered questions. We 
don't fully understand the health impact of vaporized nicotine, and we 
do not know if e-cigarettes will lead to nicotine addiction and 
traditional cigarette use among non-smokers, particularly young people. 
Given the current lack of information about the safety and risks of e-
cigarettes, I do not believe such products should be marketed to 
children.
    With regard to traditional cigarettes, I believe continued efforts 
to reduce smoking rates are critical. The NIH, FDA, and CDC have done 
important work in this area by supporting research, protecting children 
from the marketing of cigarettes, disseminating information to the 
public about the hazards of smoking. However, as we learned in the most 
recent Surgeon General report in January 2014, smoking rates continue 
to be too high, and over 5 million children today are projected to die 
prematurely if we do not make progress in reducing smoking rates. If 
confirmed by the Senate, I would make smoking cessation a priority in 
my public education efforts and would work with previously described 
community coalitions to incorporate smoking cessation efforts into 
community prevention projects.
                             senator murray
Mental Health
    As you are well aware, there is an urgent need to improve mental 
health care all across the country. Stigma associated with mental 
illness remains widespread, and often results in individuals feeling 
isolated and afraid--causing them to forego the treatment or support 
they need. An estimated one in five Americans will suffer from a mental 
or neurological disorder at some point in their lives, yet two-thirds 
of people with a known mental disorder never seek treatment.
    I have worked on this issue from the military community. As a 
member of the Senate Veterans Affairs Committee, I have been a vocal 
advocate for improving the Department of Veterans Affairs' mental 
health care services and expanding access to mental health care. My 
Mental Health ACCESS Act, which was signed into law in 2012, opens VA's 
mental health care services to more veterans and their family members, 
and helps to ensure VA is providing high quality mental health care. I 
believe we can use and replicate some of these practices for other 
communities.

    Question 1. As Surgeon General, what steps will you take to reduce 
stigma associated with mental health, educate individuals and families 
and the broader public, and encourage health care providers to 
prioritize mental health in their delivery of care?
    Answer 1. If confirmed, I would work with families, local leaders, 
schools, and community organizations to communicate scientifically 
based information that provides a true understanding of mental health 
conditions while also putting a human face on the important issue of 
mental health. I would focus on conveying that mental health concerns 
are part of life in every community and in virtually every family while 
also sharing that effective treatments are available to improve 
people's well-being and their ability to contribute in the workplace 
and other settings. One of my responsibilities would be to ensure that 
our patients are gaining real access to evidence-based treatments, 
particularly our youth, and that we are reducing the stigma associated 
with mental illness in our communities.
Women's Health
    Accessible and affordable contraceptive coverage helps women plan 
their families, prevent unintended pregnancies, and improve health 
outcomes for their children and themselves. Increased access to 
contraception has been linked directly with declines in maternal and 
infant mortality, and the Guttmacher Institute recently published a 
study suggesting new, long-acting contraceptive methods are having a 
significant impact in reducing the rate of unwanted pregnancies in our 
Nation. Additionally, the Institute of Medicine designates 
contraception as an important women's preventive health service, and 
recommends that a full range of contraceptive education, counseling, 
methods, and services be fully covered by health insurance companies at 
no additional cost--which is what the Affordable Care Act now provides 
for women.

    Question 2. How will you work to find common ground and educate the 
public on the scientific value of access to affordable contraception? 
How can you work across communities to make sure that people understand 
the benefits of women's preventive health?
    Answer 2. As a physician grounded in science, I support the 
Institute of Medicine's findings regarding the important link between 
contraception access and improved maternal and infant health outcomes. 
I also recognize that we need to do better in ensuring women have 
access to prevention-related information and services. As I have cared 
for patients over the years, I have always sought to provide them with 
scientifically grounded information while respecting their individual 
beliefs and their ultimate choices. If confirmed by the Senate, I would 
take a similar approach to women's health issues such as contraception 
and prevention. I would work with community organizations and health 
care delivery systems to ensure women and local leaders had access to 
scientifically grounded information so they could make the best 
possible decisions for themselves and their communities. I would also 
work with medical educators to ensure we are training our next 
generation of health care providers to recognize the unique needs of 
women with regard to prevention and to meet these needs with adequate 
scientific knowledge and clinical skills.

    Question 3. What steps will you take to clear up misunderstandings 
on the use of contraception?
    Answer 3. As a physician, my practice has been to trust women, and 
all patients, to make the best decisions for themselves when given 
accurate, scientific information and adequate support. Ensuring our 
health care providers are well-trained to discuss the facts about 
contraception with women is important for improving maternal and infant 
health, and I would make it a point to emphasize this with our medical 
education leaders. As part of efforts to build community coalitions to 
lead prevention initiatives, I would also support communities in their 
efforts to educate members about contraception by ensuring they had 
access to scientific information.
HIV/AIDS
    As you know, the Surgeon General has a unique opportunity to use 
their office as a platform to advocate for efforts to improve the 
Nation's health and advance our national strategies on prevention. In 
July 2010, President Obama released the National HIV/AIDS Strategy, the 
Nation's first blueprint for addressing the HIV/AIDS epidemic. The 
strategy prioritizes outreach, testing and prevention education in the 
gay, transgender, African-American, and Latino communities 
disproportionately impacted by the disease. There is also a growing 
need to address the high number of HIV infections occurring in young 
people in the United States. In 2009, young people accounted for 39 
percent of all new HIV infections in the United States.

    Question 4. If confirmed, how will you ensure the goals of the 
National HIV/AIDS Strategy are met with regard to communities 
disproportionately impacted by the disease?
    Answer 4. I strongly support the National HIV/AIDS Strategy. The 
Strategy--along with the Continuum of Care Initiative, the improved 
access to care due to the Affordable Care Act and the continued 
strength of the Ryan White Program--offers a roadmap for creating an 
AIDS-free generation. Young gay men, especially young gay men of color, 
remain disproportionately affected by the HIV epidemic. Tragically, 
many of them do not know their HIV status and are not getting treatment 
that can permit them to lead healthy, productive lives. One of the 
major barriers they face to learning their status is the stigma 
associated with HIV. This stigma also affects other groups at 
disproportionate risk (such as minority women and transgender women). 
If confirmed, I would, in the tradition of Dr. Koop, work to combat the 
attitudes and beliefs that contribute to stigma, working with the CDC, 
private foundations (such as Kaiser Family Foundation's Greater than 
AIDS campaign), and community-based organizations to promote regular 
HIV testing and outreach to those most at risk for HIV.

    Question 5. How will you help educate young people about HIV/AIDS, 
how to prevent infection, and the importance of testing and knowing 
one's own status?
    Answer 5. As noted above, I strongly support the National HIV/AIDS 
Strategy. If confirmed, I would work to combat the attitudes and 
beliefs that contribute to the stigma surrounding HIV/AIDS by working 
with the CDC, private foundations (such as Kaiser Family Foundation's 
Greater than AIDS campaign), and community-based organizations to 
promote regular HIV testing and outreach to those most at risk for HIV.
                            senator sanders
    Question 1. Although Surgeon General Satcher's 2000 report 
addressed the urgent lack of oral health care access in America, a 
report which was bolstered by two subsequent Institute of Medicine 
reports on oral health, millions of Americans continue to face 
significant challenges accessing affordable dental care. This lack of 
access results in needless pain and suffering, and in some instances, 
death. Lack of access also leads to unnecessary emergency room visits 
for oral health problems that could have been prevented or treated if 
the person had access to an oral health provider. What initiatives 
would you pursue as Surgeon General to help to educate the public about 
the importance of oral health to overall heath? What would you do to 
improve access to care and to prevent oral health problems?
    Answer 1. If confirmed as Surgeon General, I would look forward to 
visiting with State programs and community health centers that are 
improving access to dental care for underserved populations and 
learning from their innovative models. I would consult with oral health 
professionals such as the National Institute of Dental and Craniofacial 
Research and the CDC's Division of Oral Health to discuss strategies to 
bolster dental care and research. If confirmed, I would communicate the 
importance of oral health and work along key partners to integrate 
prevention and treatment of oral health into population screenings.

    Question 2. We know that there are many social determinants that 
are important for the health of the population. For example, those 
without a high school education in the United States of all races live 
shorter lives and experience poorer health than those with higher 
levels of education. In fact, white women without a high school 
education saw their life expectancy drop 5 years from 1990 to 2008. If 
people don't feel safe in their neighborhoods, they won't go outside to 
get exercise. If the nearest grocery store is 30 miles away and you 
don't have transportation, you won't have access to fresh fruits and 
vegetables. It is unacceptable that 130,000 people die each year due to 
poverty in this country, according to a 2011 study in the American 
Journal of Public Health. What would you do as Surgeon General to 
address some of the social determinants of health that result in 
significant health disparities in our country?
    Answer 2. In order to build a society that is firmly grounded in 
prevention and wellness, it is essential that we address the social 
determinants of health. I believe that to do this effectively requires 
the engagement of community institutions, including hospitals, 
community health centers, schools, businesses, faith-based 
organizations, and local government. If confirmed as Surgeon General, I 
would emphasize the importance of addressing social determinants in my 
public education efforts. I would also work with communities to build 
coalitions between community institutions that would work together to 
address structural barriers to health such as the poor availability of 
healthy foods and safe spaces for physical activity.
                            senator franken
    Question 1a. I share your commitment to our national investment in 
preventive health care, and especially in diabetes prevention. I 
authored legislation that established a grant program to fund National 
Diabetes Prevention Program sites across the country. A CDC pilot 
program in Minnesota and Indiana showed that this program reduces the 
incidence of Type 2 diabetes among participants with pre-diabetes by 
nearly 60 percent. This program, if scaled up nationally, could 
significantly reduce the number of people who have Type 2 diabetes in 
this country, while also helping to bring our national health care 
costs down.
    As Surgeon General, would you work with me to raise awareness and 
promote participation in the Diabetes Prevention Program?
    Answer 1a. Yes. If confirmed by the Senate, it would be my pleasure 
to work with you on the Diabetes Prevention Program.

    Question 1b. What are the specific steps you would take to 
disseminate information and expand access to the program?
    Answer 1b. The Diabetes Prevention Program (DPP) may be one of the 
best examples of a proven community-based program that addresses the 
fundamental causes of obesity--poor nutrition and inadequate physical 
activity. The Federal Government's role in developing DPP is a model 
for the government's role in prevention: NIH supported the randomized 
clinical trial that demonstrated the approach works, CDC has supported 
translating this into a community-based program in collaboration with 
the YMCA, and now insurance plans across the country are beginning to 
pay for it, ensuring sustainability. The DPP is about empowering 
individuals through community organizations to make healthier choices. 
If confirmed as Surgeon General, I would work to build coalitions 
between community institutions, including hospitals, community health 
centers, YMCAs, schools, businesses, faith-based organizations, and 
local government that could implement and sustain programs such as the 
DPP. This would involve educating communities about evidence-based 
programs like the DPP and sharing experiences and lessons from other 
communities that have successfully implemented DPP.

    Question 2. In your written testimony, you expressed your 
commitment to reducing the stigma associated with mental illness in 
this country. This is a priority of mine as well. I hold the seat that 
Paul Wellstone once held, and I've worked hard to maintain his 
leadership on mental health issues.
    I sponsored a bill called the Mental Health in Schools Act, which 
establishes a program that has just received appropriations for this 
year. The program will provide grants for schools to collaborate with 
community mental health providers and other community-based 
organizations to expand access to mental and behavioral health care 
services for students.
    As Surgeon General, what specific steps would you take to reduce 
the stigma associated with mental illness, particularly among children 
and young adults?
    Answer 2. If confirmed, I would work with families, local leaders, 
schools, and community organizations to communicate scientifically 
based information that provides a true understanding of mental health 
conditions while also putting a human face on the important issue of 
mental health. I would focus on conveying that mental health concerns 
are part of life in every community and in virtually every family while 
also sharing that effective treatments are available to improve 
people's well-being and their ability to contribute in the workplace 
and other settings. One of my responsibilities would be to ensure that 
our patients are gaining real access to evidence-based treatments, 
particularly our youth, and that we are reducing the stigma associated 
with mental illness in our communities.

    Question 3. In your written testimony, you discuss the importance 
of providing the public with science-based information. I agree, 
especially at a time when so many innovators in Minnesota and across 
the country are making so many ground-
breaking discoveries. But even if your information is based on science, 
I imagine that may find it challenging at times to communicate your 
ideas with those who disagree with you.
    As Surgeon General, how would you respectfully work to promote 
public health with communities that do not accept science-based ideas?
    Answer 3. As I have cared for patients over the years, I have 
always sought to provide them with scientifically grounded information 
while respecting the diversity of their individual beliefs and their 
ultimate choices. If confirmed by the Senate, I would take a similar 
approach that honored each individual's right to assess the facts and 
come to their own conclusions. The Surgeon General can bring 
communities together around shared challenges as a starting point for 
discussion (for example, a common desire to reduce diabetes and prevent 
childhood obesity). The Surgeon General can also share evidence-based 
information with people as well as the experiences of other communities 
with applying such information. For example, while it may be helpful 
for a community to know that the Diabetes Prevention Program led to a 
58 percent reduction in the incidence of Type 2 diabetes, it is 
especially helpful to hear from other communities that have implemented 
and are seeing the benefits of the DPP. Communicating scientific 
information and strengthening dialog between communities about 
solutions that work are important roles that I would hope to play if 
confirmed as Surgeon General.
                             senator casey
    Question 1. Prescription drug abuse: Prescription drug abuse is a 
problem facing many of our communities. Recently, as prescription drugs 
become harder to abuse, I am hearing more and more stories of people 
turning to illegal drugs, such as heroin, because they are more readily 
available and can be less expensive. A 2011 report by the National Drug 
Intelligence Center found that many youth in particular were 
transitioning from abuse of prescription opiates to heroin. As Surgeon 
General, what steps would you take to help address this problem? Are 
the considerations for a coordinated public health response changing, 
as people with substance abuse problems turn from legal to illegal 
drugs?
    Answer 1. The relationship between prescription opiate abuse and 
abuse of illegal opiates such as heroin has always been a balance 
between supply and demand and cost. Heroin is cheaper now than it has 
been in many years and therefore more accessible. Prescription opiate 
drug abuse can be a gateway to heroin addiction. We must address these 
public health problems simultaneously and tailor the public health 
response so that there is appropriate consideration for the full needs 
of the communities where these devastating problems exist.
    Prescription drug abuse affects every sector of American society, 
and we must educate the public to recognize that all opiate drugs are 
addictive. Additionally, we can focus on improving health care provider 
training regarding proper prescribing of opiates and the management of 
chronic pain; improving access to effective,
evidenced-based treatment for opiate addiction; and improving public 
education about the proper use of opiates and the proper disposal of 
unused drugs.

    Question 2. Children's health: Increasing evidence demonstrates the 
effectiveness of early intervention in putting children on a path to 
success, from early learning to nutrition and exercise. You expressed 
an interest in working on health issues related to obesity, if 
confirmed. How would you incorporate children into your approach to 
obesity prevention and treatment?
    Answer 2. My experience building community coalitions and my 
knowledge of community efforts through my work on the Prevention 
Advisory Group has taught me that (1) communities are best able to 
determine the optimal approach for addressing public health challenges 
based on their needs, capacity and norms, and (2) all community groups 
can play a role in improving prevention and addressing obesity rates 
among their members, employees, and constituents. If confirmed as 
Surgeon General, I would seek to work with faith-based groups, local 
businesses, schools, health care delivery systems (e.g., hospitals and 
community health centers), and community benefit organizations such as 
the YMCA to educate communities about healthy diet and physical 
activity choices and to build coalitions that can implement 
scientifically based programs to improve diet and physical activity. 
Resources such as the U.S. Community Preventive Services Task Force 
recommendations provide accessible summaries of community interventions 
that are evidence-based and can be helpful to communities considering 
implementing obesity programs. The precise obesity reduction 
initiatives undertaken would depend on the community's needs and the 
coalition's interests but could include voluntary initiatives directed 
at improving public education on diet and exercise, making healthier 
food choices available in schools, workplaces, restaurants and 
hospitals, improving physical activity through voluntary fitness 
challenges, and enrolling eligible community members in risk reduction 
programs such as the Diabetes Prevention Program. The DPP has been 
shown to reduce the development of Type II diabetes by 58 percent, and 
is currently being employed for obese patients in New York through a 
partnership between the YMCA, physicians, and the NYC Department of 
Public Health.
    Children are a particularly important group to engage in these 
obesity initiatives given the alarming prevalence of obesity among our 
children. For this reason, I would ensure that my outreach efforts 
included schools and parents and that community coalitions strongly 
considered interventions that would impact children.

    Question 3. Bullying: While it is not always thought of as a public 
health issue, bullying and harassment have been shown to negatively 
impact the health of young victims of bullying. Children who are 
bullied are more likely to suffer physical ailments that can impede 
their performance and attendance at school, including common colds, 
sore throats, and headaches. I have introduced legislation ensuring 
that schools do more to prevent this behavior; what, in your opinion, 
can you do as Surgeon General to address this issue from a public 
health perspective?
    Answer 3. Important steps have been taken to address bullying 
through the 
Federal Partners for Bullying Prevention, including the creation of the 
Stop
Bullying.Gov Web site run by the Department of Health and Human 
Services in collaboration with the Department of Education. The Web 
site is a central resource for news, information, programs, and policy 
related to bullying, and it focuses on how communities can take action 
to stop bullying. The Federal collaborative has also organized the Stop 
Bullying Video Challenge and developed Townhall ToolKits for 
communities to encourage grassroots efforts to address bullying. If 
confirmed as Surgeon General, I would use the platform of the office to 
increase public awareness of bullying and its consequences. I would 
also encourage the study of programs to stop bullying, and I would 
review and promote programs that have been proven to work.

    Question 4. Older citizens: Pennsylvania, with 2.0 million older 
citizens, has the fifth largest population of older citizens in the 
country. This figure, representing roughly 15 percent of the population 
of the entire State, continues to grow each day. With the growing 
number of older adults in Pennsylvania and in the rest of the United 
States, what do you see as the most pressing public health issues 
related to this population and what steps would you initiate to address 
these issues?
    Answer 4. If confirmed as Surgeon General, I would be committed to 
promoting the health and wellness of all Americans across the life-
span. Our older adults would benefit from education and programs that 
promote healthy aging--maintaining one's independence and well-being. 
Healthy aging encompasses a number of cross-cutting and 
multidisciplinary initiatives, including (but not limited to) brain 
health; fall prevention through exercise programs and home safety 
information; caregiver resources and support; managing medications for 
chronic conditions; expansion of healthcare options to include in-home 
and other care to enable older adults to live independently as long as 
possible; vaccinations and health screenings supported by the U.S. 
Preventive Task Force; and protection from elder abuse.
    I would promote health in older citizens by working with community 
groups that support the needs of older adults as well as with our 
health care delivery systems to: (1) provide health information to 
older adults and those who care for them; (2) support and share 
programs that help older adults lead healthy, active lives; and (3) 
support research on prevention and disease management for older adults.

    [Whereupon, at 12:01 p.m., the hearing was adjourned.]

                                  [all]

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
